<html>
<title> - THE IMPACTS OF THE GOVERNMENT SHUTDOWN ON OUR ECONOMIC SECURITY</title>
<body><pre>[Senate Hearing 113-615]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 113-615
 
               THE IMPACTS OF THE GOVERNMENT SHUTDOWN 
                    ON OUR ECONOMIC SECURITY

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 11, 2013

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation
                             
                             
                             
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]



                           U.S. GOVERNMENT PUBLISHING OFFICE
93-946 PDF                     WASHINGTON : 2015                           
____________________________________________________________________________________      
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c5a2b5aa85a6b0b6b1ada0a9b5eba6aaa8eb">[email&#160;protected]</a>  
 
      
      
      
      
      
      SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
BARBARA BOXER, California            JOHN THUNE, South Dakota, Ranking
BILL NELSON, Florida                 ROGER F. WICKER, Mississippi
MARIA CANTWELL, Washington           ROY BLUNT, Missouri
MARK PRYOR, Arkansas                 MARCO RUBIO, Florida
CLAIRE McCASKILL, Missouri           KELLY AYOTTE, New Hampshire
AMY KLOBUCHAR, Minnesota             DEAN HELLER, Nevada
MARK WARNER, Virginia                DAN COATS, Indiana
MARK BEGICH, Alaska                  TIM SCOTT, South Carolina
RICHARD BLUMENTHAL, Connecticut      TED CRUZ, Texas
BRIAN SCHATZ, Hawaii                 DEB FISCHER, Nebraska
MARTIN HEINRICH, New Mexico          RON JOHNSON, Wisconsin
EDWARD MARKEY, Massachusetts         JEFF CHIESA, New Jersey
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                     John Williams, General Counsel
              David Schwietert, Republican Staff Director
              Nick Rossi, Republican Deputy Staff Director
   Rebecca Seidel, Republican General Counsel and Chief Investigator
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on October 11, 2013.................................     1
Statement of Senator Rockefeller.................................     1
    Report dated October 11, 2013 entitled, ``Impacts of the 2013 
      Government Shutdown'' by the Majority Staff of Senator 
      Rockefeller................................................    28
Statement of Senator Wicker......................................    41
    Letter dated October 9, 2013 to Hon. Penny Pritzer, 
      Secretary, U.S. Department of Commerce from Lisa Murkowski, 
      U.S. Senator; Don Young, Congressman for All Alaska; and 
      Doc Hastings, Chairman, Committee on Natural Resources.....    45
Statement of Senator Warner......................................    47
Statement of Senator Nelson......................................    48
Statement of Senator Schatz......................................    50
Statement of Senator Begich......................................    51
Statement of Senator Heinrich....................................    53
    Article dated October 2, 2013 from The New Mexican entitled 
      ``New Mexico amid shutdown: Economist warns of another 
      recession'' by Bruce Krasnow...............................    54
Statement of Senator Cantwell....................................    57
Statement of Senator Blumenthal..................................    59
Statement of Senator Klobuchar...................................    60
Statement of Senator Thune.......................................    63
Statement of Senator Markey......................................    66
    Letter dated October 10, 2013 to Hon. Edward J. Markey, 
      United States Senate from Susan K. Avery, President and 
      Director, Woods Hole Oceanographic Instutition.............    68

                               Witnesses

Hon. Deborah A.P. Hersman, Chairman, National Transportation 
  Safety Board...................................................     5
    Prepared statement...........................................     6
Hon. Marion C. Blakey, President and Chief Executive Officer, 
  Aerospace Industries Association...............................     9
    Prepared statement...........................................    11
Dr. Alan I. Leshner, Chief Executive Officer, American 
  Association for the Advancement of Science and Executive 
  Publisher of Science...........................................    15
    Prepared statement...........................................    16
Captain Keith Colburn, Alaska Fisherman, Owner and Operator, 
  Fishing Vessel Wizard..........................................    20
    Prepared statement...........................................    21
Rachel Weintraub, Legislative Director and Senior Counsel, 
  Consumer Federation of America.................................    22
    Prepared statement...........................................    24

                                Appendix

Response to written question submitted to Dr. Alan I. Leshner by:
    Hon. Amy Klobuchar...........................................    79
    Hon. Brian Schatz............................................    79


    THE IMPACTS OF THE GOVERNMENT SHUTDOWN ON OUR ECONOMIC SECURITY

                              ----------                              


                        FRIDAY, OCTOBER 11, 2013

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 1:08 p.m. in room 
SR-253, Russell Senate Office Building, Hon. John D. 
Rockefeller IV, Chairman of the Committee, presiding.

       OPENING STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    The Chairman. Good morning, all. This is our situation. The 
Republicans have just finished meeting with the President at 
the White House. They're either--I think they're on their way 
back, but coming back on a bus is sort of not like coming back 
in a Jaguar. So they will be here.
    John Thune may or may not come, and if he doesn't come I 
bless him, and if he does come I bless him, because this 
snowfall--this is what happens when you're in Washington and 
then you read about snowfall in the upper Midwest. One-half of 
all the cattle in his state were killed, and that's their 
business. That's their business. They're not North Dakota; they 
don't have oil. They're South Dakota; they've got cattle and 
farming. One-half.
    If he comes back, that's glorious. If he doesn't, then we 
should all wish him well in that. Losing cattle is--they're not 
people, but they cause people to lose their way of living.
    You think I should just leave it right there, head into my 
statement? You promise not to go to sleep this time, Mark?
    [Laughter.]
    Senator Begich. It depends which Mark you're talking about.
    [Laughter.]
    Senator Begich. I'm always overjoyed and enthusiastic about 
your opening statement.
    The Chairman. Are you? You're probably interested in 
fisheries, aren't you?
    Senator Begich. We love fish.
    The Chairman. Do you?
    Senator Begich. And we love crab.
    The Chairman. Do you?
    Senator Begich. Yes.
    The Chairman. Would you like the Captain, too?
    Senator Begich. I love the Captain.
    The Chairman. OK, that's good.
    Senator Begich. I want to get him back to work.
    The Chairman. All right, here we go.
    In 2008-2009 this country went through the worst recession 
since World War Two. We will probably never all agree about 
what or who caused any of this, but we know that the comeback 
from the great recovery has been very slow--from the great 
recession has been very slow and very, very painful.
    It's odd, actually, to look at the charts. There continues 
to be new jobs pumping into the economy, which is the good 
part. Then you start thinking about all these people that have 
been laid off and then all the ripple effect of all of that, so 
you don't really know where the economy is. But you have the 
feeling that it's not making much progress, and a lot of people 
are trying hard on that.
    So five years after that crash, unemployment remains at 
very high levels, stubbornly. And while our country is finally 
growing a little bit, it isn't really a whole lot of 
satisfaction. I think we can say that fairly.
    Our financial experts and our business leaders are telling 
us that it's still a fragile recovery, that the economy is 
still not systemically coming back the way they want. They're 
saying that if we're not careful with our actions--and nobody's 
been very careful around here for several months--a misstep 
could easily slip the economy back into a recession. And if it 
goes back really into a recession, then that's very, very bad 
news. Then I think you're talking several years to even begin 
to have a comeback.
    So I'm just going to be frank about this. A small group of 
people in Congress have been ignoring these warnings. Why is 
their business. They have in my judgment been recklessly 
putting our economy at risk of a relapse, which would be a 
disaster. Last week they wanted the repeal of the Affordable 
Care Act. This week they don't know what they want, but instead 
of coming to their senses they're digging in, and that only 
inflicts further pain on our businesses and families.
    That's been one of the problems around here. As they dig 
in, others dig in on both sides, and you just sort of--even 
though I would predict that there were some breakthroughs that 
will be reached, either were reached this morning or will be 
reached in the next couple of days, the feelings have not 
declined and therefore the implications for the future are not 
necessarily good.
    Some people seem to think that manufacturing budget crises 
is good politics, and I'll be frank about that. I think they 
have been learning over the past 2 weeks that it's not good 
politics. And I hope that they're also realizing that it's 
really bad public policy.
    If you don't trust my opinion that this shutdown is hurting 
our economy, let me read from a letter that the U.S. Chamber of 
Commerce and the Business Roundtable, which usually write two 
very different kinds of letters, and 250 other business groups 
sent to the Congress on September 30. They said: ``It's not in 
the best interests of the American employers or employees or 
the American people to risk a government shutdown that would 
economically be disruptive and create even more uncertainties 
for the U.S. economy.'' Not an enormously interesting 
statement, but the fact that they both wrote it and sent it and 
are now sort of putting pressure, more and more pressure, on 
all parties I think is very important.
    The damage and the disruption caused by this government 
shutdown are very, very real. What I regret in this hearing is 
that we'll be talking about things which come under our 
jurisdiction and we won't be discussing things like Head Start 
and the WIC program and food stamps and everything of that 
sort. So by not discussing it all we're recognizing is that we 
only have jurisdiction over certain things, but within those 
certain things there are the same human tragedies that are 
happening.
    It's hurting our families under so-called our 
``jurisdiction,'' our businesses, our government, and our 
standing in the world. We often talk about the economy in 
abstract terms, but what we're really talking about is millions 
of skilled and productive Americans in both the public and the 
private sectors whose hard work and dedication made our country 
strong. All of us who serve on the Commerce Committee 
understand that economic success is based upon a successful 
private-public partnership. In this case, I think the private 
sector will do anything to help and it's the public sector 
which is being cantankerous and not particularly helpful.
    Let me give you a few examples. The U.S. aviation 
manufacturing sector enjoys a worldwide reputation for quality 
and safety. How do we know their aircraft are safe and 
reliable? Because they Federal Aviation Administration inspects 
them. Have you ever seen FAA inspect an airplane? I have. It's 
terrifying. Nothing is safe. That's why we have a really safe 
record. And they certify that they meet high safety standards, 
and if they don't they can't take off.
    Our highway, railroad, and pipeline networks, they're among 
the safest in the world. It's hard to say when you see all the 
fracking and natural gas drilling and fires that come out of 
pipelines that nobody knew were there, to say that, but still 
we're pretty good at that. But because experts from the 
Department of Transportation and the National Transportation 
Safety Board constantly monitor them, they monitor them, and 
then they study how to make them safer. When they're doing that 
they often have to make new maps because they have uncovered 
new pipelines which they didn't know were there simply because 
pipelines have never really been inspected, and that's why you 
have to have regulation over things which can have a disastrous 
effect.
    So why has the United States led the world for decades in 
technology and innovation? Because scientists and technical 
experts at NASA, NSF, DOD, and other Federal agencies have 
performed the basic research and the engineering that private 
aerospace and technology companies need for commercial 
purposes.
    How do we keep dangerous imported products off the store 
shelves and out of the hands of children? Consumer Product 
Safety Commission officials monitor our ports and stop 
dangerous products from entering our stream of commerce.
    The good captain sitting before us, Keith Colburn, is going 
to explain to us how NOAA helps the U.S. commercial fishing 
industry harvest our country's marine resources in a 
sustainable, responsible way. Perhaps he will also explain to 
us how his industry relies on something called the Coast Guard, 
which is part of our work here, to prevent foreign vessels from 
fishing in our United States waters, which I suspect is now 
taking place aggressively.
    For 2 weeks, House Republicans have blocked these 
government agencies from doing their important jobs. They have 
told most of our safety experts, scientists and engineers: Go 
home.
    Before I conclude--and I apologize for the length of this--
if you don't have appropriations, some of the world's most 
talented professionals are prohibited by law from continuing to 
help our country. One of the people sitting home this week on 
furlough without salary is a NIST employee named Dr. David 
Wineland, whom I had never heard of, but the Nobel Prize people 
have, and they gave him a Nobel Prize in 2012 for his work on 
atomic physics. Well, he's just sitting at home. He can't go to 
his lab. The lab closed. The small handful of Members of 
Congress who engineered the government shutdown don't seem to 
value Dr. Wineland's work as much as the rest of the scientists 
in this world do.
    I regret that I had to call this hearing today. I don't 
want it to be partisan, but I had to say what's on my mind, OK. 
This shutdown is doing enormous harm to our country, and it was 
totally avoidable. It's like black lung. You know what black 
lung is, Captain? You don't have a lot of that up there. It's 
where you mine coal and you breathe dust, and when you do 
autopsies on miners for the most part they're going to have 
black lung. They die from it because they can't breathe.
    Well, this isn't in our jurisdiction, but the Federal MSHA, 
the Federal inspectors who inspect these mines, who operators 
find expensive to keep safe and therefore--and ventilated and 
sprayed with water--there are no Federal inspectors around, so 
nobody has to worry. And it scares me in places like West 
Virginia that do have coal and other States, what's going to 
happen.
    All we needed was a House of Representatives willing to 
accept reality and the clean CR bill the Senate has sent them.
    Now, I'm just, I'm going to end, and I apologize to all of 
my colleagues. I just want to read this thing. It's very short 
and it's terrifying: Consumer Product Safety Commission, 518 of 
540 total employees furloughed, not there. Department of 
Commerce, 40,000 of 46,000 total employees not there. 
Department of Transportation, 18,000 of 55,000 not there. 
Federal Communications Commission, 1,700 of 1,754 not there. 
Federal Maritime Commission, 120 of 120 total employees, all of 
them, not there. Federal Trade Commission, 925 of 1,100 not 
there. NASA, 17,000 of 18,000 not there.
    Senator Nelson. Ninety-seven percent.
    The Chairman. I know. Ninety-seven percent, the 
distinguished Senator tells me.
    The National Science Foundation, which I cherish, 1,970 of 
2,000 not there.
    So, forward, America? Not yet. That concludes my statement, 
and who shall I call on? Are we in order of arrival?
    Senator Nelson. Let's go to the witnesses.
    The Chairman. Go to the witnesses?
    Senator Warner. Mr. Chairman, you spoke so eloquently.
    The Chairman. This is unprecedented behavior.
    [Laughter.]
    The Chairman. All right. Well, let me do that, then. We're 
going to start with the Honorable Deborah A.P. Hersman--I 
didn't know the ``A.P.'' was in there, but I do now--Chairman 
of the National Transportation Safety Board; and the Honorable 
Marion Blakey, President and Chief Executive Officer, Aerospace 
Industries Association, former head of the Federal Aviation 
Administration; Dr. Alan Leshner, the Chief Executive Officer 
of the American Association for the Advancement of Science and 
Executive Publisher of Science Magazine; Captain Keith Colburn, 
Alaska fisherman, owner and operator, F/V Wizard. Am I right?
    Mr. Colburn. Yes.
    The Chairman. Thank you.
    And Rachel Weintraub, the Legislative Director and Senior 
Counsel, Consumer Federation of America.
    Deborah Hersman, may we start with you, please.

  STATEMENT OF HON. DEBORAH A.P. HERSMAN, CHAIRMAN, NATIONAL 
                  TRANSPORTATION SAFETY BOARD

    Ms. Hersman. Yes, sir. Good afternoon, Chairman Rockefeller 
and members of the Committee. I appear before you today to 
discuss the effect of the Federal Government shutdown on the 
mission of the National Transportation Safety Board.
    On October 1, 2013, the NTSB delivered furlough notices to 
383 of our 405 employees. Our contingency plan for operations 
following a lapse in appropriations provides that all 
activities of the NTSB be shut down except for those necessary 
to prevent imminent threats to the safety of human life or 
protection of property, consistent with Anti-Deficiency Act 
requirements and OMB guidance.
    Here is what we are not doing in the 10 days that have 
passed since the shutdown: 14 accidents have occurred in which 
we have not dispatched investigators, including an 8-fatal bus 
crash that occurred in Tennessee, a 4- fatal general aviation 
accident that occurred in Arizona, and a worker fatality that 
occurred just blocks from here on Washington's Metro system.
    In addition to the activities that we are not initiating, 
the shutdown has resulted in the suspension of work on over 
1,000 investigations in all modes of transportation. These 
delays slow our determination of probable cause and the 
issuance of safety recommendations, essentially delaying safety 
to the American public, resulting in lost lives and injuries.
    As examples, this week we announced the postponement of two 
investigative hearings: the first a rail hearing involving two 
accidents on Metro North Railroad and the second an aviation 
hearing involving Asiana 214 that crashed on approach to San 
Francisco Airport. Both of those hearings have been postponed 
due to the shutdown.
    As one of the preeminent safety investigation agencies in 
the world, we routinely field requests from our domestic and 
international colleagues to provide technical expertise in 
their investigations, such as reading flight recorders. In the 
last 10 days we have declined two international requests for 
assistance and one request from the State Department for 
support.
    The NTSB has also received dozens of notifications from our 
counterparts around the globe about accidents involving U.S.-
manufactured aircraft. While we are shut down the NTSB is not 
able to fully represent U.S. interests in aviation around the 
world.
    Here is what the NTSB is doing during the government 
shutdown. In the last 10 days we have identified five accident 
investigations that met the legal requirements for excepting 
employees from furlough. We have also issued two sets of urgent 
safety recommendations identifying imminent threats to life or 
property.
    In the event of a major transportation accident that meets 
the legal criteria for bringing employees back from furlough, 
we will launch a limited investigative team. Our furloughed 
employees are prepared to resume their roles as transportation 
safety investigators to collect perishable evidence and issue 
urgent safety recommendations only. However, you should know 
that the investigations would be just that, very limited. We 
would not provide the other important functions that the public 
has become accustomed to that do not meet that imminent threat 
to life or property threshold, such as providing support to 
accident survivors and victims' families after a crash or 
providing updates to the public on the progress of our 
investigations.
    The NTSB provides a vital service to the traveling public 
as the independent voice in conducting detailed accident 
investigations. I urge you to reopen the government so that the 
NTSB can fully resume our safety mission.
    Thank you.
    [The prepared statement of Ms. Hersman follows:]

   Prepared Statement of Hon. Deborah A.P. Hersman, Acting Chairman, 
                  National Transportation Safety Board
    Good afternoon Chairman Rockefeller, Ranking Member Thune, and 
Members of the Committee:
    I appear before you today to discuss the effect of the lapse of 
appropriations and the shutdown of the Federal government on the 
mission of the National Transportation Safety Board (NTSB).
    On October 1, 2013, the start of the new fiscal year, the NTSB 
provided furlough notifications to 383 of our 405 employees. As 
Presidentially-appointed, Senate confirmed officials; all five Board 
Members are excepted from the furlough. Guidance issued by the Office 
of Management and Budget required Federal agencies to develop a 
contingency plan for the suspension of operations due to the furlough, 
and that plan was required to be posted on each agency's website. Our 
plan provides the framework for how the agency would engage in an 
orderly process of shutting down and contingency plans during suspended 
operations. Our contingency plan for operations provides that all 
activities of the NTSB would be shutdown, except those necessary to 
prevent imminent threats to the safety of human life or the protection 
of property consistent with the Antideficiency Act requirements and 
guidance from OMB.
    In the ten days that have passed since the lapse of appropriations, 
there are a number of accidents that have occurred in which we have not 
sent an investigator or investigative team. A list of those events is 
included as Attachment 1 at the end of my testimony.
    In addition to the activities that we are not initiating, the 
shutdown has resulted in the suspension of ongoing investigative work 
across all modes of transportation (summarized in Attachment 2). 
Further, we have announced this week that due to the shutdown, we have 
postponed two investigative hearings: a rail hearing on October 22-23 
regarding two Metro-North rail accidents that occurred this past May, 
and an aviation hearing on November 6-7 on the crash of the Asiana 777 
at San Francisco International Airport that occurred this past July.
    Since the government shutdown, we have identified several accident 
investigations that met the criteria outlined in our plan. We have also 
issued two sets of urgent recommendations over the last 10 days 
identifying imminent threats to life or property. Investigative 
activities that have been authorized during the shutdown include the 
following:

  <bullet> On September 29, a Cessna business jet crashed into a hangar 
        while landing at the airport in Santa Monica. The four persons 
        on board that aircraft were killed. Our investigators responded 
        to the accident scene that evening and continued their work 
        beyond October 1, 2013 to ensure the collection and 
        preservation of perishable evidence. Investigators were able to 
        interview the air traffic controllers at the airport and 
        document the evidence on the airport property, and oversaw the 
        removal of the wreckage and identification of remains. The 
        wreckage has been transported to a secure warehouse and will be 
        examined upon the resumption of normal operations. This 
        investigation is now suspended.

  <bullet> On September 30, an unoccupied Chicago Transit Authority 
        (CTA) train consisting of four cars collided with a CTA train 
        in revenue service that was stopped at the Harlem Station on 
        the Blue Line. There were about 40 passengers on the in-service 
        CTA train. CTA reported that 33 passengers were transported to 
        three local hospitals. All were treated and released. There 
        were no fatalities. We continued that investigation because we 
        were concerned about the unintended movement of the train cars. 
        We issued urgent recommendations to the Federal Transit 
        Administration and the CTA on October 4, 2013, to take actions 
        to prevent the unintended movement of train cars. After the 
        completion of the on-scene work, the investigative team was 
        placed on furlough status, and the investigation was suspended.

  <bullet> On October 5, the NTSB was notified that a U.S. registered 
        aircraft operated by Star Marianas Air had disappeared on a 
        flight from Tinian to Saipan in the Northern Mariana Islands. 
        We made a determination to recall one investigator from 
        furlough on a limited basis to collect the safety critical 
        information. However, we have determined that the investigator 
        will not be traveling to the crash scene, and at this time, all 
        further activity has been suspended.

  <bullet> On October 10, the NTSB issued an urgent recommendation to 
        the California Public Utilities Commission related to a 
        September 5, 2013, event in California. Upon completion of the 
        urgent recommendation, the investigator was placed back on 
        furlough status and further investigative activity has been 
        suspended.

  <bullet> On October 10, an NTSB investigator examined an engine 
        involved in a medical helicopter crash that occurred on 
        September 19, 2013 in Canton, MS in which the helicopter 
        experienced a loss of power and crashed into a field. There 
        were 4 occupants on board that helicopter and survived with 
        minor injuries. We will determine if any further action needs 
        to be taken during the government shutdown.

    During the shutdown, the NTSB has received over 20 notifications 
from our counterparts around the globe about accidents involving U.S. 
manufactured aircraft. Pursuant to Annex 13 of the Convention on 
International Civil Aviation, the NTSB represents the United States in 
international aviation accident investigations that involve a U.S. air 
carrier, U.S. manufactured aircraft or component part. Under normal 
circumstances, we would likely engage one or more of our investigators 
to collect the relevant information from the state of occurrence. In a 
major accident investigation, we would send an investigator to the 
accident scene and serve on scene on behalf of the United States. 
During the shutdown, the NTSB has not been able to fully represent U.S. 
interests in aviation accidents around the world.
    As one of the preeminent safety investigation agencies in the 
world, we routinely field requests from our international counterparts 
to provide technical expertise in their investigations. Requests for 
assistance may include deploying an investigator or assisting with an 
evaluation of equipment or downloading and reading the information on a 
flight data recorder or other non-volatile memory devices. We have 
declined two foreign requests for assistance and one request from the 
State Department for support in the last 10 days.
    As you know, the NTSB also has a judicial function by hearing 
appeals of enforcement actions by the Federal Aviation Administration 
and the Coast Guard. Our administrative law judges and their staff are 
furloughed and no appeals are being heard, nor or any decisions being 
rendered on pending cases. Also, the furloughing of NTSB legal staff 
has prevented us from providing needed assistance to U.S. Attorney 
Offices in two pending court cases.
    In the event of a major transportation accident that meets the 
criteria outlined in our contingency plan, we are prepared to launch an 
investigative team. Our furloughed investigators are prepared to resume 
their roles as transportation safety investigators if recalled. 
However, other important functions that do not meet the ``immediate 
threat to life or property'' threshold, such as briefing the public on 
the status of the investigation or providing support to accident 
survivors or victims' families will not resume under a shutdown.
    I urge you to take action to permit the NTSB to resume its critical 
safety mission.
                              Attachment 1
    Notifications of accidents where it was determined that no NTSB 
investigative team should be lauched during a government shutdown

  <bullet> September 30 (notification received on October 8) Tioga, ND: 
        an unknown amount of crude oil was discovered spilled; an 
        updated report confirms release from Tesoro below ground 
        transmission line of 20,600 barrels of crude oil contained in 
        upper 10 ft. of soil over 7.3 acres. No surface or ground water 
        impact reported.

  <bullet> October 1, Kent, WA: Tesla Model S fire--lithium ion battery 
        issue, would have complemented previous involvement in the 
        investigation of the Chevrolet Volt fire investigation and 
        would have provided additional information regarding the 
        technology.

  <bullet> October 1, Lone Jack, MO: Kolb Firestar (ultralight), 
        airplane stalled on takeoff, possible engine issue, 1 fatality.

  <bullet> October 2, Dandridge, TN: A bus, operated by Front Street 
        Baptist Church in Statesville, NC, was travelling on Interstate 
        40 eastbound when the left front tire reportedly blew out, the 
        bus crossed through the median area and into the westbound 
        traffic lanes and was impacted by a westbound tractor-trailer 
        and a SUV. Eight total fatalities (6 people on the bus died, 
        the driver of the tractor-trailer died and one of the three 
        occupants in the SUV). There were a minimum of 13 others who 
        were injured, many of them seriously.

  <bullet> October 4, Paulden, AZ: a privately owned airplane hit a 
        radio tower and crashed while flying over a remote gun club 
        property, 4 fatalities.

  <bullet> October 5, Colombia (near border with Panama): U.S. 
        Bombardier Dash-8 operated by Airborne Global Services 
        International (Part 135), 6 occupants--4 fatalities, 2 serious 
        injuries; U.S. operated aircraft crashed while flying a drug 
        interdiction mission in Colombia.

  <bullet> October 6, Washington, D.C.: WMATA rail worker fatality on 
        Red Line between Judiciary Square and Union Station.

  <bullet> October 6, Cayo Luis, Puerto Rico: Part 135 operation, a 
        newspaper delivery air taxi flight crashed near Culebra Island. 
        One fatality. The aircraft is submerged and recovery effort is 
        underway.

  <bullet> October 6, Paducah, TX: McDonnell Douglas 369 helicopter, 
        engaged in external load wire stringing operation when it hit 
        wires and crashed, one fatality.

  <bullet> October 7, Ripley, NY: house explosion; preliminary 
        information from the state regulator that the leak was on the 
        street side of the meter and that it was the result of improper 
        material for the service connection.

  <bullet> October 8, Rosston, OK: natural gas pipeline eruption, 
        evacuation within a 2 mile radius of the explosion.

  <bullet> October 9, Williamsport, PA: Greyhound bus collision on I-
        80; 1 fatality, numerous injuries. This is the second fatal 
        Greyhound bus crash in a month.

  <bullet> October 9, Gulf of Mexico: Bell Helicopter was taking off 
        from a drilling platform when it descended into the water and 
        rolled on its side. 4 persons on board, 1 fatality, 2 minor 
        injuries, 1 uninjured. The helicopter is in the water and a 
        recovery effort is underway; no known reason for the descent 
        into the water.
                              Attachment 2
    An abbreviated list of the approximately 1,500 accident 
investigations suspended pending the resumption of normal operations:
Aviation

  <bullet> UPS Airbus 300--Birmingham, Alabama

  <bullet> JAL Boeing 787 Battery Fire--Boston, Massachusetts. 
        Additional testing contracted to Underwriters Laboratories (UL) 
        is on hold.

  <bullet> Southwest Airlines Boeing 737 Hard Landing--LaGuardia 
        Airport, New York. Data analysis and brief report on hold.

  <bullet> TWA Flight 800 Fuel Tank Explosion Petition for 
        Reconsideration--East Moriches, New York.
Highway

  <bullet> Midland, TX Parade float collision with UP train: Parade 
        float carrying wounded warriors and their spouses from the Iraq 
        and Afghanistan wars was impacted by a UP train. Four soldiers 
        were killed, many were seriously injured. The consideration of 
        the final report was scheduled for completion prior to the one 
        year anniversary date of the accident--a delivery date that is 
        now in jeopardy.

  <bullet> Mount Vernon, WA (May 23, 2013): Bridge Collapse over the 
        Skagit River. All investigative activity and project work has 
        halted.

  <bullet> Rosedale, MD (May 28, 2013): CSX freight train hit a truck 
        in Baltimore County Maryland resulting in the train derailing 
        and an explosion. All investigative activity and project work 
        has halted.
Marine

  <bullet> New York, NY (January 9, 2013): Ferry Seastreak Wallstreet 
        hit the pier while docking; 80 people were injured, 4 
        seriously. All investigative activity and associated project 
        work is suspended.

  <bullet> Tall ship Bounty (October 29, 2012): heeled over and sank in 
        rough waters related to hurricane Sandy. There were 2 
        fatalities, 3 of the 16 crewmembers were seriously injured. The 
        final report on this investigation was being prepared at the 
        time of the furlough.
Rail

  <bullet> Bridgeport, CT (May 17, 2013): An eastbound Metro North 
        Railroad passenger train (departing Grand Central Station, NY 
        toward New Haven, CT) derailed and was struck by westbound 
        Metro North passenger train (departing New Haven toward Grand 
        Central Station). As a result of the collision, 73 passengers, 
        2engineers, and a conductor were transported to local hospitals 
        with injuries. Metro North estimated there were about 250 
        passengers on each train at the time of the accident.

  <bullet> Paulsboro, NJ (On November 30, 2012): A southbound Conrail 
        freight train, consisting of two locomotives and 82 cars, 
        derailed seven cars while traveling over a moveable bridge 
        spanning Mantua Creek. Four tank cars, three containing vinyl 
        chloride and one containing ethanol, came to rest in Mantua 
        Creek. One of the derailed tank cars was breached and released 
        approximately 20,000 gallons of vinyl chloride into the creek 
        and surrounding area. No fatalities resulted from the accident; 
        the train conductor and several residents were treated at local 
        hospitals for exposure to vinyl chloride and released.

  <bullet> Ellicott City, MD (August 20, 2012): An eastbound CSX 
        Transportation (CSX) coal train, consisting of two locomotives 
        and 80 cars loaded with coal, derailed the lead 21 cars. Loaded 
        coal cars involved in the derailment overturned, spilling their 
        content along the track killing two people that were sitting on 
        a railroad bridge.
Pipeline

  <bullet> Sissonville, WV (December 11, 2012) Rupture of a buried 20-
        inch diameter natural gas transmission pipeline owned and 
        operated by Columbia Gas Transmission Corporation ruptured just 
        over 100 feet west of Interstate 77 in Sissonville, West 
        Virginia. About 20 feet of pipe was separated and ejected from 
        the underground pipeline and landed more than 40 feet from its 
        original location. Three homes were destroyed by the fire after 
        the escaping high-pressure natural gas ignited; no one was 
        seriously injured.

    The Chairman. Thank you very much, Chairman Hersman.
    Now the Honorable Marion Blakey, President and Chief 
Executive Officer, Aerospace Industries Association.

              STATEMENT OF HON. MARION C. BLAKEY,

             PRESIDENT AND CHIEF EXECUTIVE OFFICER,

                AEROSPACE INDUSTRIES ASSOCIATION

    Ms. Blakey. Thank you, Chairman Rockefeller, and thank you, 
members of the Committee, for holding this hearing today. It is 
a very important topic and we are very appreciative of your 
attention on this.
    Unfortunately, the shutdown is negatively impacting many 
civil aerospace programs that advance our Nation's both 
technological edge and our economic progress. The longer this 
goes on, the worse it becomes.
    While not much attention has been paid so far to the 
private sector workforce that supports our government agencies, 
they too are suffering shutdown consequences, especially those 
smaller companies that are a vital link in the aerospace and 
defense supply chain. With limited cash flow, they're at risk 
of shuttering their operations in the event of an extended 
shutdown. And unlike the Department of Defense, many domestic 
agencies have furloughed most of their financial and accounting 
staff, therefore leaving companies that are told they need to 
perform essential support for government worker without 
payment.
    In the civil space arena, NASA is operating, just as the 
Chairman said, with a skeleton crew, less than 3 percent of its 
18,000 workers. While industry's work on high-visibility space 
programs generally so far has been unaffected due to very smart 
prior planning on the part of industry and NASA, these programs 
are on borrowed time. If the shutdown drags on major problems 
will develop, and additionally industry's work on many other 
NASA and commercial programs is already being affected.
    With a few exceptions, NASA's unique national facilities 
are shuttered, unavailable for industry access to work either 
on government or commercial space programs. Support contractors 
working at NASA locations simply are unable to do their jobs. 
To compensate, larger companies are encouraging their workers 
to take unplanned vacations, try to find other assignments. But 
smaller firms are facing very difficult decisions, because they 
have no assurance that they'll be paid for work done during the 
shutdown. And of course the ripple effects are being felt 
throughout those communities.
    At the FAA's Office of Commercial Space Transportation, 
reduced staffing is leading to delays in the approval of launch 
licenses. This is burdening companies that are already risking 
their own capital to restore America's launch leadership and 
help NASA become independent of Russia for crew launch.
    There's also the potential impact to NASA's weather 
satellite development work they do for NOAA. The Joint Polar 
Satellite System, JPSS, is scheduled to launch no earlier than 
18 months after the end of design life for the SUOMI satellite 
that is now up there functioning. The JPSS schedule could 
worsen if this shutdown extends much longer.
    Turning to civil aviation, at the FAA nearly 15,000 
employees, about one-third of the workforce, are furloughed. 
While air traffic controllers are still working, they're doing 
their job without normal support functions and they're not able 
to train or qualify new controllers.
    A larger impact is being seen at FAA's safety and 
certification programs. The law requires that FAA certify all 
aircraft equipment, training simulators, before they can go 
into service. Although some certification engineers and 
inspectors are being recalled to work, more than 90 percent 
were furloughed when the shutdown began last week. This is 
delaying the delivery of new products to customers and 
worsening a backlog that was already affected by the sequester 
last spring.
    Also, FAA's Aircraft Registry Office in Oklahoma City is 
closed, halting delivery of new aircraft to their rightful 
owners. And regrettably, the FAA has suspended the development, 
operational testing, and implementation of NextGen technologies 
designed, of course, to make our air transportation safer, 
environmentally better, and efficient.
    As difficult as the shutdown is, we should not lose sight 
of sequestration's long-term harm. Federal agencies have dealt 
with Fiscal Year 2013 sequester by freezing hiring, deferring 
needed maintenance, eliminating training, and cutting 
operational travel. These priorities can't be sustained 
indefinitely. As agencies are forced to choose between today's 
operating budget and tomorrow's capital investments, there's no 
doubt investments will suffer. In working to develop a final 
Fiscal Year 2014 budget, we urge the sequester's replacement be 
found with more reasonable budget caps.
    So in conclusion, it's important to stress that the 
shutdown has only lasted 11 days and, while the impacts I've 
discussed are tangible and harmful to our Nation and our 
industry, a much lengthier shutdown could lead to cascading, 
devastating consequences. I believe Congress and the 
administration must end the shutdown and begin work on a 
bipartisan grand bargain. Let's ensure our government will not 
only continue to operate, but that Federal programs which 
advance our Nation's economy and our system interests receive 
the funding they need.
    Thank you very much.
    [The prepared statement of Ms. Blakey follows:]

   Prepared Statement of Hon. Marion C. Blakey, President and Chief 
          Executive Officer, Aerospace Industries Association
    Chairman Rockefeller, Ranking Member Thune and members of the 
Committee, I appreciate the opportunity to provide testimony on this 
very important subject. From the perspective of the Aerospace 
Industries Association, our member companies and their thousands of 
skilled and dedicated workers, I can report that the partial government 
shutdown is having a very negative impact on many of the civil 
aerospace programs that help advance our Nation's technological and 
economic progress. We also expect that the longer this goes on, the 
worse it will become. And while not much attention has been paid to the 
private sector workforce that supports our government agencies, they 
too are suffering the consequences of the shutdown. We are particularly 
concerned about the small companies that are vital to our Nation's 
aerospace and defense supply chain. With limited cash flow, they are at 
risk of shuttering their operations in the event of an extended 
shutdown. And unlike the Department of Defense, many domestic agencies 
have furloughed most of their financial and accounting staff, leaving 
companies often performing essential work without reimbursement.
    It is impossible to predict exactly what the economic and other 
impacts will be of a two week, four week, or longer period of the 
shutdown. Each program, each contract is different and it will take 
some time to work through the consequences in terms of both costs and 
delays. However, I believe that the following facts and concerns that 
we have regarding the impacts of the shutdown to NASA, NOAA, the 
Federal Aviation Administration and aerospace product exports will help 
impress upon this Congress and the Administration the need to end the 
shutdown.
    I also want to emphasize our industry's concern about the ongoing 
problem of sequestration and lack of budget predictability. In the 
absence of a bipartisan agreement to address fundamental fiscal issues, 
the sequestration budget cuts will continue to undermine work on the 
very Federal programs that make our country stronger, safer and more 
economically robust. With these thoughts in mind, I would like to 
address emerging and expected impacts of the partial shutdown to date 
to NASA, NOAA, FAA and Department of Commerce export activities, and 
related industry impacts.
Civil Space Impacts
    Under the Federal government shutdown, NASA has been operating with 
a skeleton crew of less than three percent of its 18,000 workers, 
hampering many of the agency's ongoing programs as well as programs in 
development, and impacting industry's ability to do its job 
efficiently. The industry workforce supporting NASA is also being 
affected. Program costs are expected to rise as schedules slip. All of 
NASA's programs may face future funding challenges as a consequence.
    While the industry's work on high visibility NASA programs--
including the Space Launch System heavy-lift rocket, the Orion Multi-
Purpose Crew Vehicle and the James Webb Space Telescope--has been 
largely unaffected to date, this has not been just due to good fortune; 
rather, it is due to smart planning by industry and NASA in 
anticipation of a shutdown and the availability of DOD quality 
assurance inspectors at facilities with a DOD presence. The situation 
in other facilities where these inspectors are not present is more 
problematic as I will explain in more detail.
    With regard to NASA facilities, with a few notable exceptions such 
as the International Space Station support activity at the Johnson 
Space Center's Mission Control in Houston, and those needed for the 
upcoming launch of the MAVEN mission to Mars, they are shuttered and 
unavailable for industry access. For support contractors working at 
NASA locations, this means they are unable to do their jobs. To 
compensate, larger companies are forced to encourage workers to take 
unplanned vacation time off or try to find other work that they can do 
elsewhere. Smaller firms often do not have this flexibility; in many 
cases September 30 marked the end of a contract period of performance. 
With no funding and no contract in place, small firms are keeping their 
workforce together at their own risk with no assurance the workers will 
be paid for the work done during the shutdown. For companies of all 
sizes, if the shutdown persists, these workers will face furloughs and, 
unlike furloughed Federal employees, there is no guarantee that will be 
reimbursed for lost wages. There is a real potential for a negative 
ripple effect throughout local economies in these regions. Other work 
that contractors are doing at NASA facilities--including preparations 
for the first Orion space capsule test launch in 2014 are shut down 
since contactors are not allowed access to the NASA facility where the 
work must be performed.
    NASA's commercial crew program is another area of concern to 
industry. The need for the program--which will finally enable NASA to 
stop paying Russia over $70 million a seat for astronaut transportation 
to and from the International Space Station--is clear. Currently, NASA 
has no plans to purchase rides on the Soyuz launch vehicle beginning in 
2017 and U.S. companies are expecting the market for commercial crew to 
open up in this timeframe. Any schedule slippage risks this plan and 
could jeopardize the companies' financial ability to deliver. Now, 
NASA's formal Request for Proposals for Commercial Crew may be delayed 
due to the shutdown, driving up the cost for companies to bid on the 
opportunity since their proposal teams need to be maintained. 
Additionally, for some firms, testing activities have been put on hold 
due to a lack of NASA support, further raising the costs to industry 
for this program.
    Industry and NASA have long used Space Act Agreements--or SAAs--to 
innovatively develop new technologies and capabilities in a true public 
private partnership. These SAAs have been very beneficial; most 
recently, in facilitating the cost effective development of commercial 
cargo support vehicles for the International Space Station and to 
enable commercial crew vehicle development. Unfortunately, as a result 
of the shutdown, NASA is not able to support these partnerships and 
provide industry access to unique national test facilities needed for 
space system developments. In other cases, NASA is not able to perform 
the technical support they committed to provide industry under SAAs. As 
a consequence, industry may see its schedules slip and project costs 
grow.
    Another area of concern is the impact of the shutdown to the 
Federal Aviation Administration's Office of Commercial Space 
Transportation. This office's technical staff reviews and approves 
licenses for the commercial launch companies who are developing 
promising new space systems for our country. As a result of the 
shutdown, only the office's highest priority activities are being 
supported. This may lead to a delay in launch license approvals 
imposing an additional financial hardship on companies already risking 
their capital to restore American launch leadership.
    Additionally, a less recognized NASA function important to industry 
that is being delayed by the shutdown is the development of a 
government-wide information technology cybersecurity framework managed 
by NASA and the National Institute of Standards and Technology (NIST). 
We've heard reports that NIST has halted work on the draft 
cybersecurity framework that was scheduled for release on Oct. 10.
    We're also concerned about the potential impacts of the shutdown to 
NASA's weather satellite development work for NOAA. The Joint Polar 
Satellite System (JPSS), which is critical to our ability to provide 
precise warnings of tornadoes and severe storms such as Superstorm 
Sandy, was already on a development schedule that will have it launch 
no earlier than 18 months after the end of the design life of the SUOMI 
satellite it is replacing. Any delays to JPSS development are 
worrisome. Although the contractors we have heard from in this area are 
not in immediate duress, the shutdown could begin having impacts to the 
satellite's development if it goes on much beyond the end of October.
    Lastly, I want to take this opportunity to request that Congress 
extend the Commercial Space Launch Act (CSLA) Risk Sharing Provision 
which is due to expire at the end of the year--only ten weeks from now. 
The CSLA regime enables U.S. launch providers to better compete with 
foreign competitors without ``betting the company'' on every single 
launch. U.S. companies have made new investments for innovation in the 
space launch industry which may restore our competitiveness in a market 
our Nation used to dominate. If the U.S. risk sharing regime is not 
renewed, however, our industry will be further at risk, with no 
corresponding public benefit. Beyond harming U.S. commercial launch 
competitiveness globally, U.S. Government users would likely have 
increased launch costs for essential government payloads.
Impacts on Civil Aviation and the FAA
    The lapse in funding has caused FAA to furlough nearly 15,000 
employees, approximately one-third of its workforce. Air traffic 
controllers are still working, which means the immediate impact on air 
travel has been relatively small. We should remember, however, that 
these controllers are doing their jobs without their normal support 
staff. In addition, they are not able to train or qualify new 
controllers, including access to controller training services under 
existing FAA contracts.
    Undoubtedly, a larger impact is being seen in the FAA's safety and 
certification programs, and we expect these impacts to worsen as the 
shutdown continues.
    Aircraft manufacturers depend on government inspectors being in 
place to review and certify new equipment on a timely basis. The law 
requires FAA to certify all aircraft, equipment and training simulators 
before they can be put into service. Although the agency has recently 
begun calling back more of its certification staff, in the first week 
of the shutdown more than 90 percent of the Aircraft Certification 
Service was furloughed. On average, the FAA issues 3,100 design 
approvals and 1,025 type certificates annually. These involve the 
approval of new products, safety features, and designs that are 
essential for our manufacturers to compete and for our industry to 
grow. Fortunately, delegation has helped soften the impact of the 
shutdown for some of our manufacturers and operators. However, not all 
functions can be delegated. This is not only causing delays in getting 
new products delivered to customers, it is exacerbating a backlog 
caused by this spring's deep sequester cuts. And even with the recent 
callbacks, many of these routine certification activities have ground 
to a halt.
    Let me highlight one small, but very important, office, the 
Aircraft Registry Office in Oklahoma City. Although small, this office 
is a linchpin that connects manufacturers to aircraft owners. All 
aircraft must be registered with the FAA before its new owner can get 
clear title. If a title search is conducted and there is no FAA 
registry data, the sale cannot be closed. And while this office is 
vital to our industry's health, it was closed because is not deemed 
essential for the ``protection of life or property.'' This means that 
aircraft coming out of manufacturing facilities cannot be delivered to 
their rightful owner. Several aircraft have already been delayed, and 
the number will worsen as the impasse continues. Furthermore, as the 
backlog builds up, it will take that much more time to work it off.
    Globally, the FAA is recognized as the gold standard for aviation 
safety. The FAA has gained this recognition through leadership in 
international activities, collaboration with our international 
partners, and the initiation of important global safety initiatives. 
The shutdown and budget cuts are inhibiting the FAA's ability to take 
the lead on ongoing international efforts to streamline aircraft 
certification requirements and harmonize the application of aviation 
rules. The FAA's inability to influence global aviation regulations and 
policy will have a lasting impact on our industry.
    The FAA has also suspended the development, operational testing and 
implementation of NextGen technologies. Congress has recently 
encouraged the FAA to put a higher priority on near-term benefits and 
NextGen implementation. However, just as the FAA is making that change, 
with its brand-new NextGen leadership team, the wheels grind to a halt. 
We simply cannot make the progress Congress envisioned in the FAA 
Modernization and Reform Act unless the FAA is provided stable and 
reliable funding.
    We should also keep in mind that the FAA is a bit different in that 
most of its budget is financed by user fees from system users. Even 
though the government is shut down, today's air travelers are still 
paying their aviation taxes every time they fly. General aviation 
pilots are paying their fuel taxes every time they fill up. They have a 
right to see those funds invested in capital improvements and safety 
oversight that benefits system users. At the present time, the 
government is taking their money and giving them little in return.
Impacts on Trade and U.S. Exports
    Foreign trade is a critical part of the U.S. economy, and the 
aerospace sector contributes more to our balance of trade than any 
other industrial sector in this country with $99 billion in net exports 
in 2012. Again, the partial shutdown jeopardizes elements of that 
success. The Department of Commerce is no longer accepting export 
license applications, except for emergencies related to national 
security. Of course, this backlog will grow with the length of the 
shutdown, and has negative implications not only for our balance of 
trade, but in the international perception of the United States as a 
reliable supplier.
Overall Impacts of Sequestration
    As difficult as the shutdown is, we should not lose sight of the 
sequestration's long term harm to important government functions. NASA, 
NOAA, FAA and other agencies have dealt with the FY13 sequester by 
instituting hiring freezes, deferring facility maintenance, eliminating 
training for frontline personnel, and cutting operational travel. These 
practices cannot be sustained indefinitely. AIA is concerned that, as 
agencies are forced to choose between today's operating budget and 
tomorrow's capital investments, they will increasingly eliminate the 
investments. We do not believe NextGen's six percent share of FAA's 
budget is too much, or that the Nation must back away from a robust 
space program. When the next monster storm develops, are we prepared to 
tell taxpayers we could not afford the best weather models technology 
can provide? And do we want to delay improvements to our Nation's air 
transportation system that will reduce flight delays and improve the 
environment? As negotiations develop on a final FY14 budget, we urge 
you to replace the sequester with more reasonable budget caps that 
allow these agencies to sustain their current operations and provide 
for the future.
Conclusion
    In conclusion, I think it is important to stress that the partial 
government shutdown has only lasted eleven days. While the impacts I've 
discussed are tangible and harmful to our industry, I'm very concerned 
about the cascading negative consequences of a much lengthier shutdown. 
To expand on a point I made earlier, unfortunately small businesses 
such as our supply chain companies are particularly vulnerable during 
times of economic uncertainty and distress. And if these companies are 
forced to lay off workers in great numbers or halt operations, this 
could have a significant detrimental impact on many of the major 
national programs discussed above. For this and the other reasons I've 
detailed in my testimony, it is incumbent upon Congress and the 
Administration to end the shutdown and begin work on a bipartisan 
``grand bargain'' that will ensure our government will not only 
continue to operate, but that important Federal programs which advance 
our Nation's economic progress and interests receive the funding they 
need.

    The Chairman. Thank you very much, Marion Blakey.
    Dr. Alan Leshner, Chief Executive Officer, American 
Association for the Advancement of Science, and Executive 
Publisher of Science. That means that when the issue comes out 
you've read it all.
    Dr. Leshner. Every word.
    The Chairman. That's good.
    Dr. Leshner. Yes.
    The Chairman. You're an important person at our hearing.

               STATEMENT OF DR. ALAN I. LESHNER,

         CHIEF EXECUTIVE OFFICER, AMERICAN ASSOCIATION

                 FOR THE ADVANCEMENT OF SCIENCE

               AND EXECUTIVE PUBLISHER OF SCIENCE

    Dr. Leshner. Thank you. Mr. Chairman, members of the 
Committee: I'm pleased to have this opportunity to testify 
before you about the impacts of the government shutdown on the 
scientific enterprise. I can say that this shutdown has come as 
a very serious blow to an already beleaguered American 
scientific enterprise. The shutdown's affecting both government 
scientists and many of those supported by Federal agencies, and 
it'll interrupt many long-term studies that depend on 
continuity over time for their success. Many kinds of data on 
which the Nation depends will be lost or foregone.
    Our community has already been hit very hard by the 
sequester, which came as an overlay on Federal science budgets 
that have already declined dramatically just in the past 3 
years. These realities are coming at the same time that other 
countries, many our competitor countries, are dramatically 
increasing their research and development investments in spite 
of similar economic conditions.
    The cumulative effect of these trends, now exacerbated by 
the shutdown, are threatening America's very standing in the 
global scientific community. Losing our eminence in science 
would be a drastic consequence. It likely would result in fewer 
foreign scientists coming to study and work in the United 
States, fewer U.S.-based science and technology breakthroughs, 
and fewer U.S. startup companies and jobs.
    About the shutdown, unfortunately the vast majority of 
Federal science staff and programs fall into the so-called 
``nonessential'' category and are directly affected by the 
shutdown. I'd like to give you just a few examples. There are 
more in my written testimony.
    At the National Institutes of Health, NIH employees that 
are allowed to continue do provide care for patients in the 
clinical center, but new patients are generally not being 
accepted, and normally some 200 patients are entered into 
trials every day. Moreover, at least six new clinical studies 
have been deferred.
    At the National Science Foundation, this week NSF announced 
that it'll be forced to cancel the U.S. Antarctic program's 
entire upcoming field season if the shutdown continues past 
October 14. This could jeopardize the entire research season 
for hundreds of important projects in astronomy, particle 
physics, weather, biology, and many of these projects have been 
many years in development. Three of four U.S. radio telescopes, 
which are largely funded by NSF, are off the air, impacting 
several thousands of researchers who can't collect important 
data.
    At NASA, scientists have been tracing the shape of the 
Milky Way using the Very Long Baseline Array, which is now shut 
down. They're missing an observation and that means that a 
year's worth of data could go to waste and they will have to 
start over.
    Much of NOAA's scientific portfolio constitutes what you 
might think of as environmental intelligence, requiring 
continuous monitoring and interpretation of an array of 
scientific parameters. Much of that monitoring will be 
suspended. For example, effective water management, such as in 
the Great Lakes, is dependent on understanding water quality 
issues. That monitoring will be suspended as the relevant NOAA 
scientists have been furloughed. The same is true for drought 
managers.
    In the Department of Energy, most of the national labs, 
which are managed under contract, would be shielded for a time, 
but their resources will be short-lived. For example, Sandia 
Laboratory in New Mexico plans to shut down on October 21. In 
Oak Ridge, Tennessee, the Y-12 National Security Complex, a 
critical component in the Nation's nuclear defense enterprise, 
has already started partial shutdown.
    What we call extramural researchers, those in our great 
research universities, are somewhat shielded from the immediate 
impacts of a shutdown, but the effects will soon reach their 
labs as grant renewals are disrupted and new grants are delayed 
in starting.
    We know that many--that Congress faces many fiscal 
challenges in the weeks ahead. Let me say the AAAS and the 
millions of scientists and engineers in academia, small 
businesses, and large industries that we represent call on you 
to ensure sustained and robust support for scientific research 
as you deal with these challenges.
    I have to say that continuing to decrease the Nation's 
investment in research will only exacerbate our fiscal 
problems, slowing down the engine of discovery that drives 
innovation and economic growth. We urge you to help provide a 
powerful legacy of scientific discovery and innovation for 
future generations.
    [The prepared statement of Dr. Leshner follows:]

  Prepared Statement of Dr. Alan I. Leshner, Chief Executive Officer, 
   American Association for the Advancement of Science and Executive 
                          Publisher of Science
Introduction
    Chairman Rockefeller, Ranking Member Thune, and members of the 
Committee, my name is Alan Leshner and I am the Chief Executive Officer 
of the American Association for the Advancement of Science (AAAS) and 
Executive Publisher of the prestigious, peer-reviewed journal Science. 
Thank you for inviting me to testify before you today on the subject of 
the effects of the current government shutdown on the conduct of 
scientific research.
    Let me start with my overall conclusion and then provide the 
context and the evidence underlying it.
    This government shutdown is coming as a serious blow to an already 
beleaguered American scientific enterprise. The shutdown is more than 
simply a temporary work stoppage for science. The shutdown, affecting 
both government scientists and many of those supported by Federal 
agencies, will interrupt many longitudinal studies and observations 
that depend on continuity over time for their success. Moreover, many 
kinds of data on which the Nation depends will be lost.
    Our community has already been hit very hard by the ``sequester,'' 
which comes as an overlay on Federal science budgets that already, pre-
sequester, have been in decline. These realities are coming at the same 
time as other countries are dramatically increasing their research and 
development (R&D) investments, in spite of similar economic conditions, 
responding to the clear relationship between a nation's research 
capacity, its economic strength, and the well-being of its people. The 
cumulative effects of these trends, now exacerbated by the shutdown, 
are threatening America's standing in the global scientific community. 
Losing our eminence in science would likely result in fewer foreign 
scientists coming to study and work in the United States, fewer U.S.-
based science and technology breakthroughs and fewer U.S. startup 
companies and jobs.
    As background, since 1976, AAAS has analyzed and reported on the 
Federal research and development (R&D) budget, as well as historical 
trends regarding funding by discipline, performer, and source. 
Scientific research thrives best when it can rely on steady and 
sustained growth across all disciplines. It is critical that Members of 
Congress understand the status of current funding trends and the 
effects of sequestration on Federal R&D, before I discuss the effects 
of the shutdown on the U.S. research enterprise.
    According to our current estimates, between FY 2010 and FY 2013 
post-sequestration, Federal R&D expenditures declined by 16.3 percent; 
the fastest decline over any three-year period since the end of the 
Space Race. At the same time, Federal R&D as a share of gross domestic 
product has declined from 1.27 percent of GDP to roughly 0.82 percent 
today; it has also declined as a share of the Federal budget overall. 
Even under the best possible scenario, the direction that this year's 
appropriations have taken won't make a dent in these trends.
    One twist is that, as currently written, the Budget Control Act 
(BCA) requires an overall discretionary spending level of $967 billion 
in FY 2014, about 2 percent lower than in FY 2013, per Congressional 
Budget Office estimates. Even though the bulk of this decline is 
scheduled to take place on the defense side, agencies will likely 
constrain their spending anyway, even if a continuing resolution (CR) 
is agreed to that extends FY 2013 spending for a few months, due to 
uncertainty. The additional impact on research projects, grants, 
construction, and other such central activities remains to be seen.
    It is this very uncertainty that is a growing threat to the Federal 
research enterprise. The current government shutdown has placed a hard 
brake on an already shrinking effort.
    As many of us who work and reside in the D.C. area know, the impact 
of the shutdown has had an immediate impact on a number of Federal R&D 
agencies and its programs and employees. Some exceptions do exist; for 
example, employees and programs may be exempt in order to ensure the 
safety of human life or the protection of property. This would include 
selected NASA activities in support of the International Space Station, 
satellite missions, and probes currently in the operation phase.
    Unfortunately for the Federal science enterprise, the vast majority 
of staff and programs fall into the ``non-essential'' category, meaning 
that they are directly affected by the expiration of budget authority. 
Most Federal R&D agencies had to furlough a significant portion of 
their workforce. For example:
National Institutes of Health:
  <bullet> NIH employees that remain are continuing to provide in-
        patient and out-patient care for patients in its Clinical 
        Center although new patients are generally not being accepted. 
        About 200 patients typically register for clinical trials each 
        week, and about 30 of those new patients are children. At least 
        six new studies have been deferred.

  <bullet> NIH furloughed 73 percent of its workforce, over 13,500, 
        including intramural researchers who had to walk away from 
        their labs. Some were forbidden to attend or speak at 
        international conferences on subjects such as AIDS research.

  <bullet> A Boston-area patient was initially denied a critical 
        treatment because he could not access the ClinicalTrials.gov 
        website, which was shut down. A Member of Congress had to 
        intervene in order to give the database an exemption. NIH, 
        however, will not be able to sustain other important online 
        resources such as PubMed Central.

  <bullet> Some NIH staff are working to maintain and protect their 
        animal stock, research infrastructure, and data.

  <bullet> There will be delays in approval of new grant awards, though 
        researchers who have previously been awarded funding and have 
        active grants may generally continue their work.

  <bullet> For other parts of HHS, the FDA monitoring programs and CDC 
        outbreak programs, including its seasonal influenza work, will 
        shortly cease.
National Science Foundation:

  <bullet> The majority of NSF funded research is extramural and 
        conducted by scientists and engineers at universities and 
        laboratories across the Nation. That said, almost all of NSF's 
        employees (99 percent) have been furloughed and are unable to 
        provide any support to extramural researchers.

  <bullet> This week the NSF announced it will be forced to cancel the 
        U.S. Antarctic program's upcoming field season if the shutdown 
        continues past October 14. This is a very complex logistical 
        enterprise that could jeopardize the entire research season for 
        hundreds of important projects. Researchers conduct a host of 
        experiments in this unique and unspoiled continent in fields 
        such as astronomy, particle physics, climate change, and 
        biology, and the success of many of these is dependent on 
        continuous or recurrent measurements season after season.

  <bullet> Construction of a solar telescope, gravity wave observatory, 
        and ecological and ocean-observing networks will be suspended 
        if the shutdown lasts beyond Oct 31.

  <bullet> Three of four U.S. radio telescopes, which are largely 
        funded by NSF, are off the air impacting several thousand 
        intramural and extramural researchers who are now unable to 
        access the data that those telescopes provided.

  <bullet> The grant process has been disrupted; no funding 
        opportunities are available. The FastLane database is closed so 
        no information is available for new grants. However, as at NIH, 
        university-based researchers who have already received their 
        award may generally continue their work.
NASA:

  <bullet> More than a year's worth of data that cost approximately 
        $500,000 to collect could go to waste due to the closure of 
        radio telescopes. For example, scientists have been tracing the 
        shape of the Milky Way using the Very Long Baseline Array, 
        which is now shut down, and missing an observation means they 
        will have to start over.

  <bullet> The Stratospheric Observatory for Infrared Astronomy, a 
        plane-based telescope based at Dryden Research Center, has been 
        grounded.

  <bullet> While many ongoing missions will continue, development of 
        future missions, including the James Webb Space Telescope, will 
        have to slow or stop. Further, if technical problems arise in 
        ongoing missions, their resolution may be prevented or delayed.

  <bullet> While many big-ticket items like the Hubble Space Telescope, 
        and some research centers like the Jet Propulsion Lab, are 
        contractor-based and thus can continue operating for now, they 
        will be on a timeline, and the longer the shutdown continues, 
        the more at risk they will be.
NOAA:

  <bullet> Much of NOAA's scientific portfolio constitutes what might 
        be called ``environmental intelligence,'' involving continuous 
        monitoring and interpretation of the state of the full array of 
        environmental factors. Much of that monitoring will have been 
        suspended, with consequences both in the long- and short-terms.

  <bullet> Effective water management, such as in the Great Lakes, is 
        dependent on understanding water quality issues, such as the 
        presence and magnitude of algae blooms. That monitoring will be 
        suspended as the relevant NOAA scientists have been furloughed. 
        The same is true for drought managers.

  <bullet> Nautical charts will not be updated.

  <bullet> The winter king crab season for Bering Sea fishermen will be 
        suspended because the scientists and other government workers 
        needed to process information and develop the regulations for 
        the season have been furloughed.
USGS:

  <bullet> Research at USGS has stopped; for example, no one is reading 
        seismographs.
Department of Energy:

  <bullet> There are exceedingly few direct DOE employees in most R&D 
        offices that would be exempt from the funding disruption. A 
        handful of DOE staff would remain at the Office of Science, and 
        at the offices for efficiency, renewables, nuclear power, and 
        fossil energy; ARPA-E has been effectively closed.

  <bullet> Most of the National Labs, which are managed under contract, 
        would be shielded for a time given other resources and budget 
        authority balances they can draw upon. However, as at NASA, 
        contractor activities will be on a timeline. For instance, 
        Sandia Laboratory in New Mexico plans to shut down October 21, 
        and not long thereafter the Argonne National Laboratory in 
        Illinois may have to begin powering down the Advanced Photon 
        Source X-ray synchrotron.

  <bullet> A few hundred direct DOE staff within the National Nuclear 
        Security Administration are exempt in order to protect U.S. 
        national security interests.

  <bullet> In Oak Ridge, Tennessee, the Y-12 National Security Complex, 
        a critical component in the Nation's nuclear defense 
        enterprise, has started partial shutdown. Oak Ridge National 
        Laboratory, however, will likely continue operation into 
        November.
USDA:

  <bullet> Just about all of the staff at the National Institute of 
        Food and Agriculture and the Economic Research Service are 
        furloughed, although the Agricultural Research Service would 
        retain several hundred staff to safeguard research animal 
        populations, IT infrastructure, and other assets.

    Extramural researchers, such as those in our great research 
universities across the nation, are somewhat shielded by the immediate 
impacts of the government shutdown. But like a pebble tossed into a 
lake, the effects of the Federal government shutdown likely will soon 
reach their labs as grant renewals are disrupted and new grants are, at 
best, delayed in starting.
    Those academic scientists currently operating under multi-year 
grant funding from FY 2012 or FY 2013 may continue their work. However, 
if they require participation, intervention or oversight from a civil 
servant, or are awaiting the disbursal of additional funding, their 
work may be disrupted and potentially halted if the shutdown lingers. 
Furthermore, if their research relied on access to a Federal database 
or equipment--including some of the examples I have given above--then 
their research will be severely hampered. We learned recently that 
geneticists were unable to receive a shipment of fruit flies because 
the European supplier had suspended shipments to the United States 
because the closure of the USDA means the flies cannot clear customs.
    Academic scientists whose current funding is slowly drying up are 
not able to submit new grant proposals to continue their research. 
Agencies such as NIH and NSF have suspended the reviews of the current 
cycle of grant proposals until the shutdown impasse has been resolved. 
This could be particularly troublesome for researchers who intend to 
conduct field research and have only a limited window in which to do 
it. More importantly, this negatively affects the ability of scientists 
to hire graduate student researchers and post-doc students. What 
message does this leave our next-generation of scientists and 
engineers?
    Economists know that more than half of all economic growth in the 
industrialized world since World War II has been driven by innovation 
and technological progress. Public research funding has helped plant 
the seeds that have spawned the Global Positioning System, the laser, 
Google, and countless other beneficial technologies in addition to 
medical advances that have helped save the lives of millions of heart 
disease, cancer, and diabetes patients among others.
    Ironically, the shutdown is now affecting Federal data sets on 
population, income and demographics that allow statisticians, 
economists, and other social scientists to analyze a range of data and 
to develop a better understanding of the state of the U.S. economy. For 
example, the Bureau of Economic Analysis within the Commerce Department 
hosts a vital, interactive site that provides official data on gross 
domestic product, income and other economic statistics.
Conclusion
    Congress faces many fiscal challenges in the weeks ahead, from the 
government shutdown to the debt limit and from the final FY 2014 
appropriations to sequestration. AAAS and the millions of scientists 
and engineers in academia, small businesses, and large industries that 
we represent call on you to ensure sustained and robust support for 
scientific research.
    The best conclusion I can give is a personal quote from a Federal 
scientist who must remain anonymous because they are not allowed to 
speak publicly during the shutdown. This quote was posted in an article 
in Wired magazine:

        ``Scientific research is not like turning on and off an 
        assembly line. Experiments are frequently long-term and 
        complicated. They involve specific treatments and specific 
        times. You can't just stop and restart it. You've probably just 
        destroyed the experiment.''

        ``You also can't necessarily recover. You can't begin an 
        experiment all over again. If you do, you'll be set back 
        months--even if there's time and personnel to do it. But often, 
        science moves rapidly, times change, and you can't re-initiate 
        the experiments. It's an enormous loss to scientific research, 
        an enormous loss of time and personnel.''

        ``Scientists are hardworking people. They work long hours, on 
        weekends, and they do that because it's necessary. The 
        schedules they follow aren't like an industrial plant's. If you 
        interrupt them, they can't pick up and start again. It's an 
        enormous waste of money and resources to interrupt this and 
        have it abandoned.''

    Undermining the Nation's support for research will not resolve our 
fiscal problem; instead it will exacerbate it, slowing down the engine 
of discovery that drives innovation and economic growth. We urge you to 
come together and resolve your differences over the budget agreement in 
order to provide a powerful legacy of scientific discovery and 
innovation for future generations.

    The Chairman. Thank you very much, sir.
    Now it's Captain, Captain Keith Colburn, Alaska fisherman 
and owner and operator of the F/V Wizard. You have much to tell 
us, sir.

              STATEMENT OF CAPTAIN KEITH COLBURN,

             ALASKA FISHERMAN, OWNER AND OPERATOR,

                     FISHING VESSEL WIZARD

    Mr. Colburn. Thank you, Chairman Rockefeller, Ranking 
Member Thune, members of the Committee. I appreciate your 
invitation to appear here today. Mr. Chairman, thank you for 
carrying on the legacy of the late Senator Inouye for advancing 
legislation to combat pirate fishing.
    I'd also like to thank Senators Begich, Murkowski, Murray, 
and Cantwell from the Alaska and Washington Congressional 
delegations for their strong support for Alaska fishermen.
    My name is Keith Colburn and I'm an Alaska crabber. Some of 
you may also recognize me as the captain of the Fishing Vessel 
Wizard on the Discovery Channel series ``The Deadliest Catch.'' 
While I'm honored to be before the Committee today, I'd rather 
be 4,000 miles away from here, awaiting the opening of my 
Bristol Bay red king crab fishery. This is the first time in 28 
years that I have not been in the Bering Sea in the month of 
October.
    I'm here today on behalf of fishermen. While I'm here to 
talk specifically about the impacts to my fishery, I want the 
Committee to understand that this shutdown is causing impacts 
to fisheries nationwide. In the Alaska cod and pollack 
fisheries, lack of personnel to perform routine administrative 
functions such as managing quota allocations will result in the 
loss of millions in revenue to that sector of the industry.
    The Federal observer program will also be impacted the 
longer this shutdown continues. Across the country, vessels 
that are required to carry Federal observers will be forced to 
stay tied to the docks.
    Many fishermen in coastal communities are already facing 
tough times. This unnecessary shutdown may be the tipping point 
if the situation isn't resolved soon.
    The Alaska king crab fishery is the model of sustainable 
fishery management practices. It is managed under a strict 
quota system where each fisherman is allocated a percentage of 
the total catch. The Alaska king crab stock is healthy and, 
with a scientifically based, conservative management approach, 
overfishing does not occur.
    The fishery results in hundreds of millions in economic 
activity and provides thousands of jobs for fishermen, 
processors, and support businesses such as welders, mechanics, 
shippers, distributors, retailers.
    I want to be very clear: Bering Sea crab fishermen fund the 
management costs of the crab fishery through the cost recovery 
program. We are taxed on our landings to cover management 
costs. NOAA has money in the bank left over from previous years 
that could be used to pay for the personnel we need to issue 
our permits. Despite this fact, NOAA has furloughed the 
employees that are necessary to start the fishery on the 
October 15 season opener.
    We ask the Secretary of Commerce to find the authority and 
direct NOAA employees to do the tasks that we've already paid 
for and issue our crab quotas. The delay in opening of the 
fishery will have significant impacts on our fishermen and 
Alaskan coastal communities. Collectively, the fleet has 
already invested millions of dollars out of pocket just gearing 
up for the season. Each day tied to the docks will cost these 
boats thousands more.
    While these short-term impacts are relatively easy to 
measure, the longer term market impacts are the scary part. For 
a majority of our crab, we rely on the holiday market, both in 
the U.S. and Japan. If the crab isn't caught, processed, and 
shipped out of Alaska by the second week of November, we stand 
to lose access to that market. We can't afford to lose any more 
days to the government shutdown if we want to meet that 
deadline.
    Losing the holiday market will decrease the revenue we earn 
at the dock by 20 to 25 percent. In the case of the Japanese 
market, we also stand to lose market share. If the Japanese 
buyers don't have Alaskan product on hand for the New Year's 
holiday, they will source their crab from Russia. Market 
watchers are already noticing uncertainty in the Japanese trade 
press over the Alaska supply. The Russian king crab fishery is 
unsustainably managed and subject to a significant amount of 
pirate fishing. This pirate fishing has already cost the Alaska 
crab fleet an estimated $500 million since 2000. If this 
shutdown continues, that amount will only increase.
    Time is critical. The Wizard is one of many small family 
run businesses that make up the Alaska crab fleet. My wife 
manages the shoreside end of business. My brother is on the 
boat with me. My crew depends on me to feed their families. 
We've been racking up bills to get ready to go fishing. If 
we're tied to the docks waiting--if we're tied to the docks 
waiting for the government, we can't pay those bills.
    On behalf of all fishermen, I'm asking Congress to end the 
shutdown now. I'm a small businessman in a big ocean with big 
bills. I need to go fishing.
    Thank you. I'll be happy to answer any questions.
    [The prepared statement of Mr. Colburn follows:]

 Prepared Statement of Captain Keith Colburn, Alaska Fisherman, Owner 
                  and Operator, Fishing Vessel Wizard
    Chairman Rockefeller and Ranking Member Thune, members of the 
Committee, thank you for your invitation to appear today. And Mr. 
Chairman, thank you very much for carrying on the legacy of the late 
Senator Inouye and advancing legislation to combat pirate fishing.
    I would also like to thank Senators Begich, Murkowski, Cantwell, 
and Murray from the Alaska and Washington Congressional Delegations for 
their strong support of Alaskan crab fishermen.
    My name is Keith Colburn and I am an Alaskan crabber. Some of you 
may also recognize me as the Captain of the fishing vessel Wizard on 
the Discovery Channel series, the Deadliest Catch. While I am honored 
to be before the Committee today, I would rather be 4,000 miles away 
from here awaiting the opening of the Bristol Bay red king crab 
fishery. This is the first time in my 28 years of fishing that I 
haven't been in the Bering Sea in October getting ready to go fish.
    I am here today on behalf of fishermen. While I'm here to talk 
specifically about the impacts to my fishery, I want the Committee to 
understand that this shutdown is causing impacts to fisheries 
nationwide. In the Alaskan cod and Pollock fisheries, lack of personnel 
to perform routine administrative functions such as managing quota 
allocations will result in the loss of millions in revenue to that 
sector of the industry. The Federal observer program will also be 
impacted the longer this shutdown continues. Across the country vessels 
that are required to carry Federal observers will be forced to stay 
tied to the docks. Many fishermen and coastal communities are already 
facing tough times. This unnecessary shutdown may be the tipping point 
if the situation isn't resolved soon.
    The Alaskan king crab fishery is the model of sustainable fishery 
management practices. It is managed under a strict quota system where 
each fisherman is allocated a percentage of the total catch. The Alaska 
king crab stock is healthy and with a scientifically based conservative 
management approach, overfishing does not occur. The fishery results in 
hundreds of millions in economic activity and provides thousands of 
jobs for fishermen, processors and support businesses such as welders, 
mechanics, shippers, distributors and retailers.
    I want to be very clear. Bering Sea crab fishermen fund the 
management costs of the crab fishery through the cost recovery program. 
We are taxed on our landings to cover management costs. NOAA has money 
in the bank left over from previous years that could be used to pay the 
personnel we need to issue our permits. Despite this fact, NOAA has 
furloughed the employees that are necessary to start the fishery on the 
October 15 season opener. We ask the Secretary of Commerce to direct 
NOAA employees to do the task that we've already paid for and issue our 
quota.
    The delay in opening of the fishery will have significant impacts 
on our fishermen and Alaskan coastal communities. Collectively the 
fleet already has millions of dollars out of pocket just gearing up for 
the season. Each day tied to the docks will cost these boats thousands 
more. While these short-term impacts are relatively easy to measure, 
the longer-term market impacts are the scary part.
    For a majority of our crab we rely on the holiday market, both in 
the U.S. and Japan. If the crab isn't caught, processed, and shipped 
out of Alaska by the second week in November, we stand to lose access 
to that market. We can't afford to lose any more days to the government 
shutdown if we want to meet that timeline. Losing the holiday market 
will decrease the revenue we earn by 20-25 percent. In the case of the 
Japanese market we also stand to lose market share. If the Japanese 
buyers don't have Alaskan product on hand for the New Year's holiday 
they will source their crab from Russia. Market watchers are already 
noticing uncertainty in the Japanese trade press over the Alaskan 
supply.
    The Russian king crab fishery is unsustainably managed and subject 
to a significant amount of pirate fishing. This pirate fishing has 
already cost the Alaskan crab fleet an estimated $500 million since 
2000. If this shutdown continues that amount will only increase.
    Time is critical. The Wizard is one of many small, family run 
businesses that make up the Alaskan crab fleet. My wife manages the 
shore-side end of the business. My brother is on the boat with me. My 
crew depends on me to feed their families. We have been racking up 
bills getting ready to go fishing. If we're tied to the docks waiting 
for the government we can't pay those bills. I'm a small businessman in 
a big ocean with big bills. I need to go fishing.
    Thank you and I'll be happy to answer any questions.

    The Chairman. Thank you, Captain.
    Now, Rachel Weintraub.

                 STATEMENT OF RACHEL WEINTRAUB,

            LEGISLATIVE DIRECTOR AND SENIOR COUNSEL,

                 CONSUMER FEDERATION OF AMERICA

    Ms. Weintraub. Good afternoon, Chairman Rockefeller and 
members of the Committee. I'm Rachel Weintraub, Legislative 
Director and Senior Counsel at Consumer Federation of America. 
I offer this testimony on behalf of CFA as well as Consumers 
Union, Consumer Action, the National Consumers League, the 
National Consumer Law Center on behalf of their low-income 
clients, Public Citizen, the National Association of Consumer 
Advocates, and U.S. PIRG.
    We all expect that the air, food, and products we use every 
day are going to be safe. We don't expect to be ripped-off by a 
bank or a telemarketer. We expect that we can find information 
on government websites and that government agencies will 
investigate concerns and enforce existing law. Part of our 
security as consumers can be directly linked to the work 
conducted by the employees of many different government 
agencies.
    During the government shutdown, however, many of the 
consumer protections we depend upon have been significantly 
curtailed. Things could get worse if the shutdown continues 
much longer.
    In this testimony I am including what I hope to be the most 
current information available, but the situation is fluid and 
changes rapidly. I will highlight the impact of the shutdown on 
a few key agencies.
    First, the Federal Aviation Administration has furloughed 
15,514 of its 46,070 employees. Many of the staffers that 
support the air traffic controllers have been furloughed and 
virtually the entire safety inspection force has been sent 
home. This is virtually unprecedented. Even during the 1996 
shutdown, most safety inspectors remained on the job. Earlier 
this week, the FAA announced plans to bring back 80,000 
inspectors, oversight staff and others, but that still is only 
about 15 percent of the FAA's furloughed safety personnel.
    At NHTSA, which is responsible for the safety of millions 
of people on our roads and highways, 333 workers out of a total 
of 597 have been furloughed. NHTSA is not able to alert 
consumers about safety recalls, work on rulemakings, and 
conduct defect investigations, research, and testing. Any auto 
safety defect that emerges during the shutdown will not be 
investigated properly, leaving consumers and our highways at 
risk.
    The impact of the shutdown on the Consumer Product Safety 
Commission is significant. Four percent of the CPSC's total 
workforce remains on the job. That's 23 employees out of 540 
full-time employees. None of the employees currently working 
are field investigators or port inspectors, leaving our ports 
vulnerable, especially problematic during this pre-holiday 
season.
    The CPSC, like other agencies, is conducting only business 
that protects against imminent threats to human safety and 
protects government property. Rulemakings, recalls, and civil 
penalty negotiations are suspended unless they rise to that 
threat. Saferproducts.gov, the CPSC's consumer incident 
database, is receiving reports, but will not be publishing 
them.
    Last Monday a two-year-old girl in San Diego, California, 
was killed when a television tipped over, crushing her to 
death. Last week a one-year-old boy from Hitterdal, Minnesota, 
swallowed part of a laundry pod and has been hospitalized due 
to his injuries. Because of the shutdown, CPSC is unable to 
investigate these incidents and unable to educate consumers 
about how to prevent similar tragedies.
    Food safety is in jeopardy as well. The FDA will not 
conduct routine food safety inspections, some compliance and 
enforcement activities will not be monitored. The CDC is at 
significantly reduced capacity to identify and respond to food-
borne illness outbreaks and is unable to support State and 
local partners in disease surveillance, which has hampered 
CDC's capacity to track the recent and current salmonella 
outbreak linked to poultry that sickened close to 300 people. 
While most USDA inspectors of meat and poultry continue to 
work, the agency has said that a lengthy hiatus would have 
serious adverse effects.
    Agencies that seek to ensure fairness in the marketplace 
are also being compromised. Less than 20 percent of FTC's 
employees are exempt from furloughs. No rulemaking will 
proceed, and staffers overseeing the ``Do Not Call'' Registry, 
the Consumer Response Center, and spam databases are 
furloughed. The FTC website is not functional. A consumer who 
is the victim of identity theft cannot access information about 
the steps they need to take to further protect themselves.
    Less than 2 percent of the FCC staff is working. At the 
CFTC, which oversees the commodity market and the bulk of 
derivatives markets, the vast majority of its 700 employees are 
furloughed, leaving the CFTC with few people to police the 
markets for fraud and manipulation.
    The shutdown is jeopardizing numerous consumer protections 
and placing consumers at potential risk. Thank you.
    [The prepared statement of Ms. Weintraub follows:]

Prepared Statement of Rachel Weintraub, Legislative Director and Senior 
                Counsel, Consumer Federation of America
    Chairman Rockefeller, Ranking Member Thune, and members of the 
Committee on Commerce, Science and Transportation. I am Rachel 
Weintraub, Legislative Director and Senior Counsel at Consumer 
Federation of America (CFA). The Consumer Federation of America is an 
association of nearly 300 nonprofit consumer organizations that was 
established in 1968 to advance the consumer interest through research, 
advocacy, and education. I offer this testimony on behalf of Consumer 
Federation of America as well as Consumers Union, Consumer Action, 
National Consumers League, National Consumer Law Center, Public 
Citizen, National Association of Consumer Advocates, and U.S. PIRG.
I. Introduction
    As organizations dedicated to working to protect consumers and 
advance consumer interests, I offer today's testimony to help 
articulate the impact of the current United States government shutdown 
on consumers. My focus will be aimed at the practical implications that 
the closure is having and could have on average American consumers.
    We all expect that the air, food, and products we use every day are 
going to be safe. We don't expect to be ripped-off by a bank, a lender, 
or a telemarketer. We expect that we can provide information to and 
find information on government websites. We expect that government 
agencies will investigate concerns and enforce existing law. Part of 
our security as consumers can be directly linked to the work conducted 
by the employees of many different government agencies. During the 
government shutdown, however, many of the consumer protections we 
depend upon have been significantly curtailed. Things could get worse 
if the shutdown continues much longer.
    In this testimony, I am relying upon information that has proven to 
be fluid, and in some cases has changed throughout the day. I am 
including, what I hope to be the most current information, but 
acknowledge changes may have occurred since preparing this testimony.
    I will highlight what is happening at a few key agencies devoted to 
consumer protection.
II. Impact of Shutdown on Key Government Agencies
A. Health and Safety Agencies
1. Federal Aviation Administration

    The Federal Aviation Administration (FAA) has reportedly furloughed 
15,514 of its 46,070 employees. While the FAA has deemed air traffic 
controllers and baggage screeners essential, many of the staffers that 
support the air traffic controllers have been furloughed. Virtually the 
entire safety inspection force has been sent home, with only one 
manager at every office across the country left to answer the phones. 
This is unprecedented in U.S. aviation history; even during the 1996 
government shutdown, most safety inspectors remained on the job. 
Earlier this week, FAA announced plans to bring back 800 inspectors, 
oversight staff, and others. But that is still only about 15 percent of 
the FAA's furloughed airline safety personnel.
2. National Highway Traffic Safety Administration

    Consider the impact of the shutdown on the National Highway Traffic 
Safety Administration (NHTSA). This agency, which is responsible for 
the safety of millions of people on our roads and highways, has 
furloughed 333 workers out of a total of 597. The impact of this is 
that NHTSA is not able to alert consumers about safety recalls. 
Rulemakings, defect investigations, research, and testing are also on 
hold. NHTSA's own website states that ``[d]ue to a lapse of Federal 
Government funding, NHTSA is unable to process safety defect complaints 
after close of business September 30, 2013. Consumers can continue to 
file complaints via this website, but they will not be evaluated by 
NHTSA staff until funding and services are restored.'' Unfortunately, 
any auto safety defects that emerge during the shutdown will not be 
investigated properly, leaving consumers and our highways at risk.
    A practical example of what this means occurred on October 1 
outside of Seattle when a fire started in a Tesla Model S vehicle. This 
fire is not being investigated by NHTSA. According to a statement the 
agency gave to ABC News, ``[d]uring the Federal government shutdown, 
some key agency functions have been discontinued until funding is 
restored. Functions funded by annual appropriations are suspended, 
including safety defect investigations, field crash investigations, 
review of consumer complaints and notification of new vehicle and 
equipment recalls.''
3. Consumer Product Safety Commission

    The impact of the shutdown on the Consumer Product Safety 
Commission (CPSC) is significant. CPSC is an independent agency charged 
with protecting the public from unreasonable risks of injury or death 
associated with the use of the thousands of types of consumer products. 
Four percent of the CPSC's total workforce remains on the job--that 
translates into 23 employees (including its 5 commissioners) out of 540 
full-time employees. None of the employees currently working are field 
investigators or port inspectors. This means that CPSC does not have 
port inspectors evaluating products as they come into the ports, 
especially during this pre-holiday season. The CPSC is conducting only 
business that ``protects against imminent threats to human safety, and 
protect government property'' and rulemakings, recalls, and civil 
penalty negotiations are suspended unless they rise to this level of 
threat. Saferproducts.gov, the CPSC's consumer incident database, is 
receiving reports but will not be publishing them. This will deny 
consumers the opportunity to learn about potentially dangerous 
products.
    This cutback at the CPSC also has very real implications. Last 
Monday, a two-year-old girl in San Diego, California, was killed when a 
chest of drawers with a television on top of it, tipped over and fell 
on her, crushing her to death. Last week, a one-year-old boy from 
Hitterdal, Minnesota, swallowed part of a laundry pod and has been 
hospitalized due to his injuries. He was just moved out of intensive 
care and is breathing on his own. Because of the shutdown, the CPSC is 
unable to investigate these serious incidents and is unable to work to 
educate consumers about how to avoid these serious and preventable 
safety hazards.
4. Food and Drug Administration

    Food safety is in jeopardy as well. According to the Health and 
Human Services' shutdown plan: ``FDA will be unable to support the 
majority of its food safety, nutrition, and cosmetics activities.'' 
This means that FDA will not conduct routine food safety inspections, 
some compliance and enforcement activities and will not be monitoring 
imports. Much of the laboratory and scientific research necessary to 
inform public health decision-making will also not be conducted.
5. The Center for Disease Control and Prevention

    The Centers for Disease Control and Prevention (CDC) has 68 percent 
of its staff furloughed, which means that CDC is at significantly 
reduced capacity to identify and respond to foodborne illness 
outbreaks, and is unable to support state and local partners in disease 
surveillance. PulseNet, CDC's national network of public health 
laboratories that detects multi-state food-borne illness outbreaks was 
non-functioning as a result of the shutdown. This hampered CDC's 
capacity to track the recent Salmonella outbreak linked to poultry that 
sickened close to 300 people. The employees who run PulseNet are now 
back to work since the CDC determined that PulseNet was vital to 
protecting the public from ``imminent threats.'' Still, consultation 
with states and laboratory work to link outbreaks that might cross 
state borders will remain at reduced capacity during the shutdown.
6. United Sates Department of Agriculture

    Most Department of Agriculture (USDA) inspectors of meat and 
poultry continue to work. The USDA's Food Safety Inspection Service 
will continue manning every meat production facility with full-time 
inspectors. However, a meat and poultry hotline consumers can call for 
information about food safety or to report problems is closed. The 
agency has said that ``[a] lengthy hiatus would affect the safety of 
human life and have serious adverse effects on the industry, the 
consumer and the Agency.''
7. Environmental Protection Agency

    The shutdown has had an impact on the air we breathe and the water 
we drink. The Environmental Protection Agency (EPA) furloughed 96 
percent or 16,205 employees, leaving 613 workers on the job. Most EPA 
operations have come to a halt. EPA programs to protect public health, 
air quality, and safe drinking water and to regulate pesticides and 
pollution are mainly longer-term in nature and therefore are not 
considered essential to prevent imminent risk to human health. Clean up 
at 505 Superfund sites (property contaminated by toxic chemicals) in 47 
states is suspended. Some laboratory staff is continuing to work as are 
emergency responders (responding to environmental emergencies). Some 
limited enforcement activities will continue, but with skeletal staff.
    EPA's Energy Star program for certifying energy efficient 
appliances and electronics is currently closed. EPA will not be 
updating its FuelEconomy.gov website with new vehicle fuel-economy 
ratings. The consequence is that there will be no EPA oversight of the 
accuracy of new fuel economy ratings until the government reopens.
B. Agencies that Ensure a Fair Marketplace
    In addition to the work of agencies that protect the health and 
safety of consumers, the work of agencies that seek to ensure that 
consumers are treated fairly in the marketplace is also being 
compromised.
1. Federal Trade Commission

    Less than 20 percent of Federal Trade Commission (FTC) employees 
(approximately 241 of its 1,178 workers) are exempt from furloughs. 
Employees responsible for protecting life and property through the 
prosecution of enforcement actions are working. Most legal actions have 
been stayed and for those few cases where the court has not granted 
stays, agency work continues. However, the agency expects no 
rulemakings during the shutdown, and staffers overseeing the Do Not 
Call registry, Consumer Response Center, and spam database have 
suspended work. Consumers who are identity theft victims cannot access 
information that the FTC provides about the steps they should take or 
how to report the problem.
    The FTC's website is not functional--on the FTC's home page, it 
states, ``[u]nfortunately, the Federal Trade Commission is closed due 
to the government shutdown: the FTC Premerger Notification Office will 
be open to accept HSR filings; consumers may file FOlA requests, but 
they will not be processed; consumers cannot file complaints or 
register for Do Not Call; all public workshops, roundtables, hearings 
and conferences are postponed until further notice.''
    The Justice Department's Antitrust Division is similarly affected. 
Sixty-three percent of its workforce has been furloughed. That could 
significantly impair its merger enforcement activities, including its 
pending challenge to the American Airlines/US Airways merger, and other 
important enforcement activities that protect consumers against harm 
from anticompetitive business conduct.
2. Federal Communications Commission

    According to the Federal Communications Commission's (FCC) shutdown 
plan, approximately 30 FCC employees--or less than 2 percent of its 
approximately 1,750 employees--have been deemed essential and exempt 
from the furlough. Among those deemed essential are the three 
Commissioners (though not their legal advisors), the inspector general, 
and a small number of employees who are tasked with critical functions 
such as the protection of life and property, disaster response 
operations, and integral national security functions. Some of the FCC 
activities that will cease under the shutdown include: merger reviews, 
responses to consumer complaints, consumer protection, local 
competition enforcement, licensing of broadcast, wireless, and 
management of radio spectrum, and equipment authorizations (which bring 
new electronic devices to the American public). Work has been delayed 
on the highly anticipated spectrum auctions, and could affect the 
timing of the first of these auctions, which were supposed to take 
place in January. Finally, the FCC has ceased maintaining its online 
systems, leaving the public unable to access the resources, public 
comments, and consumer education materials available on its website.
3. Financial Regulators

    The Federal Reserve, the Federal Deposit Insurance Corporation 
(FDIC) and the Office of the Comptroller of the Currency (OCC) are 
self-funded and not subject to the appropriations process. All will 
remain open and operational. Since the Consumer Financial Protection 
Bureau (CFPB) is funded through the Federal Reserve, it will also 
remain open and operational.
    The Securities and Exchange Commission (SEC) and the Commodity 
Futures Trading Commission (CFTC) are both funded through the 
appropriations process and are directly affected by the shutdown. The 
CFTC, which oversees the commodity market and the bulk of the 
derivatives market, was immediately forced to furlough the vast 
majority of its 700 employees, leaving only 28 employees working at the 
agency. This comes at a time when both agencies are struggling under 
enormous workloads to implement the Dodd-Frank Wall Street Reform and 
Consumer Protection Act and, in the case of the SEC, the JOBS Act. That 
process has virtually ground to a halt at the CFTC, where key rules to 
protect against risks in the derivatives markets were just beginning to 
take effect. It also leaves the CFTC with only a few people to police 
the markets for fraud and manipulation, less than 5 of the 50 
individuals who normally perform this function. The SEC has reported 
that they have enough carry-over funding to allow it to operate 
essentially normally for ``a few weeks.'' But that funding will run out 
if the shutdown continues for an extended period of time.
4. Housing Finance

    The mortgage market is operated primarily by non-governmental 
entities in the private sector, but the shutdown is having an impact in 
this area. Mortgage loans may be delayed because the Internal Revenue 
Service (impacted by the shutdown) is not in a position to verify 
income for borrowers. In addition, the Federal Housing Administration 
(FHA) is operating with only a skeleton staff and is unable to do full 
quality control reviews of loans receiving FHA mortgage insurance 
through delegated underwriters. Over time, this could reduce the 
quality of the FHA portfolio and lead to higher losses for the 
insurance fund.
    In the affordable rental housing field, the Department of Housing 
and Urban Development (HUD) has funded current contracts with public 
housing agencies to provide rental subsidies for very low income 
renters. But very shortly current funding will expire, and agencies 
responsible for paying landlords on behalf of very low income tenants 
or for directly operating housing for such tenants may be unable to 
meet their obligations. Assistance for homeless families and single 
individuals, typically provided by private, nonprofit operators using 
Federal funds, is also at risk if the shutdown extends further. 
Similarly, affordable housing developers are reporting that projects in 
their pipeline are on hold because officials at HUD and USDA's Rural 
Housing Service are unable to respond to questions, process 
applications for assistance, or sign off on proposed or final 
development deals.
III. Conclusion
    The government shutdown that we are in the midst of is having a 
broad impact on consumers. Numerous consumer protections that consumers 
expect the government to ensure are not being provided due to this 
shutdown, placing consumers at potential risk.

    The Chairman. Thank you very much.
    One of the things that you make me think of is that you 
were using specific examples and I think the rest of us have 
been talking more in sort of general, the overlay of the 
situation. Of course, it always comes down to individual 
science experiments that can't happen. So one of the things 
that our committee, before I call on Senator Wicker, our 
committee has done is to compile--you all have this in front of 
you. It's a committee report on government shutdown. It's 29 
pages long. It could be 2,900 pages long. But it gives a closer 
account, a more human account of what's not happening.
    I ask unanimous consent that this report be made a part of 
the record.
    Senator Wicker. Mr. Chairman, this is a report by----
    The Chairman. Us.
    Senator Wicker.--by the majority staff of the Committee; is 
that correct?
    The Chairman. Yes.
    Senator Wicker. I just haven't seen it. So no, I have no 
objection.
    [The information referred to follows:]

           Committee on Commerce, Science, and Transportation

                Impacts of the 2013 Government Shutdown

    Majority Staff Report for Chairman Rockefeller--October 11, 2013

                           Table of Contents
Executive Summary

Case Studies

        Consumer Product Safety Commission

        Economic and Statistics Administration

        Federal Aviation Administration

        Federal Trade Commission

        Maritime Security Program (MSP)

        National Aeronautics and Space Administration

        National Highway Traffic Safety Administration

        National Marine Fisheries Service Biologists

        NOAA's Weather Forecasting Services

        National Transportation Safety Board

        United States Coast Guard

        United States Merchant Marine Academy

        United States Travel and Tourism Industry
                                 ______
                                 
Executive Summary
    On October 1, 2013, the Federal Government experienced a lapse in 
funding and began a government shutdown. The shutdown has already had a 
significant impact. Approximately 800,000 Federal employees were 
initially furloughed in agencies across the government. According to 
the planning documents submitted by agencies to the Office of 
Management and Budget and other sources, the vast majority of employees 
in agencies under the U.S. Senate Commerce Committee's jurisdiction 
were to be furloughed.\1\
---------------------------------------------------------------------------
    \1\ Furlough data in this report is based on agency plans for 
shutdown (online at: http://www.whitehouse.gov/omb/contingency-plans) 
and conversations with agency staff. See also Government Shutdown: 
What's Closed, What's Open?, CNN (Oct. 1, 2013) (online at http://
www.cnn.com/2013/10/01/politics/government-shutdown-closings/).
---------------------------------------------------------------------------
    As a result of the shutdown and subsequent employee furloughs, 
agencies have been forced to suspend or cease many vital operations. 
The following fact sheets assembled by Committee majority staff provide 
case studies of operations and activities that have been affected by 
the shutdown. For example:

  <bullet> All Consumer Product Safety Commission (CPSC) port 
        inspectors in the field have been furloughed, preventing the 
        CPSC from screening products at ports of entry. CPSC port 
        investigators annually screen thousands of product shipments 
        and prevent millions of potentially dangerous product units 
        from reaching store shelves--including children's products 
        containing excessive lead content and sleepwear that violates 
        flammability standards. (See page 1 for additional detail)

  <bullet> The Federal Aviation Administration has halted the 
        development, operational testing, and evaluation of 
        technologies and safety standards for NextGen--the agency's 
        program to modernize the air traffic control system and make 
        the National Airspace System safer and more efficient. (See 
        page 5 for additional detail)

  <bullet> The closure of federally-run parks and other attractions is 
        estimated to result in substantial economic harm to communities 
        across the country that benefit from tourism activities 
        surrounding these sites. It is estimated that the communities 
        that surround National Park Service sites may lose as much as 
        $30 million and 750,000 visitors every day that these sites are 
        closed. (See page 23 for additional detail)

  <bullet> National Marine Fisheries Service determination of fishing 
        quotas and permit approvals are pre-requisites for the 
        commencement of fishing seasons across the country. As a 
        result, furloughs of NMFS biologists who perform these 
        functions threaten to delay and truncate the lucrative king 
        crab fisheries season in Alaska and Washington, which was 
        slated to start October 15 and typically lasts only a month or 
        two. (See page 13 for additional detail)

  <bullet> Both the National Highway Traffic Safety Administration and 
        the National Transportation Safety Board have furloughed crash 
        investigators, and as a result have been unable to send crash 
        investigations teams to crashes during the shutdown, including 
        the recent Tesla Model S that experienced a battery fire on 
        October 1. (See pages 11 and 17 for additional detail)

  <bullet> The National Aeronautics and Space Administration has 
        furloughed over 17,000 employees not including contractors. 
        Testing and validation activities on the James Webb Space 
        Telescope, one of NASA's flagship science missions, have 
        ceased, and NASA has powered down a United States-Japan weather 
        research satellite that was due to be shipped for a February 
        launch. (See page 9 for additional detail)
                                 ______
                                 
        Senate Commerce Committee Government Shutdown Fact Sheet
Consumer Product Safety Commission
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Federal Workforce: Employs approximately 530 employees.

    Shutdown Impact:

  <bullet> Employees Furloughed: Approximately 95 percent of CPSC 
        employees have been furloughed. This includes employees who 
        work on hazard identification and reduction, compliance and 
        field operations, import surveillance, and the general 
        counsel's office.

  <bullet> Other Impacts:

    <ctr-circle> All product safety investigations, civil penalty 
            negotiations, and any enforcement proceedings or recalls 
            that do not meet the threshold of involving a ``substantial 
            and immediate threat to the safety of human life'' have 
            ceased.

    <ctr-circle> All port inspectors in the field have been furloughed, 
            preventing the CPSC from screening products at ports of 
            entry. CPSC port investigators annually screen thousands of 
            product shipments and prevent millions of violative or 
            dangerous product units from reaching store shelves. In the 
            first half of FY 2012 alone, inspectors prevented over 1 
            million units of violative or dangerous products from 
            reaching consumers--including children's products 
            containing excessive lead content, and children's sleepwear 
            that violated flammability standards.\2\
---------------------------------------------------------------------------
    \2\ U.S. Consumer Product Safety Commission, Port Surveillance 
News: CPSC Takes Safety to the Front Lines (July 23, 2012).
---------------------------------------------------------------------------
    <ctr-circle> With fewer than 25 staff at work nationwide, CPSC has 
            virtually no resources to monitor, sample, and conduct 
            activities to enforce lead standards and ensure safety in 
            consumer interactions with other dangerous products.
    <ctr-circle> The CPSC can no longer publish reports of harm and 
            potential harm on the publicly accessible website 
            saferproducts.gov, which each month typically receives over 
            100,000 visits and publishes over 1,000 reports.\3\
---------------------------------------------------------------------------
    \3\ U.S. Government Accountability Office, Consumer Product Safety 
Commission: Awareness, Use, and Usefulness of SaferProducts.gov (Mar. 
2013) (GAO-13-306).
---------------------------------------------------------------------------
Economic and Statistics Administration
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Federal Workforce: The Bureau of Economic Analysis employs 460 
Federal employees.

    Shutdown Impact: The Economic and Statistics Administration is 
closed for the duration of the government shut down. 456 employees of 
the BEA are furloughed with only a skeletal staff of 5 deemed excepted. 
BEA is not releasing any new economic statistics, and is not collecting 
or analyzing new data, including any analysis of the impact of the 
government shutdown on the economy. Additionally, the BEA website is 
inaccessible to researchers and others who rely on its data to analyze 
the state of the economy.

  <bullet> The BEA was to release a report on construction spending 10 
        hours after the shutdown began. That report has not been 
        released.\4\ Similarly, reports on U.S. international trade in 
        goods and services, monthly wholesale trade, retail sales, and 
        manufacturing inventory and trade were not released as 
        scheduled.
---------------------------------------------------------------------------
    \4\ UPDATE 1-U.S. Government Shutdown Slows Flow of Data to a 
Trickle, Reuters (Oct. 1, 2013) (available at: http://www.cnbc.com/id/
101077765).

  <bullet> The BEA is scheduled to release its first estimate of the 
        third quarter Gross Domestic Product (GDP) on October 30. It is 
---------------------------------------------------------------------------
        not yet clear if that report will be impacted by the closure.

  <bullet> The Census Bureau is shuttered and unable to prepare 
        economic data that is due to be released this month, including 
        August factory orders, the trade deficit for August, and August 
        business inventories and September retail sales.\5\
---------------------------------------------------------------------------
    \5\ Pew Research Center, Federal Government Shutdown: The Data 
Casualties (Oct. 2, 2013) (available at: http://www.pewresearch.org/
fact-tank/2013/10/02/federal-government-shutdown
-the-datacasualties/).

  <bullet> The loss of these data sets along with the loss of jobs 
        numbers from the Department of Labor has hindered the ability 
        of financial analysts to make determinations about the state of 
        the U.S. economy this month. This affects investment decisions 
        and financial markets, and could impact the Federal Reserve's 
        monetary policy analysis.
Federal Aviation Administration
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Federal Workforce: Employs approximately 46,000 employees 
throughout the Nation.

    Shutdown Impact:

  <bullet> Employees Furloughed: The FAA initially furloughed 15,514 
        employees. The agency recalled 800 safety related employees on 
        October 7, leaving 14,714 employees on furlough.

  <bullet> Other Impacts:

    <ctr-circle> The closure of the Aircraft Registry Office has 
            effectively shut down aircraft deliveries. Any aircraft 
            that is sold domestically, exported, or imported for 
            commercial or private use must be registered by this 
            office. The General Aviation Manufacturers Association 
            information indicates that the shutdown will delay delivery 
            of about 142 new GA aircraft by mid-October, with a 
            combined value of almost $1.5 billion. If the office 
            remains closed the impact on GA manufacturers could be 
            substantial: typically about 35 percent, or roughly $8 
            billion worth of annual GA aircraft deliveries occur in the 
            fourth quarter. In 2012, shipments of GA airplanes totaled 
            2,133 airplanes, and were valued at $18.9 billion.

    <ctr-circle> FAA staff who certify the safety of aircraft, 
            component parts, and modifications to aircraft, have been 
            reduced from approximately 1,300 employees to 100 due to 
            the shutdown. The manufacture of civilian aircraft and 
            related components directly provided 1,090,000 jobs that 
            produced $185 billion in economic output in 2009, while 
            U.S. sales of civilian aircraft, engines, equipment and 
            parts to foreign entities contributed $75 billion toward 
            the Nation's trade balance that year. The continued 
            reduction in FAA certification activities threatens this 
            sector as it could delay manufacturers' schedules across 
            the country. Industry stakeholders indicate a lengthy 
            shutdown could also lead to layoffs.

    <ctr-circle> FAA has halted the development, operational testing, 
            and evaluation of technologies and safety standards for 
            NextGen--the agency's program to modernize the air traffic 
            control system. NextGen will make the National Airspace 
            System safer and more efficient by moving the agency to a 
            satellite-based air traffic control system that uses GPS 
            and advanced communications to provide pilots and air 
            traffic controllers with real-time traffic and weather 
            information. Progress on NextGen slowed during initial 
            implementation of the sequestration in 2013 and the 
            initiative has been put on hold altogether due to the 
            shutdown.

    <ctr-circle> The FAA's furlough of over half of its inspectors who 
            review airline operations and aircraft manufacturing 
            facilities--approximately 1,700 safety inspectors--also 
            raises concerns about the potential erosion in the agency's 
            layers of safety oversight.
Federal Trade Commission
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Federal Workforce: Employs approximately 1,178 employees in 
Washington, D.C., and seven regional offices.

    Shutdown Impact:

  <bullet> Employees Furloughed: Roughly 925 or more employees in 
        Washington, D.C., and the seven regional offices.

  <bullet> Other Impacts: The FTC has shut down all consumer protection 
        activity except for ongoing cases for which there are pending 
        court dates that cannot be postponed. This means:

    <ctr-circle> The FTC is no longer receiving or processing 
            information from states, consumers, and other sources on 
            fraudulent actors that are committing unfair or deceptive 
            acts or practices; nor is the Commission seeking new 
            enforcement actions against bad actors.

    <ctr-circle> The FTC is no longer conducting any consumer 
            protection awareness outreach to schools and local 
            communities.

    <ctr-circle> The FTC's Consumer Sentinel database--the main 
            national tool for gathering and evaluating consumer 
            complaint information submitted to local, state, and 
            Federal entities--is not operational. As a result local and 
            state law enforcement cannot access critical information 
            about fraudulent actors and track fraud across borders.\6\
---------------------------------------------------------------------------
    \6\ Federal Trade Commission, Shutdown of Federal Trade Commission 
Operations Upon Failure of the Congress to Enact Appropriations (Sept. 
27, 2013).
---------------------------------------------------------------------------
Maritime Security Program
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Federal Workforce: Marad has approximately 830 employees in 
Washington, D.C., and in regional offices throughout the United States. 
In addition, the MSP program supports 2,700 mariner positions in the 
United States and on vessels throughout the world.

    Shutdown Impact:

  <bullet> Employees Furloughed: 451 employees in regions throughout 
        the country.

  <bullet> Other Impacts:

    <ctr-circle> The MSP is operating under severely constrained funds, 
            because of a lack of a long-term appropriations bill and 
            the impacts of sequestration. The lack of full funding will 
            require Marad to shortly cut more than 10 vessels from the 
            program, which will diminish the number of vessels 
            available to transport supplies to our troops. According to 
            the U.S. Transportation Command, reductions in these fleets 
            could hinder our ability to quickly deploy and sustain our 
            forces.

    <ctr-circle> It costs carriers more to operate U.S. vessels as 
            opposed to foreign-flag vessels because labor and 
            environmental costs are higher in the United States. MSP 
            funding offsets such costs and helps ensure that American 
            mariners on Americanflagged vessels are available during 
            military conflicts or national emergencies. Without full 
            funding for the MSP to offset these costs, some carriers 
            may leave the program and their change their registration 
            to be foreign-flag.\7\ According to the Maritime 
            Administration, this would result in the loss of more than 
            400 mariner jobs.
---------------------------------------------------------------------------
    \7\ Captain Phillip's Ship Helmed by Tom Hanks at Risk in Shutdown, 
Bloomberg.com (Oct. 9, 2013).
---------------------------------------------------------------------------
National Aeronautics and Space Administration
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Federal Workforce: NASA directly employs more than 18,000 workers, 
not including contractors, through its centers in Alabama, California, 
Florida, Ohio, Maryland, Mississippi, Texas, Virginia, and the District 
of Columbia.

    Shutdown Impact:

  <bullet> Employees Furloughed: NASA has furloughed over 17,000 
        employees (not including contractors) across all agency 
        centers.

  <bullet> Contracts Affected: Some NASA contractors have been 
        furloughed and access to NASA facilities has been limited, 
        including for major programs such as the Orion MultiPurpose 
        Crew Vehicle, scheduled to first launch in 2014. In addition, 
        NASA oversight and coordination activities have stopped, 
        potentially leading to costly overruns due in part to missed 
        deadlines and to the additional resources required to shut down 
        and restart activities.

  <bullet> Other Impacts:

    <ctr-circle> Barring exceptions such as that granted to the 
            upcoming MAVEN launch to Mars, missions may face missed 
            launch windows and delays if government shutdown continues. 
            For instance, the January 2014 launch date for the latest 
            Tracking and Data Relay Satellite (TDRS-L), which supports 
            communication with space assets, could be at risk.

    <ctr-circle> Ground operations in support of new ISS research has 
            halted, which may disrupt the pipeline of experiments 
            slated for launch. ISS research areas include human 
            physiology, pharmaceuticals, agriculture, and earth 
            observation.

    <ctr-circle> Testing and validation activities on the James Webb 
            Space Telescope, one of NASA's flagship science missions, 
            have ceased. Meanwhile, NASA has powered down a U.S.-Japan 
            weather research satellite due to be shipped for a February 
            launch.\8\
---------------------------------------------------------------------------
    \8\ NASA Missions Struggle to Cope with Shutdown, Nature (Oct. 8, 
2013) (online at: http://www.nature.com/news/nasa-missions-struggle-to-
cope-with-shutdown-1.13893).

    <ctr-circle> Some NASA contractors have already reported financial 
            difficulties that may require them to use loans to pay 
            salaries or face major layoffs. In some cases, NASA will 
            have to pay late fees to contractors once the shutdown has 
            concluded.
National Highway Traffic Safety Administration
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Federal Workforce: NHTSA as a whole employs 597 employees in 
Washington, D.C., and in regional offices across the country. Of that 
total, 337 work on the vehicle safety programs that are funded through 
annual appropriations. The other 259 work on highway safety behavioral 
programs and are funded through the Highway Trust Fund.

    Shutdown Impact:

  <bullet> Employees Furloughed: 333 employees--virtually the entire 
        staff dedicated to vehicle safety--have been furloughed.

  <bullet> Other Impacts:

    <ctr-circle> All crash investigators are furloughed. As a result, 
            NHTSA has been unable to send Special Crash Investigations 
            teams to any crashes during the shutdown. For example, the 
            shutdown prevented NHTSA from examining a Tesla Model S 
            that experienced a battery fire on October 1. Without 
            funding, the agency cannot examine the battery to gather 
            information about the cause of the fire, nor can it use 
            information from this fire to inform its ongoing work on 
            battery safety.\9\
---------------------------------------------------------------------------
    \9\ Furloughed Inspectors Leave Gaps in Safety Oversight, Bloomberg 
(Oct. 9, 2013).

    <ctr-circle> On average, vehicle manufacturers issue more than 400 
            recalls per year, affecting millions of individual 
            vehicles. While a minority of these recalls is influenced 
            by NHTSA investigations, all involve consultation with 
            NHTSA regarding the content of the recall notice and the 
            effectiveness of the recall campaign.\10\ Due to the 
            shutdown, however, the agency is not reviewing any safety 
            data submitted during the time of the shutdown. This 
            includes regular reports from vehicle manufacturers, 
            consumer complaints, and reports from manufacturers 
            regarding potential defects. As a result, NHTSA cannot 
            influence the recall process.\11\
---------------------------------------------------------------------------
    \10\ Government Accountability Office, Auto Safety: NHTSA has 
Options to Improve the Safety Defect Recall Process (June 2011).
    \11\ Department of Transportation, Operations During a Lapse in 
Annual Appropriations Plans by Operating Administration (Sept. 27, 
2013).

    <ctr-circle> All safety defect investigations that were open at the 
            time of the shutdown are on hold. These include 
            investigations into possible loss of transmission power in 
            some Nissan vehicles, allegations of fires in the front 
            passenger area on some Jeep Grand Cherokee vehicles, and 
            reports of unexpected braking on some Honda minivans.\12\
---------------------------------------------------------------------------
    \12\ Id.; National Highway Traffic Safety Administration 
investigations (PE13029, PE13027, PE13024).
---------------------------------------------------------------------------
National Marine Fisheries Service Biologists
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Federal Workforce: There are 3,149 NMFS employees across the 
country.

    Shutdown Impact:

  <bullet> Employees Furloughed: Of the 3,149 employees within the 
        National Marine Fisheries Service, 2,675 have been furloughed.

  <bullet> Other Impacts:

    <ctr-circle> NMFS staff analysis of fish stocks is essential for 
            determining allowable catch limits and issuing permits, 
            without which fishermen across the United States cannot 
            fish. This system helps guard against illegal fishing in 
            U.S. waters by international fisherman and ensure the fish 
            American consumers eat is safe and sustainable. Without 
            NMFS determination of fishing quotas and permit approval, 
            fishing seasons cannot commence. For example:

    <ctr-circle> The opening day of the lucrative king crab fisheries 
            season in Alaska and Washington is slated for October 15. 
            The entire crab season is over when quotas are reached, 
            which is typically within about a month or by January 1 at 
            the latest.

    <ctr-circle> Crab fishing in this region depends on a quota system 
            whereby the NMFS determines the total metric tonnage for 
            the crab harvest and assigns quotas to harvesters.

    <ctr-circle> This year, nearly 500 eligible vessels and companies 
            have applied for permits to fish in this season. But due to 
            the shutdown, NMFS has not yet assigned them quotas.

    <ctr-circle> Every day these fishermen are docked could mean money 
            lost for them. Captain Keith Coburn, who is seen on 
            Discovery Channel's Deadliest Catch, has estimated that he 
            makes 30 percent of his annual income in about 8 days 
            during this season, and that if the shutdown continues long 
            enough to prevent his participation at the start of the 
            season, he will lose this income.

    <ctr-circle> A delay of even one week in the fishing season could 
            mean that the opportunity to export to the holiday market 
            in Asia would be missed, and Japan is the fleet's largest 
            buyer.

    <ctr-circle> Crab processors and food distributors would also be 
            indirectly affected by delays in the king crab fishing 
            season, and consumers could pay higher prices for king 
            crab.\13\
---------------------------------------------------------------------------
    \13\ Government shutdown threatens king crab season, KIROTV.com 
(Oct. 5, 2013) (online at http://www.kirotv.com/news/news/government-
shutdown-threatens-king-crab-season/nbGpX/).

    <ctr-circle> In October, toward the end of the cod fishing season, 
            NMFS staff typically review the unused quota for cod to 
            reallocate unused trawl cod allocations to other fishing 
            sectors utilizing other types of fishing gear to catch the 
            fish. Cod fishermen in Alaska have raised concern regarding 
            whether the shutdown will delay this reallocation, leave 
            millions of cod uncaught, and undermine economic 
            opportunity for these fisherman.
National Oceanic and Atmospheric Administration's Weather Forecasting 
        Services
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

    Federal Workforce: NOAA has 12,274 Federal employees.

    Shutdown Impact:

  <bullet> Employees Furloughed: Across NOAA, 5,369 staff have been 
        furloughed, including 663 National Weather Service employees, 
        and 609 National Environmental Satellite, Data and Information 
        Service employees.

  <bullet> Contracting Impact: NOAA has already initiated layoffs of 
        hundreds of Federal contractors in the wake of the shutdown. 
        Further, private contractors reliant upon NOAA funding have 
        warned they will need to initiate furloughs in the coming weeks 
        if the shutdown continues.\14\
---------------------------------------------------------------------------
    \14\ Committee staff conversations with affected furloughed 
contractors of NOAA, NASA, and representatives of Lockheed Martin and 
Ball Aerospace (Oct. 2013).

  <bullet> Other Impacts: Every commercial weather service and company 
        in the Nation and many across the globe rely directly on 
---------------------------------------------------------------------------
        products and services provided by NOAA.

    <ctr-circle> While NOAA's immediate core weather operations remain 
            functional in the short term, the flow of current services 
            has been hampered in numerous instances by the shutdown, 
            including the following examples:

    <ctr-circle> Some forecasters are reporting lack of access to data 
            on servers located in furloughed NOAA offices and to data 
            at the shuttered National Climate Data Center.\15\
---------------------------------------------------------------------------
    \15\ Information provided to Committee staff from National Weather 
Service Employee Organization (Oct. 2013).

    <ctr-circle> Fishermen have complained that they cannot access 
---------------------------------------------------------------------------
            their usual offshore forecasts.\15\

    <ctr-circle> The National Weather Service and NOAA's official 
            Twitter feeds have stopped disseminating all information 
            and updates to stakeholders.

    <ctr-circle> Most technical maintenance work on weather information 
            technology services, such as updating weather forecasting 
            software and repairing technical problems, has been 
            suspended.\16\
---------------------------------------------------------------------------
    \16\ Information provided to Committee staff from National 
Employees Weather Service Union (Oct. 2013).

    <ctr-circle> National Ocean Service products and services such as 
            nautical charting, and coastal management and work 
            performed to safely reopen ports following storms, are 
            almost entirely suspended.\17\
---------------------------------------------------------------------------
    \17\ Information provided to Committee staff from Department of 
Commerce (Oct. 2013).

    <ctr-circle> Additionally, the shutdown threatens to undermine 
            future weather forecasting capability. Nearly all NOAA 
            staff working to refine, develop, and improve on the 
            Nation's current forecasting models, products, and services 
            have been furloughed. This includes staff working to 
            develop the next generation of essential weather 
            satellites, including the Joint Polar Satellite System and 
            Geostationary Operational Environmental Satellite program--
            satellites that are already overdue. Experts predict the 
            Nation may face a gap in weather forecasting capability in 
            future years when existing satellites fail and the next 
            generation of satellites has not been successfully 
            deployed.
National Transportation Safety Board
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Federal Workforce: NTSB employs 410 employees in Washington, D.C.; 
Ashburn, VA; Denver, CO; Federal Way, WA; and Anchorage, AL.

    Shutdown Impact:

  <bullet> Employees Furloughed: 383 of the 410 total employees have 
        been furloughed.

  <bullet> Other Impacts: Due to the shutdown and resulting high number 
        of furloughed employees, NTSB now has severely limited accident 
        investigation capabilities. While the agency has initiated a 
        few investigations since the shutdown began, staff limitations 
        have not allowed for the investigation of most recent 
        accidents. Further, NTSB has been forced to suspend a number of 
        accident investigations, which will delay critical findings on 
        accident causes and delay issuance of safety recommendations.

    Accident Investigations Not Initiated:

  <bullet> October 7, 2013, Washington, D.C.--Washington Metro System. 
        The NTSB said it would not investigate an October 6 accident 
        that occurred in a tunnel in the Metro system serving Maryland, 
        Virginia, and the District of Columbia, which had killed a 
        contractor and injured two Metro employees.\18\
---------------------------------------------------------------------------
    \18\ NTSB Won't Investigate Fatal Metro Accident Because of 
Government Shutdown, Washington Times (Oct. 7, 2013).

  <bullet> October 2, 2013, Dandridge, TN--Fatal bus crash. A bus 
        operated by Front Street Baptist Church in Statesville, NC, was 
        travelling on Interstate 40 when the left front tire reportedly 
        blew out; the bus crossed through the median area and into 
        opposing traffic lanes and was impacted by a westbound tractor-
        trailer and an SUV. Six bus passengers died, the driver of the 
        tractor-trailer died, and one of the three occupants in the SUV 
        died. There were a minimum of 13 others who were injured, many 
        of them seriously.\19\
---------------------------------------------------------------------------
    \19\ No NTSB Investigators for Deadly Bus Crash Because of 
Government Shutdown, NBC News (Oct. 3, 2013).

  <bullet> October 1, 2013, Kent, WA--Tesla Model S fire. A battery-
        related fire started in a Tesla Model S vehicle after the 
        vehicle struck metal debris on the road.\20\ According to the 
        NTSB, investigating this lithium ion battery issue would have 
        complemented a previous investigation of the Chevrolet Volt 
        battery-related fire and provided additional information 
        regarding the technology.
---------------------------------------------------------------------------
    \20\ How Does the Tesla Model S Ace Safety Tests, but Catch on 
Fire?, ABC News (Oct. 3, 2013).

---------------------------------------------------------------------------
    Major Accident Investigations Suspended:

  <bullet> September 29, 2013, Santa Monica, CA--Crash of a private 
        jet. A Cessna Citation plane crashed at the Santa Monica 
        Airport on September 29, 2013, causing four casualties. NTSB 
        staff was on the scene to start the investigation, but NTSB has 
        suspended the investigation.\21\
---------------------------------------------------------------------------
    \21\ See Government Shutdown Halts NTSB Probe into Santa Monica Jet 
Crash, Los Angeles Times (Oct. 1, 2013).

  <bullet> July 6, 2013, San Francisco, CA--Crash of Asiana flight 214. 
        A jetliner crashed landed in San Francisco killing three 
        passengers and injuring dozens.\22\ The investigative hearing 
        for this incident originally scheduled for November 6-7, 2013, 
        has been delayed.\23\
---------------------------------------------------------------------------
    \22\ Third Girl Dies from Injuries in Asiana Airlines Crash in San 
Francisco, NBC News (Jul. 15, 2013).
    \23\ National Transportation Safety Board (online at www.NTSB.gov).

  <bullet> May 28, 2013, Rosedale, MD--CSX freight train crash. A CSX 
        freight train hit a truck in Baltimore County Maryland 
        resulting in the train derailing and an explosion.\24\ 
        According to the NTSB, all investigative activity and project 
        work has halted.
---------------------------------------------------------------------------
    \24\ Freight Train Hits Truck and Derails in Maryland, CNN (May 30, 
2013).

  <bullet> May 23, 2013, Mount Vernon, WA--Bridge collapse over the 
        Skagit River. A tractor trailer struck a bridge on I-5 in 
        Washington State causing a portion of the bridge to 
        collapse.\25\ According to the NTSB, all investigative activity 
        and project work has halted.
---------------------------------------------------------------------------
    \25\ I-5 Bridge Collapse Over Skagit River in Washing Sends Cars, 
People into the Water, ABC News (May 23, 2013).

  <bullet> May 2013, Bridgeport, Connecticut--Metro-North rail 
        accidents. On May 28, a Metro-North worker was struck by a 
        train while he worked on the tracks. On May 17, an eastbound 
        train derailed and crashed into an oncoming train injuring 
        dozens of passengers.\26\ The pre-hearing conference for this 
        investigative hearing originally scheduled for October 8, 2013, 
        has been postponed.
---------------------------------------------------------------------------
    \26\ NTSB Lists Agenda for Hearings on Connecticut Metro-North 
Crashes, New Haven Register (Sept. 20, 2013).

  <bullet> November 15, 2012, Midland, TX--Parade float collision with 
        Union Pacific train. A parade float carrying Wounded Warriors 
        and their spouses from the Iraq and Afghanistan wars was 
        impacted by a UP train, killing 4 soldiers and seriously 
        injuring several others.\27\ According to NTSB, consideration 
        of the agency's report is scheduled for early November but 
        likely to be postponed.
---------------------------------------------------------------------------
    \27\ Texas Parade Honoring War Heroes Ends in Tragedy, Associated 
Press (Nov. 16, 2012).
---------------------------------------------------------------------------
United States Coast Guard
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Federal Workforce: The Coast Guard consists of over 42,000 active 
duty personnel, 8,000 reservists, 8,800 civilian employees, and 32,000 
auxiliary volunteers.

    Shutdown Impact:

  <bullet> Employees Furloughed: All uniformed, active duty Coast Guard 
        military personnel are reporting for duty. During the first 
        week of the shutdown, 6,263 civilian personnel were furloughed. 
        However, the Pay Our Military Act has allowed 5,788 of these 
        employees to return to work as of Monday, October 7.\28\
---------------------------------------------------------------------------
    \28\ Pay our Military Act, Pub. L. No. 113-39 (Sep. 30, 2013).

  <bullet> Contracting Impact: The Coast Guard's Acquisition 
        Directorate is responsible for an approximately $30 billion 
        investment portfolio used to recapitalize the Service's aging 
        cutters, boats, and aircraft; procure command, control, 
        communication, computers, intelligence, surveillance, and 
        reconnaissance systems; and acquire personnel and facilities 
        provisions and other logistics. The Coast Guard contracts with 
        a wide variety of industries, such as shipbuilders, 
        telecommunications companies, and facilities servicers, in 
        order to provide for and sustain mission readiness in the 
---------------------------------------------------------------------------
        field.

    Most of the procurement and contracting work to maintain and repair 
        the Service's aging surface and air assets and facilities has 
        been either been curtailed or suspended since the shutdown. For 
        example, allocation of supplemental appropriations the Coast 
        Guard received under the Disaster Relief Appropriations Act, 
        2013 \29\ to repair facilities and infrastructure damaged by 
        Hurricane Sandy has ceased, impacting multimillion dollar 
        contracts slated to be awarded in October for building (valued 
        at $2 million) and seawall repairs (valued at $9 million). This 
        supplemental funding must be allocated for these needed 
        projects during FY 2014, or else it will be returned to the 
        Treasury.
---------------------------------------------------------------------------
    \29\ Disaster Relief Appropriations Act, Pub. L. No. 113-2 (Jan. 
29, 2013).

    There are numerous other multimillion projects that would be 
        affected due to the ``trickle down'' delay caused by the 
        shutdown. Should the shutdown continue and FY 2014 
        appropriations not be provided, a number of mission-critical 
        surface asset recapitalization efforts would be delayed, 
        including three design contracts for the new offshore patrol 
        cutter (valued at $25 million), needed to replace the 40 to 50-
        year old, 210-foot and 270-foot medium endurance cutters; 
        contracts for construction of fast response cutters (valued at 
        $75 million), needed to replace the 30-year-old 110-foot patrol 
        boats; and completion of the seventh of eight national security 
        cutters (valued at $615 million), needed to replace the 45-
        year-old 378-foot high endurance cutters. With a continued 
        shutdown, assets currently under construction and newly-
        acquired are likely to suffer reduced quality assurance checks, 
        increasing the probability that any defects will be detected 
---------------------------------------------------------------------------
        much later, and therefore, future repair costs.

  <bullet> Other Impacts:

    <ctr-circle> Although the Coast Guard has indicated essential 
            Service activities are ``uninterrupted,'' Coast Guard 
            services and activities that have been curtailed include:

    <ctr-circle> 50 percent reduction in surface and air support to 
            Joint Interagency Task Force-South, which focuses on drug 
            and migrant interdiction in the Gulf of Mexico and the 
            Caribbean;

    <ctr-circle> 25 percent reduction in surface and air support for 
            general migrant interdiction operations; and

    <ctr-circle> 35 percent reduction in surface and air support hours 
            for the Living Marine Resource mission, which involves 
            international and domestic fishery patrols as well as other 
            at-sea enforcement.
United States Merchant Marine Academy
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Federal Workforce: The USMMA employs approximately 275 people, 
including 80 faculty members.

    Shutdown Impact:

  <bullet> Employees Furloughed: Almost all of USMMA's faculty and 
        staff are civilians subject to shutdown furloughs.

  <bullet> Other Impacts:

    <ctr-circle> All professors and most staff at the USMMA have been 
            furloughed. Starting on October 15, the Academy anticipates 
            it will have to shut down entirely and send students 
            home.\30\
---------------------------------------------------------------------------
    \30\ USMMA.edu, Questions and Answers on the USMMA Schedule.

    <ctr-circle> Parents have raised concerns that the shutdown could 
            delay the student's training and careers, because of the 
            compact scheduling and training requirements at USMMA.\31\
---------------------------------------------------------------------------
    \31\ Shutdown Sidelines U.S. Merchant Marine Academy Cadets, 
CNN.com (Oct. 6, 2013).

    <ctr-circle> According to USMMA, it costs more than $220,000 per 
            day in operational costs for every missed day of school 
            that needs to be made up.
United States Travel and Tourism Industry
    Travel is a strong driver of the Nation's economy. The U.S. Travel 
Association estimates that the sector generates $2.0 trillion in 
economic output, ranks among the top ten private employers in the 
country (supporting 14.6 million American jobs), and contributes more 
than $129 billion in tax revenues each year.\32\ The largest subsectors 
of the travel and tourism industry are food services, air travel, 
accommodations, and recreation and attractions.\33\
---------------------------------------------------------------------------
    \32\ U.S. Travel Association, The Power of Travel Promotion: 
Spurring Growth, Creating Jobs, at 7, 9 (2013) (online at http://
www.ustravel.org/sites/default/files/page/2011/08/e_
Power_Travel_Promotion1.pdf).
    \33\ U.S. Department of Commerce, Select USA, The Travel, Tourism 
and Hospitality Industry in the United States (online at http://
selectusa.commerce.gov/industry-snapshots/travel-tourism-and-
hospitalityindustry-united-states).
---------------------------------------------------------------------------
    Shutdown Impact: As stated by President and CEO of the U.S. Travel 
Association Roger Dow one day before the shutdown, ``The closure of 
national parks and Federal historic sites to millions of travelers--
coupled with the general perception of an uncertain travel process--
would do serious and immediate harm to the economy.'' \34\
---------------------------------------------------------------------------
    \34\ U.S. Travel Association, Press Release, U.S. Travel Community 
Warns Against Federal Shutdown (Sept. 30, 2013) (online at http://
www.ustravel.org/news/press-releases/us-travel-community-warnsagainst-
federal-shutdown).

  <bullet> Closure of Federally Run Parks and Attractions. Federal 
        parks, national monuments, battlefields, and other attractions 
        run by the National Park Service have closed due to the 
        shutdown, potentially affecting the travel plans of millions. 
        All 19 museums and galleries run by the Smithsonian 
        Institution--as well as the National Zoo--have been shuttered. 
        When in operation, the Smithsonian welcomes hundreds of 
        thousands of visitors per week. In addition, National Marine 
        Sanctuaries that attract pleasure boating activities, including 
        the Monterey Bay National Marine Sanctuary \35\ and the Thunder 
        Bay National Marine Sanctuary \36\ all have been closed due to 
        the shutdown.
---------------------------------------------------------------------------
    \35\ See montereybay.noaa.gov.
    \36\ See flowergarden.noaa.gov/visiting/visit.html.

    <ctr-circle> Federal Workforce: Over 21,000 members of the National 
            Park Service staff have been furloughed. Hundreds of staff 
---------------------------------------------------------------------------
            for Marine Sanctuary sites also have been furloughed.

    <ctr-circle> Other Impacts:

    <ctr-circle> The communities that surround National Park Service 
            sites may lose as much as $30 million and 750,000 visitors 
            per day.\37\ Hundreds of local communities that benefit 
            from tourism to federally protected areas will be affected, 
            in every state in the Nation.
---------------------------------------------------------------------------
    \37\ National Parks Conservation Association, Government Shutdown 
Closes National Parks (updated Oct. 10, 2013) (online at http://
www.npca.org/protecting-our-parks/park-funding/park-funding.html).

    <ctr-circle> Small business owners that operate private tours of 
            federally protected areas, or operate restaurants and 
            cafees based near these sites are all losing significant 
            revenue. One ferry company servicing the Statue of Liberty 
            and Alcatraz expects to lose $2 million in revenue and will 
            be forced to lay off 200 employees.\38\
---------------------------------------------------------------------------
    \38\ U.S. Travel Association, Impact of the Shutdown: Tales from 
the Frontline (online at http://www.ustravel.org/government-affairs/
domestic-policy-issues/impact-of-the-shutdown).

    <ctr-circle> Planned student and class activities to Federal sites 
            have been indefinitely suspended.\39\
---------------------------------------------------------------------------
    \39\ See e.g., D.C. Tourism Officials Worry that Shutdown Will 
Drive Visitors Away, WAMU 88.5 News (Oct. 3, 2013) (online at http://
wamu.org/news/13/10/03/dc_tourism_officials
_worry_that_shutdown_will_drive_visitors_away); Student Groups Feel 
Shutdown, The Daily Tar Heel (updated Oct. 9, 2013) (online at http://
www.dailytarheel.com/article/2013/10/student-groups-feel-shutdown); 
Shutdown upends class trips by central Ohio Schools, The Columbus 
Dispatch (Oct. 2, 2013) (online at http://www.dispatch.com/content/
stories/local/2013/10/01/
Shutdown_forces_schools_to_alter_DC_trip_itineraries.html); Shutdown 
hits Nampa High students' trip, Idaho Statesman (Oct. 2, 2013) (online 
at http://www.idahostatesman.com/2013/10/02/2795161/shutdown-hits-
students-trip.html); Shutdown comes at bad time for Modesto-area 
students' D.C. trip, The Modesto Bee (Oct. 2, 2013) (online at http://
www.mod
bee.com/2013/10/02/2954886/shutdown-comes-at-bad-time-for.html); 
Shutdown threatens to dampen students' DC trip, Fox 4, Dallas-Fort 
Worth (Oct. 2, 2013) (online at http://www.myfoxdfw.com/story/23594825/
shutdown-threatens-to-dampen-students-dc-trip).

    <ctr-circle> Weddings scheduled to be held at various sites on the 
            National Mall in October have been forced to be 
            relocated.\40\
---------------------------------------------------------------------------
    \40\ Government Shutdown 2013: Weddings canceled on National Mall, 
WJLA (Oct. 1, 2013) (online at http://www.wjla.com/articles/2013/10/
government-shutdown-2013-weddings-canceled-on-national-mall94721.html).

  <bullet> International Travel Impact: International travel companies 
        are advising clients not to travel to the United States in 
        October, citing the government shutdown and impact on federal 
        sites.\41\ International tourists account for an estimated $153 
        billion in travel and tourism revenues for the U.S. economy 
        annually.\42\
---------------------------------------------------------------------------
    \41\ U.S. Travel Association, Impact of the Shutdown: Tales from 
the Frontline (online at http://www.ustravel.org/government-affairs/
domestic-policy-issues/impact-of-the-shutdown).
    \42\ U.S. Department of Commerce, Select USA, supra note 32.

    Data on Impact of FY 1996 Shutdown on Tourism and Travel: Tourism 
and travel data from the most recent previous government shutdown in FY 
1996 underscores the tremendous disruption that government shutdowns 
---------------------------------------------------------------------------
pose to the U.S. travel and tourism industry.

  <bullet> The Congressional Research Service estimated that 7 million 
        tourists were turned away from America's then-368 National Park 
        sites due to the last government shutdown in FY 1996, and an 
        additional 2 million visitors were turned away from national 
        museums and monuments.

  <bullet> The FY 1996 shutdown resulted in millions of dollars in lost 
        revenue for the U.S. travel and tourism industry. Mount 
        Rushmore National Memorial in South Dakota estimates that the 
        first week of closure during the government shutdown affected 
        49,000 people who would have otherwise visited, costing 
        $247,095 in lost sales, and putting 38 employees on furlough.

  <bullet> Further, approximately 20,000-30,000 foreigners' visa 
        applications were left unprocessed each day, and a total of 
        200,000 U.S. passport applications were left in limbo.\43\
---------------------------------------------------------------------------
    \43\ Government Shutdown 2013 by the Numbers: How It's Affecting 
The Travel Industry, International Business Times (Oct. 4, 2013) 
(online at http://www.ibtimes.com/government-shutdown-2013-numbershow-
its-affecting-travel-industry-1414756).

    The Chairman. Thank you.
    I now call on Senator Wicker, who doesn't look like Senator 
Thune, but is Senator Thune, for an opening statement, and then 
we'll go to questions.

              STATEMENT OF HON. ROGER F. WICKER, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Wicker. Let me say on behalf of Senator Thune that, 
because of the unprecedented blizzard in South Dakota, he felt 
that he needed to get back to his state. When he heard about 
this hearing, he tried to make travel arrangements to get back, 
but he has been unable to do so. So I'm sure he would like to 
have been here, and we wish him a speedy return and wish the 
people of South Dakota the best during this disaster.
    Also, as most members know and most of the public is aware, 
Republican members of the Senate have been meeting in the White 
House with President Obama and Vice President Biden for the 
last 2 hours or more. The meeting lasted longer than people 
expected and I guess that's a good thing because we were 
talking about this very subject. So that's the reason that as 
Ranking Member for this hearing I am late, and I apologize for 
that. But thank you, Chairman Rockefeller, for your courtesy 
which you've always shown to me and members on this side.
    No one is happy about the current shutdown.
    The Chairman. Senator Wicker, I just wanted to say, I said 
the things that you said, but I also pointed out with respect 
to Senator Thune that 50 percent of all of the cattle of South 
Dakota are dead and buried. Well, they're under the snow. And 
that is a catastrophe, economic catastrophe. And I pointed out 
they're not North Dakota, they don't produce oil. They do 
cattle, agriculture. So that even his trying to get back here I 
think is a wonderful thing and I'm proud that you're taking his 
position.
    Senator Wicker. Well, thank you for saying that, and it is 
a tragedy and a catastrophe to be sure.
    As I said, no one is happy about the current shutdown, nor 
about any of the shutdowns that have occurred over time. During 
the Clinton Administration shutdowns cost $1.4 billion, 
furloughed hundreds of thousands of Americans, and sharply 
slowed economic growth. This shutdown is likely to be no 
different, and I think we all hope it ends very soon. The new 
economic report shows that even a 2-week shutdown would reduce 
gross domestic product in the fourth quarter by .3 percent.
    The disagreement arises not over whether the government 
should be reopened, but rather how we address our country's 
skyrocketing debt. Achieving reform in a divided government is 
often difficult, requiring tough decisions and requiring 
leadership by both political parties. The example set by 
President Reagan and House Speaker Tip O'Neil three decades ago 
is still relevant today. Despite vast political differences, 
the two leaders found common ground by putting the best 
interests of the country first while still adhering to their 
long-held principles.
    In order to end this shutdown, both sides must work 
together. Both sides can agree there are policies and laws in 
place today that we would like to see changed. It's my hope 
that if both sides give a little both sides will be able to 
walk away from the negotiating table with something of which 
they can be proud and we can all be proud.
    But first, Mr. Chairman, both sides must be willing to sit 
down at the table and negotiate. Based on news reports and 
encouraging signs out there in the public, perhaps we are 
indeed getting closer to a negotiating process.
    Regrettably, this is a catastrophe of our own creation and 
the status quo needs to change. For too long we have governed 
crisis to crisis. For the last several years, the Senate has 
failed to consider appropriations bills under the regular 
order, instead relying on multiple continuing resolutions or 
omnibus spending bills to keep government running. A continuing 
resolution should be a measure of last resort, not taken up 
lightly for the sake of political expediency. It is not a 
substitute for a comprehensive and open budget process that 
could help achieve long-term deficit reduction and spur 
economic growth.
    According to a recent article in Forbes, in spite of the 
government shutdown, 87 percent of government expenditures are 
still occurring. In other words, after payments for 
entitlements, interest on the national debt, and, quote, 
``essential personnel and services,'' only 13 percent of 
government expenditures remain subject to this partial 
government shutdown.
    No matter how much we cut discretionary spending, it will 
not be enough to bring our budget deficit or our national debt 
under control. We must address the main driver of our current 
financial crisis, namely mandatory entitlement spending. 
Members of this committee will no doubt agree with today's 
witnesses that this partial government shutdown is having a 
negative impact. Beyond that, perhaps we can draw on the 
experiences of our witnesses in balancing the budgets of their 
respective organizations, lessons we can heed in getting 
America on a sustainable fiscal path.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Wicker.
    Debby Hersman, we had a pipeline explosion in West Virginia 
and I remember you and a phalanx of people with you coming down 
and spending a number of days trying to figure out the layers 
of pipelines, things which had been pipelined 50 years ago 
which weren't on any maps. But the explosion was absolutely 
devastating, and you were just, you were obsessed by it, you 
were absorbed by it, and you spent a lot of time on it. You 
flew down.
    I'm not trying to praise you. I'm just trying to say what 
you have to do in order to surmise what the crisis is and how 
it can be handled.
    You've mentioned other accidents, Tennessee, et cetera, 
Minnesota. But can you give us some things that have come 
across your desk that just flat-out frustrates you because 
there's nothing you can do about it? And if you have so few 
people left actually on the job, they may not even be the 
people that you need when you go to a pipeline explosion or 
some other kind of explosion. They may keep the office running 
or something. Could you just talk to us about that?
    Ms. Hersman. Sure. I think there are certainly the near-
term issues of the accidents that we're not taking that we're 
not picking up. But there are also the longer term issues of 
all of the accidents that we've put on hold. Your pipeline 
accident in Sissonville is one of those. We were working very 
hard to get that completed before the one year anniversary, as 
many other members have accidents that we're working hard to 
get completed.
    It is choreographed to try to slot in all of this work. The 
investigators are handling multiple investigations at the same 
time and they work very hard to get that work done, to improve 
the safety of the traveling public.
    For the years that we've been around, the NTSB has improved 
the safety of the traveling public. But as far as risks are 
concerned, if we don't go we don't know. So we don't know what 
some of those risks are that are not being uncovered if we 
don't launch on those accidents.
    I'll tell you, one of the most frustrating things for me 
watching what's happened over the last 10 days is I have a 
workforce is I have a workforce that wants to get back to work. 
They work at the NTSB because they believe what they do makes a 
difference and they improve transportation safety, and they're 
calling, wanting to know if they can go. As a leader, that's 
one of the most difficult things to say to your employees who 
are committed to the jobs that they do, to tell them that they 
can't do their job, and that doesn't make any sense.
    The Chairman. I thank you.
    I want to go for one question to Mr. Leshner. I've got to 
find you, Mr. Leshner.
    [Pause.]
    The Chairman. Well, I won't for the moment.
    Rachel, can I go to you again, because you were just 
clearly focused and you see all the bottom feeding that other 
people don't. You see all the human tragedy. We used to spend a 
lot of time on this committee on trying to protect children, 
all the way from what they see on television, their privacy, 
those kinds of things. So children, just take children and the 
Consumer Product Safety Commission, toys, things of that sort. 
Bring them alive for the Committee of what is not going to 
happen that's good or what is bad because of the shutdown.
    Ms. Weintraub. Sure. Of course, children--some of the 
things beyond this committee's jurisdiction are having huge 
detrimental impacts, especially for low-income children. But in 
terms of the Consumer Product Safety, there are currently 23 
people working at the Commission. There is so much work that 
gets done every day that they can't do.
    There are no inspectors at the ports. Especially at this 
time, which is before the holiday season, it is so important to 
have CPSC inspectors, who now have renewed authority and 
renewed resources as a result of this committee, to be at the 
port, to evaluate whether the products pose choking hazards, 
whether they contain excessive levels of lead, whether they 
pose strangulation risk. Those import inspectors are unable to 
be at ports and do that work.
    In terms of recalls, only recalls that meet the high bar of 
an imminent threat to the public or to protect the property of 
the government are being conducted. We don't know what 
information we're not finding out.
    On the saferproducts.gov website, consumers are able to 
report information, but it's not being updated. So there may be 
incidents that even the CPSC doesn't know about, that the 
public certainly doesn't, and they will not find out about 
those incidents that could affect the safety of their children 
because the information is not being updated.
    The Chairman. I thank you.
    In order of appearance, we now go to Senator Wicker if you 
want to ask a question, then Senator Warner, Nelson, Schatz, 
Begich, Heinrich, Cantwell. I don't want to depress anybody, 
but at least you're coming up quickly.
    Senator Wicker. Thank you, Mr. Chairman.
    Well, I think the testimony has been very compelling 
concerning the negative aspects of this government shutdown. 
Let me say, Captain Colburn, this is your livelihood, a family 
run business. This is the way you put groceries on the table 
and feed your families. You are calling on--in your testimony, 
you're asking the Secretary of Commerce to direct NOAA 
employees to fulfil the task that you've already paid to do.
    You pay this with management--you pay these management 
costs through the cost recovery program, is that correct?
    Mr. Colburn. That is correct.
    Senator Wicker. How much do you pay, Captain?
    Mr. Colburn. It's a small percentage of our catch, but I 
don't know. Over the last 7 years, I think it's running in the 
millions of dollars for management.
    Senator Wicker. It may interest the Committee to know that 
there are three House members--no, there are three Members of 
Congress, two from the House and one from the Senate, that 
agree with your position that the Secretary has the authority 
to direct NOAA to resume these activities.
    I hold in my hand a letter signed by Senator Lisa 
Murkowski, also by Congressman Don Young and Chairman Doc 
Hastings of the State of Washington. He's Chairman of the 
Committee on Natural Resources. This is a letter that I'm going 
to ask to be included in the record at this point, Mr. 
Chairman.
    The Chairman. So be it.
    [The information referred to follows:]

                              Congress of the United States
                                    Washington, DC, October 9, 2013
Hon. Penny Pritzker,
Secretary,
U.S. Department of Commerce,
Washington, DC.

Dear Secretary Pritzker:

    We are writing to urge you to use your authority consistent with 
the Antideficiency Act \1\ to responsibly manage the 2013 Bering Sea 
and Aleutian Islands crab fisheries. We are aware that other Federal 
agencies have utilized available balances from prior years to continue 
essential operations and we believe that such flexibility should be 
applied in the instant case where fishermen are fully paying for the 
costs of managing these fisheries. Delays in opening the Bristol Bay 
red king crab fishery may result in significant economic harm to 
fishermen and processors who are required by statute and regulation to 
fully reimburse your agency for the administration of the allocation of 
this public resource.
---------------------------------------------------------------------------
    \1\ 31 U.S.C. 1341, et seq.
---------------------------------------------------------------------------
    The Alaska Department of Fish & Game has set the harvest limits 
(Total Allowable Catch, or TAC) for the Bristol Bay red king crab 
fishery and is prepared to open the fishery on its scheduled date of 
October 15. The next step is for the National Oceanic and Atmospheric 
Administration (NOAA) to issue Individual Fishing Quota shares (IFQ) to 
the crab fishermen, and Individual Process Quota shares (IPQ) for the 
processors, so the fishery can be properly managed within its harvest 
limits. This process is simple: apply the TAC to the existing database 
of IFQ and IPQ shareholders, to produce the harvest levels for the 
fishermen.
    The Antideficiency Act allows Federal agencies to except activities 
that are necessary to protect life or property, and we believe that 
authority extends to the management of a public resource where the 
users have paid fees that entirely cover the management of such 
resource. As administered by your Department through NOAA, the Bering 
Sea and Aleutian Islands Crab Rationalization Program includes a Cost 
Recovery Program that fully covers the management of the covered crab 
fisheries. On August 1, 2013, NOAA published its ``Notification of fee 
percentage'' for the Program, and included the following statement:

        ``The Program includes a cost recovery provision to collect 
        fees to recover actual costs directly related to the 
        management, data collection, and enforcement of the Program.'' 
        \2\
---------------------------------------------------------------------------
    \2\ Notification of fees, 78 Fed. Reg. 46577 (August 1, 2013).

    This provision is supported by the underlying regulation \3\ and 
statutory authority of the Magnuson-Stevens Fishery Conservation and 
Management Act.\4\ As finalized and published by NOAA, the 2013/2014 
Cost Recovery Program set a rate of 0.69 percent for the cost recovery 
fee based on projected harvest and market expectations for an opening 
of this fishery on October 15.
---------------------------------------------------------------------------
    \3\ 50 C.F.R. Sec. 680.44.
    \4\ 16 U.S.C. 1862, et seq (see 16 U.S.C. sections 304(4)(2)(A) and 
313(j).
---------------------------------------------------------------------------
    We believe you have adequate authority to proceed with the issuance 
of IFQ and IPQ shares for the BSAI crab fisheries and ask that you 
direct NOAA to begin this process immediately to ensure that the 
Bristol Bay red king crab fishery is opened on October 15. The timing 
of this opening will ensure proper management of this public resource, 
and the ability of crab fishermen and processors to pay the full cost 
for the administration of this program.
            Sincerely,

Lisa Murkowski,
United States Senator.

Don Young,
Congressman for All Alaska.
Doc Hastings,
Chairman,
Committee on Natural Resources.

    Senator Wicker. This letter to Secretary Penny Pritzker 
takes the exact same position that you have taken, that she has 
the authority under existing law to resume these activities, to 
get you back to work. So I would simply say that I agree with 
you [Captain Colburn] and with your written and oral testimony 
that the Secretary has the authority to do this and should do 
it.
    Now let me then move on to Ms. Blakey. This is really a 
comment to all of you. I alluded to this in my opening 
statement. It seems that we have a new normal in the way we do 
our budget. We haven't had a budget for four cycles now. The 
Appropriations Committees, House and Senate have different 
numbers to work with, so we don't get our appropriations bills 
done.
    From our standpoint, those on my side of the aisle feel 
that we don't get amendments and therefore it takes so much 
longer to reach unanimous consent agreements to bring these 
appropriation bills to the floor, and so we don't appropriate 
money under regular order. When I was first here as a member of 
the House of Representatives, the Senate passed their 
appropriations bills, the House passed their appropriation 
bills. We didn't get them all done, but we had them passed and 
we were in conference, and by and large at least we got half of 
them done or a good bit of the budget.
    So I just would--I would ask you, Ms. Blakey. You mentioned 
predictability and you alluded to this in your written 
statement. Wouldn't you agree that if we got back to the basic 
process of budgeting and the regular appropriation process this 
would be helpful to your agency, to the agencies that your 
organization works with, in having predictability?
    Ms. Blakey. Absolutely. As you know, Senator Wicker, I 
actually had the privilege of working with you, Senator 
Rockefeller, and so many others on this committee in crafting a 
viable budget for several of the agencies we work closely with 
now. Both the FAA and the NTSB are the two examples I'm 
thinking of.
    But it was vital to come to terms with proposing a budget, 
understanding the views of both House and Senate. Then you came 
together on a budget that had both predictability and clear 
guidance. We understood the priorities that made sense from the 
standpoint of Congressional concerns and were able to 
throughout the year act on that.
    That's a very important thing because it gives clarity in 
government. I think it gives a clear understanding of what the 
taxpayers themselves, your constituents, view as being the 
priorities. And that was the way we used to do business.
    I certainly now, looking at it from the outside, working 
with these agencies, would give anything if we could move back 
to the point where we really actually had appropriations bills 
passed year after year.
    Senator Wicker. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Wicker.
    Senator Warner.

                STATEMENT OF HON. MARK WARNER, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Warner. Thank you, Mr. Chairman.
    I agree we need to deal with our fiscal issues on both 
sides. I would simply remind our colleague that the Senate 
passed a budget this spring and has asked 21 times to go to 
conference, 21 times to go to conference, to have a budget in 
place.
    I've got to tell you, I really respect your testimony and 
your restraint, because if you're not mad as hell then I don't 
think you're appropriately expressing at least the way I feel 
and a whole lot of folks around the country feel.
    I won't say the company: I got called two nights ago by a 
major company in Virginia. The gentleman built this company 
over 25 years, 5,500 employees, does a lot of government 
contracting. Thirty percent of those employees have been laid 
off as nonessential. The 70 percent that have been essential 
still aren't getting paid because the processors of the checks 
aren't in place. Twenty-five years of work that this company 
has built could go down the drain in a couple weeks because 
they'll go bankrupt if they don't get their payments.
    I would add the issue for the record as well in terms of 
short-term effects of this idiocy, to that of default, 
shutdowns, not majority, not minority, just short-term interest 
rates in the last few days, what that is doing to every 
business in America because of the irresponsible actions that 
are taking place.
    I would also say one of the incredible ironies is the House 
has passed and I know the Senate, in whatever final agreement 
will pass, that our Federal workers will get compensated. If we 
continue this, Captain Colburn isn't going to get compensated. 
Your companies aren't going to get compensated. This company 
isn't going to get fully compensated. The motel owner on 
Skyline Drive isn't going to get compensated.
    The remarkable thing is and the business frustration, as 
somebody who's been a business guy longer than I've been in 
this job, is that we are going to cost the taxpayer more money, 
because we're going to pay the Federal employees, but the 
starting and stopping. The complete lack of business sense from 
those who say you can start and stop an enterprise and that 
doesn't cost more is so divorced from economic reality it is 
stunning.
    We've seen some good signs recently that some may be 
willing to say, well, maybe America shouldn't default next 
week. Somehow that's greeted as progress. But what I don't 
understand is we're going to enter into the negotiations that I 
think are appropriate, absolutely. Why in the heck would any 
rational person say and answer Captain Colburn or answer 
Marion's companies, why we should keep the government shut down 
while we negotiate?
    Anyone that suggests, that selects one off as we read about 
a tragedy in the press, whether it's around the parks or around 
our vets or around death benefits, say we've got to read about 
a tragedy before, oh, oh, let's reopen that park--do we have to 
wait for some child to die because the drug wasn't inspected to 
reopen the FDA, or because somebody got bad flu to reopen USDA, 
or, God forbid, we've read about that tragedy in Tennessee last 
week, something else happens and could you get your inspectors 
out?
    That is not a responsible way to operate an enterprise like 
the U.S. Government. I mean, it is beyond the pale of 
comprehension that anyone would say: Keep this government shut 
down because it might give us a little more leverage, operate 
on a one-off basis because when we see something in a tragedy 
then maybe we'll say, well, that part ought to be reopened.
    I would ask any who want to keep the government shut, tell 
us what parts of the government you want to keep shut. Lay out 
those items. That ought to--let the American people know what's 
not an essential. If they're not essential, maybe they should 
be permanently defunded. But don't do this on a one-off basis.
    These are just the short-term implications. I'm not going 
to get to a question, but, Dr. Leshner, you know, we've all 
heard the phrase ``Intel Inside.'' I think what we are doing 
right now is creating a cancer inside of our enterprise. What's 
happening at NSF, what young scientist would join or want to 
apply to go into this field if you don't have any 
predictability?
    The rest of the world's not waiting on America to get its 
act together. They haven't stopped their research. They haven't 
stopped their innovation while we do this.
    I would say we're going to have to do more with less. 
Again, I've been a business guy longer than I've been in this 
business, but as a business guy who has led large enterprises, 
you don't degrade your workforce and drive down their morale 
when the future means you're going to have to do more with less 
resources. That is bad business.
    I know this is outside the purview of the Commerce 
Committee, but the Commerce Committee is enterprise. It's about 
the business enterprise. That is bad business for our country.
    I guess I would only ask that those who say let's one off, 
let's keep the government shut down while we negotiate ad 
nauseam: Come tell that to Captain Colburn, come tell that to 
Marion Blakey's companies, come tell that to this 5,500-person 
company in Virginia that's going to get potentially in 
bankruptcy in 2 weeks.
    So I appreciate the restraint of the panel, but an awful 
lot of folks in my State and an awful lot of folks around the 
country aren't showing that restraint, and maybe a little more 
anger might be warranted at this point.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Warner.
    Senator Nelson.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Well, Senator Warner, in the case of some 
of the companies affected I don't appreciate the restraint of 
the companies, because the restraint of the companies is not 
putting the real life in front of the small group in the House 
of Representatives that is causing this shutdown.
    And let's go back and remember, this shutdown is not about 
deficits now. This shutdown was about defunding Obamacare. 
Let's remember how this thing started. We have seen in living 
technicolor here today examples all the way from transportation 
safety to consumer safety and down the list, and the Captain is 
losing catch not only by the passage of days, but by foreign 
predators coming in and taking his catch, as is the case of the 
loss of catches along the coast of the entire United States. 
Look at the science projects that are not getting done.
    Ms. Blakey, I agree with everything that you said. But when 
I have talked to your CEOs and have asked them have they gone 
and talked to the Members of Congress who are causing the 
shutdown, they haven't. Maria Cantwell's company can't deliver 
Boeings because of the shutdown.
    You represent a most eminent trade association, aerospace 
and defense. Ms. Blakey, have you gone and sat down to those 
members that are voting for this shutdown and explained what is 
happening in their districts?
    Ms. Blakey. The short answer is yes. And I would also point 
out not just myself as a trade association executive, but we've 
had small businesses up here. We in fact had a delegation who 
spent time with the leadership of both House and Senate and 
literally talking about the effects of this very, very 
recently.
    I can't, of course, account for every one of our CEOs' 
appointments up here on a daily basis, but I can also testify 
that they are spending a great deal of time making certain that 
people understand that there are both commercial effects--
something that we haven't touched on as much so far in the 
Committee discussion today, but there are competitiveness 
issues out here. We compete in a global economy in aerospace 
and the fact of the matter is that we will very quickly lose 
credibility, lose standing, lose market share. This is 
something that is absolutely critical.
    So, yes, we are up here pointing this out. I will also tell 
you, I'm looking forward to a 5 o'clock discussion over at the 
White House today, that the White House has called with us to 
continue to discuss all of this. So it's a vital dialogue and I 
couldn't agree with you more, Senator Nelson, that it has to be 
with everyone that has a role to play in this.
    Senator Nelson. You do not have to convince the White 
House. I'm glad the President has called you, and I assume that 
one of the things that the President will do is to try to 
enlist your support to get your executives of these companies--
and it's true the companies have--as a result of them, in this 
shutdown, so many of the people that are being hurt the worst 
are not the big companies, although their employees that are 
furloughed are certainly being hurt, but it's those ancillary 
small companies that live more day to day, paycheck to 
paycheck, payroll to payroll, that are getting hurt.
    I want to encourage you. I met with two of your CEOs last 
week and they were not ready to step up and go talk to the 
leadership in the House of Representatives that were allowing 
this shutdown to continue. When I said, well, do you think that 
default is going to have some consequence on your companies, 
they said: Oh, no, no, no; we'll get activated with regard to 
the default. Well, default is in another half a week. It's been 
a week and a half that we've been in shutdown.
    So I would implore you all to activate your people. Now, 
where--where are the people that are so affected at the Johnson 
Space Center in Houston? When are they going to the 
Congressional delegation and talking to them? I could go 
through the NASA centers. Everything that you've said I agree 
with, Ms. Blakey, but you need to put a fire under your 
executives.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Nelson.
    Senator Schatz.

                STATEMENT OF HON. BRIAN SCHATZ, 
                    U.S. SENATOR FROM HAWAII

    Senator Schatz. Thank you, Chairman.
    I want to thank all of the testifiers and just express our 
gratitude on behalf of the Committee for your public service. I 
know it's difficult to run an enterprise and it's certainly 
difficult to be in public service in any situation, but under 
the sequester we know it has been terribly difficult and this 
is just beyond the pale in a lot of ways. As difficult as it is 
for folks to be at home, it's very, very challenging for you to 
be there and not be able to bring your folks back. So we just 
want to thank you on behalf of the Committee.
    My first question is for Dr. Leshner. I'm concerned--and I 
think this may be one of the things that Mark Warner has been 
talking about over a number of weeks and actually years, that 
is remaining competitive with respect to the next generation of 
scientists. So I'd like you to offer us some insight with 
respect to the personal, economic, and professional 
decisionmaking that a young, promising scientist may be having 
to go through over the next couple of weeks and months with 
respect to literally what they do for a living and how that may 
impact our position with respect to science.
    Dr. Leshner. Well, Senator Warner made the point very well, 
that we are already in a position where we're losing our very 
eminence in science and therefore our ability to attract the 
best and brightest to join America's scientific community is 
getting harder and harder. So as our competitors in Europe and 
China, where they're investing more and more, the foreign 
scientists who came here to work and study are either staying 
where they are or going to other places. They're seeing the 
tremendous stress on the American scientific enterprise.
    Just a statistic to be horrifying. The average age for a 
first grant at the National Science Foundation now is 37. When 
I got my Ph.D. I was able to get my first grant at 25. That 
means that you can't start an independent scientific career in 
the United States for 12 years longer than I was able to do it.
    Those kinds of statistics are a direct result of the 
difficulty that people are having in getting grants. So if we 
want to build for the future, if we want to have a scientific 
enterprise that's the envy of all others in the world, we're 
going to have to address these kinds of problems directly.
    Senator Schatz. Thank you very much.
    Ms. Blakey, I have a question with respect to the airline 
certification function. Hawaiian Airlines is waiting on its 
certification so it can provide service to Molokai and Lanai, 
which is terribly unreliable and overly expensive service. It 
was delayed as a result of the sequester. I'd like for you to 
flesh out exactly how the certification function was disabled 
under the sequester and what kinds of impacts it's having, not 
just in Hawaii but on rural communities in general?
    Ms. Blakey. Well, one of the difficulties, of course, that 
the FAA is struggling with is the fact that their first 
responsibility is the operational safety of the existing fleet 
and maintaining that for passengers around the country. So 
there has had to be some tradeoff between new activities, 
desired new routing, and what is actually possible to do with 
the cutbacks under the sequester and of course now with the 
shutdown.
    Now with the shutdown, you're talking about, out of 1,200 
certification personnel, only 200 are functioning right now. 
Obviously, that doesn't go very far. I don't know the 
specifics----
    Senator Schatz. What was the backlog before? Under 
sequester, do you know what the backlog was before we got to 
this shutdown?
    Ms. Blakey. I don't, but it's significant. I can tell you 
that. I can certainly look into and see if I can be more 
helpful on the specifics on the Hawaiian example.
    But I can also tell you that there is another aspect of 
this having to do with the licensing and registry of aircraft, 
because you can't transfer an aircraft unless in fact you can 
register it and the registry is shut down now. So there was a 
36-day backlog before this began and that was with everybody 
pedaling very hard, working hard. Now there's no one even 
opening the mail.
    Every month 10,000 aircraft have to be registered or re-
registered. So you can start doing the math on this and see 
where it goes. It's a very, very, very concerning situation.
    Senator Schatz. Thank you very much.
    The Chairman. Thank you, Senator.
    Senator Begich.

                STATEMENT OF HON. MARK BEGICH, 
                    U.S. SENATOR FROM ALASKA

    Senator Begich. Mr. Chairman, thank you very much for 
putting this meeting together.
    Thanks to all of you for being here. You probably get the 
sense of a little frustration by all of us here. I know there 
are both Democrats and Republicans sitting at this table, and 
you're probably as frustrated as we are: Why are we even here?
    I mean, I know for you, Captain Keith, you don't want to be 
on solid ground. You want to be on wavy waters right now. This 
is unusual, for you to be on solid ground in October, and for 
you to be here is somewhat amazing.
    But I want to say one thing, Mr. Chairman, and I have some 
questions for some folks here. You know, we cannot recreate 
history here. I hear this word over and over again: we need to 
get on with negotiations on our budget. We did that. We did 
that starting in July on the Continuing Resolution. As a matter 
of fact, the Democrats had a number in the Senate and the 
Republicans in the House had a number, and when all done and 
said we agreed with their number, a $70 billion cut to this 
year's next budget. We agreed with it. We didn't get anything. 
We agreed with it.
    So I know there's sometimes revisionist history around this 
place and amnesia that sets in with some people. So when people 
say we need to negotiate, we have. Now they want another one. 
Fine, pick the issue. But we need to open the government up, 
for all the reasons the Captain laid out in his testimony.
    We had a meeting before he came over here and it's 
appalling to me to sit here and have to have you sitting here, 
because you should be back there fishing, taking care of your 
families. But you're here, stuck in a dysfunctional Congress.
    For people to say we can't get appropriation bills, I'm 
missing the picture here, or budget bill. Like you brought up, 
Senator Warner, the budget passed the Senate. The budget passed 
the House. Now, yes, there are going to be different numbers 
because that's the process. Then you go to conference 
committee, which we have tried 21 times to get an agreement to 
go to conference, 21 times.
    No one on our side has a problem with it. I'm happy to take 
whatever amendments they want to throw up and deal with them. 
But for whatever reason, we can't do it.
    So let's not have revisionist history in this body any 
more. I get it.
    Now, for all of you that are here, for the Captain my 
question is very simple. You talked about your impact, but your 
impact is broader on two parts. I enjoyed, Marion, your 
comments, too, because you and the Captain are very similar. If 
we fail to produce, market share goes to someone else. They're 
not waiting around. They're actually looking at us to fail 
around the world. Russia is looking. They would love to get all 
our crab business from Japan. They'd love it because it's worth 
hundreds of millions of dollars over time.
    So your impact, Captain, is not just you, but it's 
multifaceted; is that fair to say?
    Mr. Colburn. Absolutely that's fair to say. I'd like to 
start, though, by mentioning Mr. Wicker's statement earlier, 
and I want to thank both the House and the Senate for 
recognizing that my fishery is fee-based. Apparently maybe I'm 
making a difference by showing up here today. I'd like to thank 
Congressman Young and Senator Murkowski and also everybody 
that's sitting here for putting a band-aid on the fisheries. I 
really appreciate that.
    But it doesn't--are we going to get another band-aid for 
allocations? Are we going to get another band-aid down the road 
for the observer program? At some point you're going to run out 
of band-aids, and at some point you're going to need a 
tourniquet.
    I mean, I said in my statement to begin with I'm here on 
behalf of fishermen. I'm here for crabbers, but I'm here for 
fishermen. I'm here for our markets to be solid, for our 
economy to be good, for people to be able to buy my crab. I 
don't want Russian pirated crab to supplant my crab in the 
marketplace, not only in Japan but domestically.
    I mean, to me it's crazy right now. I feel like we're 
putting the Russians to work and we're putting American 
fishermen out of work.
    So thank you for the question, Senator Begich.
    Senator Begich. That's a very good summary.
    I bet, Marion, you could probably say something similar. 
You know, we compete around the world with our product in the 
aviation industry and we're very proud of our product. Because 
of the work you did prior to what you're doing here and what 
you're doing now, we have some of the best safety records 
anywhere. We understand the business.
    When it comes to Alaska, there's no other business other 
than fisheries that we care a lot about like, when you think 
about it, airlines, because it is our highway in the sky. It 
moves us from place to place. it ensures that when the Captain 
needs material he gets it out there, because it's going to come 
from barge or it's coming from plane. It's that simple.
    When you mentioned the satellite issue, there's not--you 
don't just get to throw up a satellite any time. There's a 
process. Actually, there's a thing called the orbit. You just 
don't today say, jeez, we're going to go down to Satellites-R-
Us and buy a satellite and throw it up in the air. It doesn't 
work that way. Is that a fair statement?
    Ms. Blakey. The commercial satellite industry certainly 
would echo exactly what you're saying.
    Senator Begich. So timing is everything. And uncertainty 
creates not just a few million dollars, but it can be in the 
hundreds of millions of dollars, as we found with some systems, 
as you know, in the last go-around they didn't fund and we had 
to figure out how to fund it. And there was hundreds of 
millions of dollars cost because you just can't build these 
things overnight. They take a certain amount of time to launch 
and meet the right orbit and so forth.
    The last thing I'll just say--and I'll include some stuff 
for the record--it is very frustrating because it seems to the 
American people and Alaskans this is not complicated; just sit 
down and get on with the business. I think all of you would say 
that privately or, as we've all said, we wish you were more 
outraged. I know you are. You're doing very well here and I 
appreciate that. But it seems like this would be a simple thing 
for us to do.
    Are we going to have differences? Sure, absolutely. But at 
the end of the day we've got to solve these problems and not do 
it on 3-week or 6-week intervals, because it doesn't--like 
you've just said, Captain, there are only so many band-aids in 
the box and at some point we're going to put a tourniquet on, 
and it may not be worth--we may not be able to survive after 
that. So your comment is actually very clear. Hopefully more 
people hear it.
    But I thank you for being here. It's frustrating to have 
this meeting, but I thank you all for being here and giving 
your pitch on what's important about this. But we need your 
help and we need your voice, and you're doing that, so thank 
you.
    The Chairman. Thank you, Senator Begich.
    Senator Heinrich, to be followed by Senator Cantwell.

              STATEMENT OF HON. MARTIN HEINRICH, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Heinrich. Thank you, Chairman.
    I want to thank Senator Begich for the segue to the issue 
of putting satellites into orbit. We do a lot of work in New 
Mexico for the rest of the country. But even our private sector 
entities oftentimes work hand in glove with the public sector, 
with the Department of Energy, with the Department of Defense.
    We literally at Spaceport America in New Mexico just had a 
launch canceled. That's a window that we have now missed. If 
you take a moment and look at what this shutdown means for my 
state--and I know Dr. Leshner's intimately aware of this 
because of how much science work we do. But we have 32,000 
Federal workers out of 2 million residents. Those are just the 
Federal workers that are directly Federal workers. We have 
thousands more at Sandia National Laboratories as contractors. 
We have thousands more at Los Alamos National Laboratories as 
contractors. We have 2,000 subcontractors at Los Alamos.
    One retailer said in the paper recently in Los Alamos: 
anytime the lab sneezes, we catch a cold. That's true in 
Albuquerque for Sandia National Labs. And that doesn't even 
begin to touch on the fact that we have Kirtland Air Force 
Base, Hollomon Air Force Base, Cannon Air Force Base, White 
Sands Missile Range, NASA, Carlsbad Caverns National Park, 
dozens of parks and monuments, five national forests that are 
unstaffed in the middle of hunting season, millions upon 
millions of Bureau of Land Management acres that currently 
can't process energy leases, also unstaffed in the middle of 
hunting season.
    So Mr. Chair, I would ask unanimous consent to include an 
article I have called ``New Mexico Amid Shutdown: Economist 
Warns of Another Recession,'' and just to make the point that I 
think Dr. Leshner brought up, that our labs are about to shut 
down. And if they do shut down, even if the rest of the country 
doesn't slip into a recession, every day that those labs are 
closed we get closer to recession in the State of New Mexico.
    The Chairman. It will be included.
    [The information referred to follows:]

      The New Mexican Posted: Wednesday, October 2, 2013 10:00 pm

     New Mexico amid shutdown: Economist warns of another recession

                            By Bruce Krasnow

    A prolonged Federal Government shutdown could have perilous 
consequences for New Mexico's fragile economy, rippling across multiple 
industries in a state that relies more than most on Federal spending. 
At least one economist warns the budget impasse could thrust the state 
into another recession if it continues past next week.
    New Mexico has more than 32,000 Federal workers. And because it's a 
small state, that number represents 3 percent of the labor force, which 
is higher than the national average. Likewise, military workers make up 
1 percent of the state's workforce, a percentage twice the national 
average, said Christopher Erickson, associate professor of economics at 
New Mexico State University.
    ``This furlough is none to good for our local economy,'' Erickson 
said Wednesday, the second day of an impasse between President Barack 
Obama and the Republican-controlled House over a new fiscal vear 
spending plan.
    Look at a map of New Mexico, and it's easy to see the government's 
footprint: from Los Alamos and Sandia national labs to three national 
forests and 11 national parks and monuments; from Navajo Nation lands 
and 19 individual Indian pueblos to the military installations of 
Holloman, Kirkland, Clovis, White Sands and Cannon.
    Even private enterprises such as New Mexico's Spaceport America are 
often tied to Federal Government operations. The spaceport on Wednesday 
canceled its planned 1aunch next week of a private rocket. Journalists 
who were hoping to watch, as well as payload experts from as far away 
as Spain, have canceled travel plans to attend the event.
    ``We had 40 people coming for that launch, and those people now 
won't be coming,'' said Christine Anderson, director of Spaceport 
America near Truth or Consequences.
    Erickson said New Mexico already lags the rest of the U.S. in terms 
of growth, and a long pause in government spending and employment would 
have a severe impact.
    If the shutdown is relatively short, furloughed workers might not 
go to the grocery store for a few days but will eventually shop and buy 
groceries, Erickson said.
    ``But if it goes on for a longer period of time,'' he said, ``and 
they [workers] have to start dipping into savings and do not have the 
cash to pay for things, if the shutdown lasts more than two weeks, it 
might tip New Mexico back into a recession.''
    Andy Fox, general manager of CB Fox department store, 1735 Central 
Ave. in Los Alamos, said business owners in the community are holding 
their breath, hoping Los Alamos National Laboratory can continue to 
stay open and that employees and subcontractors will be paid.
    ``Anytime the lab sneezes, we catch cold,'' Fox said.
    His business also is tied to attractions such as Bandelier National 
Monument, which draws day trippers from around the state, especially 
during events such as this month's Albuquerque International Balloon 
Fiesta. Organizers expect some 700,000 people at Balloon Fiesta Park 
between Saturday and Oct. 13, and the event has an economic impact of 
$90 million statewide. ``So here we are on Balloon Fiesta weekend,'' 
Fox said, ``and we usually get a fair number of customers . . . Being 
that Bandelier is closed, we expect traffic to be down.''
    Fox said the store doesn't just sell furniture but is a full-
service department store-with visitors buying everything from candy and 
outdoor supplies to souvenirs and Los Alamos memorabilia. It has been 
in his family since 1979, and ``the last time they shut down, it was 
real quiet in the store,'' he said, referring to the 1995 government 
shutdown that lasted 22 days.
    Already there are concerns that LANL, managed with Federal 
Government money by a private consortium, will have to start some 
shutdown activities next week, much like it does during the winter 
holidays-with security personnel and essential staffers working, and 
others being sent home. LANL Director Charlie McMillan said last week 
that there were some carryover funds from the 2013 Fiscal Year that 
ended Sept. 30, but those dollars can only go so far.
    Initially, McMillan and others said they had about a week of so-
called carry-over funds to pay the 7,000 regular employees. The 
Department of Energy media office could not confirm where the reserves 
stand for LANL, but issued a statement: ``If a resolution is not 
achieved in the near term, the Department will be forced to take 
further action to shutdown nonessential operations, resulting in 
employee and contractor furloughs.''
    Some subcontractors doing nonessential environmental cleanup work 
in and around LANL were placed on standby Wednesday and told not to 
continue on the projects, The New Mexican has learned. That work 
affected about 70 employees, one source said. LANL has some 2,000 
subcontractors.
    If the shutdown is short, those workers will not miss a payday and 
other Federal furloughed employees can be made whole, but all that is 
up to Congress, Erickson said.
    When asked about LANL cleanup efforts, the New Mexico Environment 
Department said it has been in close contact with LANL leaders 
regarding operations. The Environment Department has serious concerns 
regarding potential disruptions of operations if the Federal shutdown 
continues beyond just a few days,'' spokesman Jim Winchester said in a 
statement. The state ``strongly believes the Federal shutdown is 
unacceptable'' and hopes for ``a quick resolution for the sake of the 
continued clean-up and protection of New Mexico's precious resources.''
    In addition to Federal workers, there are some 1,800 state workers 
who are paid with Federal grant money spread among agencies such as the 
Public Education and Human Services departments, as well as State 
Forestry and public health. Often, those positions are reimbursed after 
specific work is completed and the state has enough reserve money to 
cover the payrolls in the near term, said Tim Korte, public information 
officer for the Department of Finance and Administration.
    ``As far as a wider impact for the state with regards to spending 
and revenue, economists are watching and hoping like everyone else,'' 
Korte said in a statement. 'While there has been no sophisticated 
state-level study so far looking at potential impacts, obviously we are 
concerned because of the Federal Government's significant influence in 
New Mexico. The longer the impasse lasts,'' he said, ''the greater the 
effect on the national and state economies.''
    The spaceportt America launch is a good example. The UP Aerospace 
rocket required coo er ation from government workers , such as the FAA 
to clear the airspace as well as NASA and White ands Missile Range 
workers to oversee the Oct. 9 launch. There was no choice but to delay 
it Wednesday, so that participants could still change travel plans.
    Anderson said the launch will go forward when the shutdown gets 
resolved. 'We'll just hang in there until they reschedule,'' Anderson 
said. ``It will happen. It wasn't scrubbed, it just won't happen on 
that date.''

    Senator Heinrich. I was surprised to hear from our 
colleague that the shutdown is about the debt. Certainly if we 
can't get the debt ceiling increased, who knows what's going to 
happen to our interest rates? I can guarantee you the only 
outcome of that will be that we have more debt and higher 
deficits because of that kind of irresponsible behavior.
    But as our colleague from Florida brought up, last week it 
was about Obamacare. It would be easier to negotiate an outcome 
here if we knew what we were negotiating about. I think we've 
got to realize how much damage we are doing to ourselves.
    I would just--I have one question. It'll be for Dr. 
Leshner. I would ask him to step back in time to when he was 25 
when he first got that grant and just give us a sense, for 
somebody who is getting their Ph.D. for the first time, they've 
spent years invested at a university, who's looking out at the 
rest of their professional career. What kind of a message are 
we sending to scientists in universities across this country 
today about whether or not to go to work at the National Radio 
Observatory, whether or not to go to work at the Department of 
Energy labs, at NNSA, at National Institutes of Health, or at 
NASA?
    Dr. Leshner. You know, science is a continuous incremental 
process that has to go on in a continuous way over time. For a 
young person to think that their career will be stop, start, 
stop, start will make it extremely difficult to see real 
accomplishment over time, because science has to be continuous. 
We have to be continually working on whatever the problem is or 
we lose it. And we certainly--someone made the point--are at 
risk of losing it to our competitors.
    Science has gotten more and more global. It's going on all 
over the world. We collaborate all over the world. But we also 
at the same time have national interests, and we have to 
maintain that national standing as well.
    Senator Heinrich. If you're simply somebody who right now 
can't acquire data on long-term research because of the 
shutdown, that little piece of this, what impact is that going 
to have on our science over the next--over the coming years?
    Dr. Leshner. It comes in two ways. One is so there's an 
interruption and there's a delay. On the other hand, many of 
those time series studies that have been done are totally 
dependent on continuity. So if you have a break, you might as 
well not have done the earlier part because it's only going to 
tell you the result as a function of being a continuous 
process.
    So although a stall looks like a hiatus, it isn't really a 
hiatus. Frequently it means, OK, throw away everything you did 
before because you won't have that continuous series of 
measurements.
    Senator Heinrich. Mr. Chairman, thank you for holding this 
hearing.
    The Chairman. Thank you, Senator Heinrich.
    Senator Cantwell, to be followed by Senator Blumenthal.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman. I really wish 
that our colleagues on the other side of the dais here would be 
here. I know Senator Wicker was here and you explained about 
Senator Thune, but these really are important issues on the 
impact that this shutdown is having on the American people. And 
we're hearing in detail about how it's affecting business.
    For a minute I thought I was the only one who woke up this 
morning with extra angst about this situation. Now, hearing my 
colleagues on both sides of me, I realize that it's permeating. 
Because why? Because we're getting real stories fed back to us 
by constituents and those constituents are suffering greatly, 
all because we won't open the government.
    I'm almost overwhelmed, Mr. Chairman, on where to go with 
my questioning because I have so many questions. I could ask 
Ms. Blakey about aviation and this registry issue she talked 
about, which means planes can't get delivered, which means 
customers can't get planes, which means jobs are going to be 
delayed; the information I have about the FAA and the fact that 
the radar system needs to be maintained; if the radar system 
isn't maintained over time, it has problems and complications; 
our own situation with the weather buoys. The weather buoys 
that we have in the Northwest are critical, vital information 
for us about weather that impacts fisheries.
    I guess, Captain, you could say, well, we don't have to 
worry about it because we're shut down. But when they are 
fishing it's vital information. But instead of the buoys 
working and giving information, last weekend we had forecast 
between the Seattle area and Vancouver Island and we had no 
idea what was going to happen. When you're talking about 60 or 
70-mile-an-hour winds and you're talking about weather 
forecasts, as you can see in this picture, for those of us who 
are, my colleague from Alaska, familiar with the Pacific 
Northwest, not understanding whether the storm is going to hit 
in Seattle and what needs to be done or whether the storm's 
going to hit in British Columbia--that's where we were last 
week. We didn't have the information because there weren't 
people on the job.
    So I look at this situation, and I know my colleague from 
Mississippi thinks you can just read a few letters and you can 
say that you can call an agency. Well, I can tell you, I've 
already called about getting these fisheries open and people 
have made decisions based on the law and the interpretation of 
the law.
    Now, we can disagree with it. I can disagree with it. My 
colleague here can disagree with it. We can all disagree with 
the logic of what lawyers have advised. But the bottom line is 
that's what they have said in a shutdown happens. So that 
fishery, as you're saying, the crab fishery, is closed.
    So I look--you know what? I just happened to--you've been 
here, Captain Colburn, a few years ago and I said: Boy, there 
are so many people on my office team that love you and love 
that show. Would you sign----
    Mr. Colburn. They don't work for me, though.
    [Laughter.]
    Senator Cantwell. No. Well, that's my point, actually. That 
is exactly my point, because you know what? When I'm sitting 
here listening to my colleague from Mississippi tell me that it 
was all about an amendment, that somebody didn't get an 
amendment, and I started thinking about that picture, this 
picture of your vessel tossing around in the ocean. If you 
could see this close-up, you can see the ice all over the 
vessel. You can see the difficulty that this vessel has to 
operate under. And you have to come back here just to go and do 
this job and hear somebody talk about how they didn't get an 
amendment and that's why the government is shut down.
    It's unbelievable to me that we're sitting here and that 
you have to come and do this instead of being able to do the 
job that is already dangerous and treacherous to begin with. 
And now you have to show up in Washington, D.C., which I think 
speaks a lot about who you are as a person, because you are for 
doing the dangerous task and you're coming back here and 
telling us to get our act together.
    Now, I want to ask you about this issue because I think 
some people again are under the false impression that, oh, it 
won't matter, and that at some point in time you can just go 
catch these fish, like it won't matter and that if there is 
some piracy in between now and when the fisheries open that 
somehow they'll be caught. When you mentioned in your testimony 
this $500 million being lost since 2000, we're talking about an 
operating Coast Guard. We're talking about people who were 
helping you. Now, with the difficulty of the shutdown, this 
impact of piracy and this impact that we're going to roll into 
loss of business is really going to hurt the fishery if it is 
not fixed in the next 48 hours, 72 at best. Is that not 
correct?
    Mr. Colburn. We are--even if they do have the creative fix, 
I think, because it's a fee-based program, and get back on 
track here, we will still be delayed by at least 3 to 4 days on 
our normal start date. So that is already a given. That's the 
what-if. I mean, we don't know for sure that you're going to be 
able to do that.
    But I'll be honest. I would much rather be up in Alaska 
right now. And everybody knows and they've probably seen that 
what I do is really a dangerous job. It can be, at times it can 
be kind of scary. But I'll be honest. I'm a lot more nervous 
and scared sitting in this room talking in front of you on this 
microphone than I ever am when I'm out there in 30-foot seas.
    But it's even more terrifying when I start hearing about 
weather systems and weather forecasts getting shut down. A lot 
of things that impact us out on the ocean, but also that's 
going to impact people land-based. I mean, the Senator from 
North Dakota with the blizzard that just hit him recently, 
where did that blizzard go after that?
    So ultimately I'm concerned about the possibility that is 
very real, that we're going to lose our market share to 
Russian-caught crab. They're not going to catch our crab. Our 
crab is protected, at least right now. Now, if the Coast Guard 
starts losing more funding, well, there's going to be nobody 
out there to patrol the dateline.
    Senator Cantwell. They've been cut back 35 percent and they 
have a very complex set of missions. If there's any 
organization in the Federal Government that has been asked to 
do many, many things with minimal resources, it's the Coast 
Guard. So now they're being diminished another 35 percent. So I 
think it will be challenging for them, if we don't get this 
government open, to continue to focus on the piracy.
    Mr. Colburn. Thank you.
    Senator Cantwell. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Cantwell.
    Senator Blumenthal, and then of course we'll give all the 
time he wants to Senator Thune, and Senator Klobuchar.

             STATEMENT OF HON. RICHARD BLUMENTHAL, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Thank you, Mr. Chairman. I want to join 
in thanking the Chairman for having this hearing, as well as 
the staff of the Committee for doing such a great job putting 
together a hearing on such short notice on a problem that I 
think is obviously vital for us to address.
    I was listening to one of the shows today as I was buying a 
cup of coffee, so I caught it out of the corner of my ear and 
heard about one of the polls that shows that the American 
people actually have risen in their opinion, favorable opinion 
of what the government does, not necessarily of the Congress, 
which I think understandably has diminished in popularity, but 
a greater appreciation for what the U.S. Government does and 
what people who work in the government do, which of course is 
understandable because they are seeing the effects of not 
having those folks working for them and doing their job and all 
of the stuff they take for granted.
    Of course, we take for granted that when people go into a 
fast food restaurant there will be some oversight investigation 
of diseases, food-borne diseases that they may find there, and 
those food-borne diseases don't go on furlough. They take for 
granted that someone's going to investigate and prosecute the 
fraudsters and the con artists who victimize them, and of 
course they don't put any of their employees or themselves on 
furlough. Or the unsafe toys or devices, or the other kinds of 
things that may be in their home, like a chest of drawers. Ms. 
Weintraub mentioned that. And those safety issues are not put 
on hiatus or furlough.
    So I think there is something very important happening that 
may be longer lasting, I hope is, among the American public, 
that is a greater appreciation that these enforcement and other 
kinds of activities that are undertaken by the government, and 
the American public, taxpayers, pay for them, so they should 
understand and appreciate what is done for them.
    I want to appreciate, I want to express my appreciation, to 
Captain Colburn for traveling the 4,000 miles and making us 
aware of one aspect of these effects.
    But the other point is that I also heard on this same show 
one of the folks saying: Well, you know, Congress doesn't 
understand the effects on real people. Of course we do. We're 
hearing it now, but we've also been hearing it literally day 
after day, hour after hour, from our constituents. We are 
listening to them, and it is really a small, very fractional, 
fringe group that ideologically is in complete contradiction to 
the appreciation the American people have for what government 
does. They are nihilists and anarchists. They want to shut down 
government. That's been part of their agenda. Fortunately, I 
think they have been shown to be wrong in their opinion that 
government is worthless, that it does no good.
    I want to thank each of you for coming here today and 
expressing to us very pointedly and persuasively the harm and 
hardship that has been done to the sectors of the economy that 
you represent and the segments of people.
    Ms. Weintraub, maybe you can elaborate a little bit on the 
specific examples that you've given about individuals, 
consumers particularly, who are injured as a result of this 
shutdown?
    Ms. Weintraub. Sure, and there are many that I can't 
discuss because I don't know about them because the CPSC hasn't 
been able to do their work.
    There were two incidents that I highlighted having to do 
with product safety and children. The first was the incident of 
the 2-year-old girl in San Diego, California, who after she 
took a bath she went to get clothes out of a chest of drawers. 
Her family heard a loud crash in their home, and a tragic 
accident occurred that we've been seeing more and more of.
    Senator Blumenthal. She was crushed to death.
    Ms. Weintraub. Her skull was crushed to death by a large 
television that was on top of the chest of drawers.
    Senator Blumenthal. And the agency that's responsible for 
overseeing the safety of those kind of devices or equipment 
that hurt children is the Consumer Product Safety Commission, 
which is known colloquially as the CSPC.
    Ms. Weintraub. CPSC, yes.
    Senator Blumenthal. CPSC, that is one of this alphabet soup 
of agencies that generally is underappreciated or unappreciated 
by the American public. I just want to say thank you for being 
here, thank you for making that point. I know it's in your 
testimony.
    My time has expired. Thank you, Mr. Chairman, and thank you 
all for being here.
    The Chairman. Thank you, Senator Blumenthal.
    Senator Thune has been kind enough to say that Senator 
Klobuchar should go next.

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you. He's my neighbor to the West.
    Thank you very much, Mr. Chairman, and thank you for 
holding this hearing, and thank you. I've worked with nearly 
all of you, except I haven't been out on your fishing boat. So 
thank you for your work.
    I just had a hearing this morning with Congressman Brady. 
We both chair the Senate and House sides of the Joint Economic 
Committee. One of the witnesses, Mark Zandi, who was an 
economic adviser to Senator McCain in his campaign, testified 
about how already just with the shutdown we've seen about a .5 
percent decrease in domestic product growth, and that he 
predicts if it goes on for just even a few more weeks it will 
be 1.5 percent, 1.5 percent decrease in growth.
    When we think about that, I think people automatically 
think about the furloughed workers and they're not spending 
money and things like that, but that is really the icing on the 
cake. What is really the guts of it from what I have seen is 
all of the businesses that are being affected by this and the 
slowdowns.
    I guess I would just--in this week alone, I've had 
emergency calls from an aircraft manufacturer, Cirrus in 
northern Minnesota, a very important employer in Duluth, 
Minnesota. They are 60 percent exports. They can't ship their 
planes. They're all at Commerce where they have to go through 
this registry department and Commerce I think over 80 percent 
of the--I'm sorry, in the Transportation Department, Ms. 
Blakey--over 80 percent of those employees are laid off.
    Mining companies--these are routine permits, not 
complicated ones--have not been able to get their permits. 
Companies aren't being able to get approvals for cosmetics and 
other things.
    I love the analogy, because that's what I've been thinking 
about all week, is that this business isn't static. Other 
competitors all over the world, just like for your crab, are 
ready to come in and take over the market, and people have to 
start thinking of this even beyond the furloughed employees 
when it's slowing down American business, just at a time when 
we're picking up. My state, 5.1 percent unemployment because 
we've been able to pick up the economy.
    I guess I'd start on the jet issue. These are planes they 
make for people in countries all over the world. Ms. Blakey, as 
a former Administrator for the FAA I know you're aware of the 
FAA registry office that allows companies to make final sales 
and deliveries of aircraft. Secretary Foxx has been trying to 
work on this, but just because of the rules and the law, as was 
discussed earlier, he's unable to open that office. Can you 
discuss the vital role this office plays with commerce across 
the country?
    Ms. Blakey. Absolutely. In fact, I can tell you I'm very 
pleased to have signed a letter yesterday to Secretary Foxx 
along with a number of other heads of aviation associations, 
about how vital it is to get the registry back open, because 
there is a growing backlog of aircraft that not only are ready 
for sale, ready for transfer, but at the same time they have 
got time-limited funding. The financing for aircraft is usually 
in place only for a short period of time.
    Senator Klobuchar. Right, because they're so expensive.
    Ms. Blakey. Well, they do cost a bit. And with that in 
mind, you don't get long-term loans. So then if you time out on 
your financing you're back at the beginning of things and maybe 
you don't have a deal at all.
    So there is a tremendous amount at stake on this. It is new 
aircraft. I also would remind you that the Congress after 9/11 
required that everyone that owns aircraft every three years re-
register. So you've got a lot of people who have to--to 
continue to fly must register their airplanes. Those are 
backing up as well.
    So it is a very serious problem and one that needs to be 
addressed.
    Senator Klobuchar. Thank you very much. Secretary Foxx has 
been great about talking to the companies and trying to work on 
this. But until we open the government, not on a piecemeal 
basis because I don't think they're even on the lists of the 
various bills that have come through--we have to do this in 
total.
    Chairwoman Hersman, I'm well aware of the work that the 
National Transportation Safety Board does after our bridge 
collapse, I-35W bridge in the middle of a river on a summer 
day. How many ongoing investigations or reports on accidents 
have been curtailed or delayed? I was just thinking, in that 
bridge collapse, to think if there had been a shutdown, so at 
least we couldn't have tried to figure out what happened so we 
could prevent it from happening on other bridges, ending in, by 
the way, us closing down some other bridges in Minnesota so we 
could fix them. I can't even imagine the effect of that.
    Ms. Hersman. We complete about 1,500 investigations every 
year. So it's safe to say that well over 1,000 have been halted 
in their tracks. There is very little that we can do to keep 
those moving and we really have to establish a very high bar to 
bring our people back to work. We've only been able to do that 
on five occasions in the last ten days for five different 
events. The rest we've had to let go, and I think in many cases 
we've heard about the delays. I think safety delayed is safety 
denied. If we don't fund these issues, we can't address them.
    Senator Klobuchar. A last question quickly, Ms. Weintraub. 
I'll put some questions in the record about some of the very 
important consumer issues that you worked on and I've worked 
on. This is the tenth anniversary of the Do Not Call Registry 
opened by the FCC and the FTC. However, the registry is 
currently not operating and fraud prevention and protection 
programs are not running during the shutdown.
    We already know there have been some issues. There was a 
hearing on this, on the Do Not Call Registry and improvements 
that need to be made. But I can't even imagine what people will 
think, as they call us all the time when they are bugged by 
these calls.
    So what's the status of that?
    Ms. Weintraub. It is still non-functioning. The FTC's 
website is actually entirely offline. You go to it, there's a 
page that says ``This website is closed.'' There's critical 
information on that website. I use an example: If you are the 
victim of identity theft and you want to find out what to do, 
and maybe your State consumer protection agency sent you to the 
FTC to find out what you should do in this circumstance, how do 
you try to minimize the damage, there's no information 
available there.
    Many different call centers that the FTC administers and 
other hot lines that are critical to obtaining information from 
consumers that could help consumers, there are currently no 
people working there. So those systems are shut down.
    Senator Klobuchar. Well, thank you. Well, I'm hoping these 
negotiations and all the time over at the White House the last 
few days will produce something. But I think we all know the 
simplest is the Senate bill simply opens the government, and 
that passed the Senate and we could move on from there. So I 
appreciate it. Thank you.
    The Chairman. Thank you, Senator Klobuchar.
    Senator Ranking Member Thune.

                 STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Thune. Thank you, Mr. Chairman.
    Thank all of you for being with us today. We are on--I 
guess we're in the middle of what really is, should be, an 
avoidable partial government shutdown that nobody wants, but 
nobody seems willing or able to end. So let's hope that changes 
quickly. I'm encouraged by some of the discussions that are 
happening here in the last day or so.
    But my state of South Dakota, like every state in the 
country, has felt some of the effects of this. I think that we 
can't ignore the both immediate and the longer term impacts of 
having the government shut down, but we also can't ignore the 
problems that precipitated the current crisis.
    One of the reasons we are where we are today is because 
around here we too often play the short game and not the long 
game. We end up at the eleventh hour grasping to find a 
solution to try and solve a problem, and everybody's weighing 
the political impact of how this, who is going to benefit, who 
is going to lose. And we really ought to be doing the work 
earlier in the year and thinking on a more long-term basis.
    We didn't do appropriations bills this year. We haven't 
been doing appropriations bills like we normally should. It 
seems to me at least that as we think about the fact that we've 
got a $17 trillion debt we shouldn't get up to where we're 
doing--where we've got a debt ceiling crisis to talk about that 
and to figure out what we can be doing to play the long game 
around here and to do things that are really in the country's 
long-term interests.
    So we're always dealing from crisis to crisis around here 
and I think that's an unfortunate way to govern. I know it's 
the nature of the beast sometimes in this city and certainly 
with the Congress in the time that I've been here, both as a 
staffer and as a member. But I think we can do much better, and 
if we did follow regular order, do the budget, do the 
appropriation bills the way they're supposed to be done, we 
wouldn't find ourselves in this situation.
    I just wanted to make one observation. I know there has 
been a lot of--a lot of my colleagues today here have 
criticized the targeted bills that have been passed by the 
House of Representatives and I know that approach isn't ideal, 
but it's not all that undifferent from the process we follow 
when the appropriations process is working and discrete bills 
are taken up on the floor.
    So when we consider areas that have been discussed today, I 
think it's worth noting that measures passed by the House would 
fund the food safety mission that the FDA cited in Ms. 
Weintraub's testimony, the research at NIH cited in Dr. 
Leshner's testimony, and the FAA's function cited in Ms. 
Blakey's testimony, as well as many other areas outside the 
scope of this hearing.
    So while all of us want the government to reopen, I would 
hope we could acknowledge that there are things that the Senate 
could do today to mitigate some of the impacts of the shutdown, 
as we've already done for the military. That was something that 
everybody kind of found consensus around.
    So even though it may not be the ideal way to do things, I 
think it's important to point out that there is a CR. It's in 
the House. There's nothing we can do in the Senate about that 
until the House takes it up and acts on it. But the House has 
sent us numerous bills now that fund various portions of the 
government.
    So I guess my question for all of you is, are those bills 
that have come over here from the House that are funding bills, 
would they fund the various functions of government and things 
that you've mentioned here today that are important services 
that the government provides?
    [Pause.]
    Senator Thune. Don't all jump at once to answer that 
question.
    Dr. Leshner. No.
    Senator Thune. Did I get you correctly?
    Dr. Leshner. Yes.
    Senator Thune. You're saying the bills sent by the House 
would not fund those portions of the government?
    Dr. Leshner. It depends on the bill, but----
    Senator Thune. NIH?
    Dr. Leshner. The NIH was, if I remember correctly, was the 
clinical center. It wasn't the entire agency. Is that correct?
    Senator Thune. FDA?
    Ms. Weintraub. I would argue that the piecemeal approach 
does not adequately protect consumers. In order for consumers 
to be protected in terms of the transparency and the fairness 
in the marketplace, their food, their safety, the air they 
breathe, the products they use, the cars they drive, the 
government needs to be fully funded.
    Senator Thune. OK. But I'm just saying, the programs that 
the FDA funds, would they or would they not be funded by 
legislation that's been sent to the Senate from the House?
    Ms. Weintraub. I believe parts of it would be.
    Senator Thune. I don't think that's true. I think all of it 
would be. I think the bills that have come over here have been 
funding bills that fund at last year's level the functions and 
services provided by many of the agencies that you have 
mentioned here today.
    Ms. Weintraub. But our system of food safety is actually 
ensured by three agencies: The FTC, the CDC, as well as the 
USDA. On many issues it's not just one agency that works on it, 
but there are agencies that work together collectively and 
share information and build on the work of one another.
    Senator Thune. All right. Well, I will acknowledge that you 
all want to see the full process work. I think we all do. But I 
think we have to acknowledge that there are--when you come up 
here and talk about funding deficiencies for specific agencies 
and programs, there are bills that have come over here that 
would fund many of those agencies and many of those programs 
and many of those services. I don't think you can deny that. 
FEMA, National Guard and Reserve, you can go right down the 
list.
    So anyway, obviously that's not a question anybody on the 
panel wants to answer. I do want to ask one specific question. 
It has to do with the FAA registry issue that, Ms. Blakey, you 
responded to earlier. There was a letter that was signed by 
several of our colleagues and a couple on this committee, Mr. 
Chairman, from both sides of the aisle, basically suggesting 
that many of those employees in the last time we went through 
this in the shutdown were declared excepted employees because 
of the important role they play when it comes to public safety 
and the important role they play when it comes to national 
security issues.
    So I'm wondering maybe if as we think about this issue--and 
I think the letter that was sent points out that the last time 
this was done differently and that it really does bear heavily 
on issues of public safety, national security, other important 
impacts, including economic impacts that were already mentioned 
today. But could you elaborate on some of the challenges and 
some of those economic impacts related to the registry office 
being closed?
    Ms. Blakey. I'd be happy to because I think that we are 
definitely of like mind, that the registry needs to reopen. I 
would point out one thing that actually took some digging to 
determine, because the issue of it wasn't closed back in 1995-
1996, or 1996-1997, whatever the nature of it was this time. 
The FAA had actually had an appropriations bill passed, so it 
was not covered during that shutdown, and that is an important 
big difference because there were a number of appropriations 
bills that actually Congress had passed at that point.
    That said, the issue that you're raising is a very 
legitimate one in terms of the importance today. We just signed 
a letter, a number of us, in fact to Secretary Fox asking that 
he reexamine the classification or the characterization of the 
registry as employees that should be seen as excepted, because 
as you look at the cumulative effect, the first day, second 
day, it might be harder to argue that there was immediate 
safety ramifications, but as this builds up we believe very 
strongly that not only do you have genuine safety concerns of 
not being able to transfer these aircraft, many of them new, 
but some of them are older ones, at the same time you have big 
economic impact, the lack of funding that is going to be there, 
financing is expiring. You have 10,000 a month that you really 
do need to provide the registrations for.
    Then there are security issues, of the Congress requiring 
that these planes, all of them, not just new, but everyone re-
register their plane every 3 years so that we would know who is 
up there, where is the ownership of these. It's an important 
issue from the homeland security standpoint.
    So there are a number of ramifications of this that really 
do argue strongly for opening the registry and trying to then 
deal with what now is a big backlog of aircraft that need the 
registry. So again we'd like very much to see this happen and 
we believe it would be possible to reexamine that in light of 
the growing problems that are there as the shutdown continues. 
There also were problems because the sequester had already cut 
back the staff there, and they had a 36-day backlog before this 
even began.
    So again, anything that you can see your way clear to doing 
on that front I think the aviation community would very much 
appreciate.
    Senator Thune. Well, hopefully we won't be in this position 
much longer. But if we are, I hope they'll follow your advice 
and the advice of some of our colleagues here and declare those 
people to be excepted, because I do think they have important 
missions that they perform in so many respects that are 
important to us.
    So thank you.
    Mr. Chairman, thank you.
    The Chairman. Thank you, Ranking Member Thune, very much. 
Again, I really did sort of bestow upon you a sub-papal 
blessing for being here. I know you're in the leadership and 
that you have to be here in terms of votes, but half your 
economy being wiped out is something most people don't 
experience as a broad body of a State.
    Senator Markey.

               STATEMENT OF HON. EDWARD MARKEY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Markey. Thank you, Mr. Chairman, very much.
    This is a very important hearing. It kind of really makes 
it pretty clear what's going on. So what is happening is that 
the tea party controls the House of Representatives and they 
don't like the government. So they want to shut it down. Then 
as people start to complain, they say: Well, we'll start to 
pass bills over here piece by piece to reassemble the 
government as people identify how that part of the government 
helps the American people.
    So so far they've already passed eight or nine separate 
bills and sent them over to the Senate. They say: oh, the 
people like the National Institutes of Health. Oh, the people 
like national parks. Oh, people want to make sure that women 
and infants are taken care of. People want FEMA to be funded.
    So piece by piece, they keep sending over bills. So this 
reminds me of a story of a little boy in Russia, and he hated 
kreplach, just hated kreplach. His mother one night, she 
decided: I'm going to show him why he should like kreplach. So 
she takes out the dough and she starts to make the dough, and 
she says: Just like a pancake. And the boy smiles: Yes, just 
like a pancake; I like that.
    Then she took out the meat and she chopped up the meat and 
said: You like meat? Oh, yes. Yes, I love meat. She put that 
in.
    Then she baked it up, put it in the soup. She said: You 
like soup. I like soup.
    Then she put the kreplach in the middle of it, and the boy 
said: Ay, kreplach. I hate kreplach, I hate it.
    So what's happening with the Tea Party Republicans is they 
keep going: The government, the government, I hate it. And now 
piece by piece, like the kreplach, we're showing them what the 
government does. You like the NIH. Oh, I like the NIH. You like 
national parks. Oh, I like national parks. And piece by piece, 
as we head toward Christmas, we'll have the whole government 
reestablished after it had been shut down for 3 months. And 
once it's put together, the Republican Tea Party House members 
will go: Ay, kreplach; I hate kreplach, I hate the government.
    So what do we say to people, though, where the Consumer 
Product Safety Commission has furloughed 96 percent of its 
employees right before Christmas? No one is inspecting toys 
being imported from China that may contain dangerous levels of 
lead or other life-threatening defects. No one is posting 
reports to the online consumer product database that I worked 
to create with this chairman, to ensure that the news of 
deaths, of serious injuries, are made available to mothers and 
fathers as an early warning system.
    No cop is on the beat investigating reports of actual 
deaths caused by consumer products, to ensure that additional 
lives are not lost. Just in the last couple of weeks, an 
explosion killed a worker on the D.C. Metro, a bus in Tennessee 
crossed the median and struck a tractor trailer, killing eight, 
a plane crashed in Arizona killing four. But the cops on the 
beat at the National Transportation Safety Board aren't 
investigating any of these incidents.
    The National Highway Traffic Safety Administration has 
furloughed 56 percent of its employees. More people are killed 
in highway accidents every day than by tobacco or anything 
else. Furloughed 56 percent of their employees.
    No cop is on the beat to investigate automotive safety 
defects that could lead to death or serious injury. We are also 
losing our cops on the Wall Street beat. The Commodity Futures 
Trading Commission has had to furlough 96 percent of its staff. 
Just 28 people are left to monitor a $300 trillion market. How 
many people are being ripped off all across our country and all 
across our planet right now? The cops are off the beat. Are 
there any fewer bad guys right now? No. What keeps them from 
doing the bad things? The good people, the cops on the beat.
    So yes, as each day goes by it's going to be like kreplach. 
You like pancakes, you like soup, you like meat. You like the 
Consumer Product Safety Commission, you like the Commodities 
Futures Trading Commission. And piece by piece, the Republicans 
will have 8 bills, 20 bills, 30 bills, 50 bills they have to 
pass as the public comes to understand what's in our 
government.
    So to a certain extent that's why the polling is so bad for 
them. The public now sees what the government does and to a 
certain extent they're increasingly understanding that the 
Affordable Care Act is going to make to sure that every poor 
child in America has health care. So they're saying they're 
willing to pass a bill to have the NIH get refunded, but still 
keep the government shut down unless the Affordable Care Act is 
repealed or delayed a year so that poor children can't be 
covered for coverage. I don't think the public is there. I 
don't think that's what it's all about.
    I think what you have been talking about this afternoon has 
explained more fully what it is that we need the government to 
do. And what is the government, after all? The government is 
playing a role that individual families can't do for 
themselves. That's why we have government. It's the stuff we 
all decide we have to do together.
    And thus far the Tea Party Republicans in the House, they 
haven't decided yet that the Consumer Product Safety Commission 
is important enough. But the American people believe it's 
important. They haven't decided yet that the National 
Transportation Safety Board or the National Highway Traffic 
Safety Administration is important. But they will as each day 
goes by, when they understand how people's lives are 
permanently altered because there was no protection.
    So I thank you so much for everything that you have been 
doing.
    I would ask, Mr. Chairman, that I want to add my concern 
that this shutdown on top of the sequester is harming American 
science and our innovation economy very badly. Let's be honest. 
That's who we are in this country. We are the innovation 
economy for the planet. That's our business plan. That's what 3 
percent of the world's population does as a business plan for 
the next generation. And when you're shutting down the NIH, 
when you're shutting down all these other science-based, 
innovation-based programs, China and India are just looking at 
us, saying: What are you doing? That's your business plan. 
That's what we're afraid of.
    We don't have to be--we don't have to be afraid of them, 
but we should respect them. They're coming at us in each one of 
these areas, and that is being shut down in our country. If it 
goes on much longer, it just calls into question every young 
person saying: Why should I go into those fields? Why should I 
spend my life doing that when I can do other things that 
actually reward me much greater?
    So I have here, Mr. Chairman, a letter from Dr. Susan 
Avery, who is the Director of the Woods Hole Oceanographic 
Center, to be included in the record. She notes that ``The 
costs associated with a government shutdown far exceed the real 
or hard documented costs, particularly in the science 
community, where funding interruptions can have a lasting 
impact on science experiments, long-term observations, and 
research personnel.'' I would ask, Mr. Chairman, that that 
letter be included in the record in its entirety.
    The Chairman. So ordered.
    [The information referred to follows:]

                       Woods Hole Oceanographic Institution
                                   Woods Hole, MA, October 10, 2013
Hon. Edward J. Markey,
United States Senate,
Washington, DC.

Dear Senator Markey:

    For the Senate Committee on Commerce, Science, and Transportation's 
October 11th hearing on ``The Impacts of the Government Shutdown on Our 
Economic Security,'' I would like to share with you some of the impacts 
of the shutdown on Woods Hole Oceanographic Institution (WHOI). They 
are dire, and even more so because they are occurring within the 
broader context of a dangerously eroding budget environment for 
research in our Nation.
    Let me explain: The failure to provide sustained investment for 
basic research and STEM education continues to jeopardize the viability 
of scientific and engineering entities across the country, including 
ours--an independent, nonprofit institution dedicated to ocean research 
and engineering. WHOI supports more than 1,000 employees and has a long 
legacy of making discoveries that have led to new environmental 
forecasting capabilities, improved fisheries management, life-saving 
medical products, novel technologies and commercial products, numerous 
spinoff businesses, safer and more efficient shipping, and strategic 
naval advantages that ensure our national security.
    Unfortunately, the 2013 Battelle Global R&D Funding Forecast shows 
that U.S. R&D investment continues to slip. According to the American 
Association for the Advancement of Science, ``. . . these figures put 
Federal R&D investment at its lowest point since FY 2002 . . . 
[representing] a 17.1 percent decline in just three years.'' \1\ In 
2005 and again in 2010, a committee convened by the National Academies 
has issued sobering warnings that the Nation was starving its future 
capacity ``to enjoy the jobs, security, and high standard of living 
that this and previous generations worked so hard to create'' by 
failing to invest sufficiently in basic research and science education.
---------------------------------------------------------------------------
    \1\ AAAS: R&D in the FY 2013 Budget, http://
www.aaas.orgisppirdify2013/
---------------------------------------------------------------------------
    This lack of foresight in R&D is having a particularly corrosive 
effect on ocean science where the investment, as a percentage of the 
GDP, has been reduced by half since its highpoint in the 1980s. \2\ 
This is disturbing given our increased understanding that the ocean is 
the planet's ``flywheel'' that drives climate and weather, including 
the rapid warming of the Arctic, sea level rise and shorter-term 
catastrophic storms and droughts.
---------------------------------------------------------------------------
    \2\ U.S. Commission on Ocean Policy 2004
---------------------------------------------------------------------------
    Last year the Nation suffered from 11 major weather and climate 
disasters costing more than $1 billion each, including hurricanes, 
floods, droughts, heat waves, wildfires, and Superstorm Sandy. 
Cumulatively they caused more than $110 billion in damages--the same 
amount that the Federal discretionary budget was reduced due to 
sequestration.\3\
---------------------------------------------------------------------------
    \3\ NOAA National Climate and Data Center 2013
---------------------------------------------------------------------------
    Changes in marine ecosystems--warming seawater, ocean 
acidification, increased harmful algal blooms--are disrupting the $200-
billion-a-year U.S. commercial and recreational fisheries and related 
industries,\4\ and threatening the health of coral reef systems. It is 
estimated that coral reefs alone provide about $375 billion to the 
global economy each year, supporting tourism industries, supplying 25 
percent of the fish consumed by people, and providing barriers that 
protect coastlines from sea-level rise and storm surges.
---------------------------------------------------------------------------
    \4\ Fisheries Economics of the United States 2011
---------------------------------------------------------------------------
    More than half the U.S. population lives and works along the coast. 
East and Gulf Coast properties values alone top $9 trillion.\5\ Add in 
figures for public infrastructure at risk, including roads, rail lines, 
harbors, drinking, wastewater, and nuclear facilities, and the economic 
liability is immense. The ocean science community is poised to deploy 
new technologies and provide increased information and insights that 
will help manage the rapidly escalating risks facing core economic 
infrastructure, but cannot do so with a stagnate budget.
---------------------------------------------------------------------------
    \5\ Hurricane Ike: Nature's Force vs. Structural Strength 2009
---------------------------------------------------------------------------
    The recent government shutdown threatens to exacerbate the already 
difficult budget environment that WHOI is attempting to navigate. 
Impacts potentially facing WHOI include:

  <bullet> The possible loss of an Alvin certification cruise and delay 
        in the certification process needed to get upgraded sub back 
        conducting research

  <bullet> The possible furlough and loss of NSF Ocean Observatories 
        Initiative (001) contract staff, requiring the hiring and 
        training of new support staff

  <bullet> The possible delay of 001 Pioneer Array deployment cruise

  <bullet> The possible loss of a Harmful Algal Bloom research cruise 
        on a NOAA vessel

  <bullet> The closure of the NSF Antarctic Palmer research station and 
        evacuation of WHOI scientists supporting Long-Term Ecological 
        Research, resulting in:

    <ctr-circle> Possible loss of much of the field season data 
            collection and resultant gap in baseline data

    <ctr-circle> Potential elimination of a research cruise

    <ctr-circle> Interruption of graduate students' research

  <bullet> WHOI financing of staff salaries and associated grant costs 
        pending the resumption of government services, negatively 
        impacting WHOI budget and possibly requiring layoffs

  <bullet> The inability of WHOI scientists to collaborate with Federal 
        scientists on ongoing research projects or administrative staff 
        about grant and budget issues.

    My message to you and the members of the Senate Commerce, Science, 
and Transportation Committee is that the costs associated with a 
government shutdown far exceed the real or hard documented costs, 
particularly in the science community where funding interruptions can 
have a lasting impact on science experiments, longterm observations and 
research personnel. As the Nation's premier private, not-for-profit 
ocean research and engineering institution, WHOI's operations and 
success is dependent upon sustained support from the Federal 
Government.
            Sincerely,
                                            Susan K. Avery,
                                            President and Director.
cc: Senator Elizabeth Warren

Representative William Keating

    Senator Markey. Thank you, Mr. Chairman.
    May I continue?
    The Chairman. You may.
    Senator Markey. I thank you.
    Do you all agree--just quickly, do you all agree that the 
Federal Government shutdown has increased our risk of serious 
injury or death because the cops on the beat who are 
responsible for the early detection of disease, consumer 
product defect, or dangerous environmental pollution are not at 
work, yes or no?
    Ms. Weintraub. Yes.
    Mr. Colburn. Sure, yes.
    Ms. Hersman. Sure.
    Senator Markey. Yes?
    Ms. Weintraub. Yes, sir.
    Senator Markey. Yes?
    Ms. Blakey. I'm actually not in a very good position to 
judge on what you've laid out there.
    Senator Markey. OK. I got four yesses and a ``not in a good 
position.''
    So we have lost many of the fundamental protections from 
poisons, defective products, financial crime, because the 
Federal Government are being held hostage by an extreme 
faction.
    Rachel Weintraub, do you agree that the Federal Government 
shutdown has increased the potential for market manipulation in 
our equities and futures marketplace because the cops on the 
beat who are supposed to police the markets are not at work?
    Ms. Weintraub. Yes, I do.
    Senator Markey. Is it possible that once the financial 
regulators get back to work they will never have the time or 
ability to access and analyze the large backlog of data 
awaiting them to ensure that they identify any wrongdoing and 
take steps to prosecute it?
    Ms. Weintraub. Yes, especially as the shutdown continues.
    Senator Markey. Next, just yesterday the founder of market 
research firm Nanex noted that the markets have been wilder 
than any time since August 2011 and that high frequency trading 
is running rampant. Should we be finding a new way to fund the 
Commodities Futures Trading Commission so that the next time 
there's a dispute over the budget we aren't forced to pull our 
financial cops off the beat?
    Ms. Weintraub. Yes. This is yet another example of the need 
for more robust funding for CFTC and for CFTC to be self-funded 
in the way that other financial regulators are.
    Senator Markey. Finally, Mr. Chairman. Ms. Weintraub, what 
are the implications of the Federal Trade Commission, the 
agency in charge of consumer protection and privacy, closing 
its doors for an extended period of time? Is there anyone able 
to investigate if cyber stalkers target children playing on 
their parents iPad?
    Ms. Weintraub. There is not.
    Senator Markey. There is not.
    Kreplach. We just disaggregate the government and we can 
see what it's doing on a daily basis to protect every family in 
our country.
    I thank you, Mr. Chairman, for this very important hearing.
    The Chairman. Thank you, Senator Markey. I repeat, I'm so 
glad that you're here.
    The Chairman. Senator Begich has a question. I think 
Senator Cantwell may, too.
    Senator Begich. Mine will be very short. But just to be 
fair because it's a tough question that the ranking member 
asked because you don't want to get crossways of a big issue 
we're dealing with here. But I want to assist the Senator in 
the answer to his question. For my friend from Alaska, Captain 
Colburn: The Coast Guard wasn't in any of those bills, NOAA 
wasn't in any of those bills. So your permits would not be 
solved by those bills that were sent over from the House.
    To Ms. Blakey: The satellites weren't in any of those 
bills. In all fairness, the commerce bill didn't come over. But 
I want to not put you in--I'm happy to answer these questions 
because I think it's a good question, because the assumption is 
by those bills coming over magic happens, people get funded. 
But if I had voted for every single one of those piecemeal 
bills here, you still would not be out in that crabber today, 
those satellites would not be up in the air. That's a fact.
    Ms. Blakey. And again, to be fair to Senator Thune, FAA was 
in those bills.
    Senator Begich. Oh, I agree with that.
    Ms. Blakey. But----
    Senator Begich. But you know where the satellites are. 
They're in the Commerce bill.
    Ms. Blakey. Understood, understood.
    Senator Begich. And NOAA, which a lot of people don't like 
NOAA because they don't like some of their other issues, but 
the fact is half their budget is satellites. Is that fair?
    Ms. Blakey. Across the board--yes, it's tremendously 
important. Across the board, we are also still struggling with 
the effects of the sequester coming in 2014.
    Senator Begich. Absolutely.
    Ms. Blakey. And that will be also tremendously difficult 
for all of these agencies. I can testify on the ones such as 
NOAA and FAA.
    Senator Begich. So we have to kind of jump past this and 
get the sequester done, then.
    The last thing while I have you, one of the questions I 
had. The other issue in aviation, too, besides the registry is 
the other piece of the equation, which I know in Alaska as we 
move into the winter months, schedule changing occurs, when the 
flights will go or not go. That takes work with the FAA, and 
that is not happening now, because as we move out of the summer 
season, we move into the fall season scheduling plan. Is that 
also your understanding from many of your members?
    Ms. Blakey. I'm not as detailed on that as I would like to 
be. But certainly one of the difficulties with the air traffic 
control situation right now is, while you have the controllers 
in terms of day to day operational, you don't have all of the 
work that goes behind them planning the changes that have to 
take place.
    Senator Begich. Right.
    Ms. Blakey. So there's a lot of work that isn't seen 
necessarily, but is right now----
    Senator Begich. Is critical.
    Ms. Blakey.--critical and not happening.
    Senator Begich. Very good.
    Mr. Chairman, I'll just end on this. To my friend from 
South Dakota, I agree we should have those appropriation bills. 
But remember, when we do those appropriation bills actually the 
government is open. Every time we've done those, the government 
is open. So I think that's a good point, that in a way you 
might call these ones coming over kind of like mini-
appropriation bills. But usually when you do have appropriation 
bills the government is open.
    The Chairman. Senator Cantwell.
    Senator Cantwell. Thank you, Mr. Chairman.
    Ms. Blakey, could you comment on the Instrument Landing 
System and how that works in variable weather conditions and 
your knowledge about how the FAA works with that? Right now I'm 
concerned that the Coast Guard on their missions, say they have 
somebody that needs to be rescued, is actually having to fly 
out on a different path just because they don't have their 
instrument landing checkmark certification by the FAA. Is that 
something that----
    Ms. Blakey. Well, certainly ILS around the country are very 
important from the standpoint of navigation. It's something 
that they operate at varying levels of technology and they do 
have to be constantly maintained and certified. I don't know 
the specifics on the Coast Guard's need in this regard, but I 
can certainly try to look into it. As manufacturers, we're not 
as close to that day in and day out interplay between the 
requirements of an agency like the Coast Guard and the FAA. 
This would take me back five years plus. But I'd be happy to 
look into it.
    Senator Cantwell. Well, my understanding is that we, from 
an operational perspective, even though I would consider that 
preservation of life, the fact that these Coast Guard flights 
are rescuing people and flying them---- if it is on an 
Instrument Landing System, then that would be added to your 
list of these back-end system issues at FAA that aren't being 
processed or kept up with, so that you have the Coast Guard 
having to operate these flights and potentially taking people 
out all sorts of different routes, even though they're supposed 
to be life-saving flights, just because we don't have that 
certification during this shutdown.
    Ms. Blakey. They are very short. You're certainly right to 
focus on the fact that the ongoing certification and 
maintenance right now, you're down tremendously in terms of the 
manpower to accomplish those things. And there's going to be a 
greater and greater backlog and more and more things that are 
not going to be able to then be utilized if this goes on a lot 
longer.
    Senator Cantwell. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Any other questions?
    Senator Thune. Mr. Chairman, if I might just ask one more, 
is that OK?
    The Chairman. Of course.
    Senator Thune. And I do not disagree at all that this 
should be handled in the normal appropriations process. But we 
didn't do a single bill this year, a single appropriation bill. 
We tried to get one across the floor, one, and didn't pass it.
    But I guess my point is this. I understand what you're all 
saying, that if you can't have everything then it's not a good 
outcome. But it strikes me at least--and I would throw this out 
there as a question; I'm guessing you're probably not going to 
want to answer this question. But isn't having some funding 
better than having no funding?
    Some of the things that have been mentioned--we're 
checking. I'm not sure, Mr. Leshner, that the NIH budget wasn't 
just straightforward funding. I don't think it picked out 
individual pieces of it. I think it was NIH funding at last 
year's level. But wouldn't it be better to have that?
    All I'm saying, Mr. Chairman, is, according to the Senator 
from Massachusetts, there are some Tea Party Republicans in the 
House who don't like some Russian dish, and I get that. But 
they have a funding bill over there. They have a clean funding 
bill in the House. They haven't moved it yet. They will, I 
hope, at some point. I mean, I don't think this can go on 
forever. Move something at least that can pass, get 218 over 
there and the votes necessary to pass here.
    But in the meantime, what we can do is do some of the 
things that they send us. And we have done some things. We did 
pass legislation that would fund the active duty military. I 
think we ought to fund the National Guard and Reserve. I 
offered a unanimous consent request to that effect on the floor 
and it was rejected.
    So all I'm simply saying is--and I guess that's the 
question. Obviously, I heard crickets when I asked it. But 
isn't it better to have some funding than no funding?
    [Pause.]
    Senator Thune. OK, I'll answer it----
    Mr. Colburn. I'll answer that. Not if you're the person 
that's not getting the funding.
    Senator Thune. I agree. But I'm saying----
    Mr. Colburn. I mean, if the block is riddled with families 
and one family has a great Christmas and everybody else has 
nothing, that doesn't seem like a very good Christmas.
    Senator Thune. I'm not talking about the whole enchilada. 
I'm talking about Ms. Weintraub and Mr. Leshner said that we 
can't--if we don't get everything, then we can't perform the 
functions that are required of us or provide the services 
required of us. I'm saying, isn't it better in some of those 
agencies to get some level of funding to fund some of the 
things that we can fund rather than none?
    I mean, I would rather have people back at work, 
particularly in some of these essential areas, which strike me 
as being a pretty important priority. Again, there's nothing 
that we in the Senate here can do today other than encourage 
our House colleagues to do something with what they have over 
there in front of them. All we can do is what we can do, and I 
just think that we have an opportunity, if we should take 
advantage of it, to fund some of these essential things.
    Senator Begich. Mr. Chairman, Senator Thune, if I can 
answer. You know, the problem is I think what the Captain just 
said. If we voted for every single one of those, his livelihood 
is collapsed. We're picking winners and losers when what we 
should be doing is looking in the totality of government and 
saying, let's put it back to work, and then let's have these 
debates. For example, you and I have agreed on some things that 
we need to curb back in government.
    But I think the example that the Captain gave was a very 
interesting one. Here's the street, you three win, you five 
don't, because of the priorities the House has set.
    We've also suggested amending those bills, as you know, and 
send them back over there. But we have to be careful in who the 
winners and losers are here when--right now, yes, maybe the 
Institutes of Health is fully funded, product safety is not, 
FAA is, national safety is not, Coast Guard, NOAA is not. So 
now I look at this table and I see two and a half winners.
    That means the economy--not the government employees that 
the Captain employs, but the private sector people and families 
that he supports--and those crabs aren't waiting around 
twiddling their thumbs or their claws waiting for the shutdown 
to end. They will move on or die off, just like the cod, in 
about 2 weeks, the same thing. They're not waiting for some 
magic to happen here. That means that income never comes back, 
never comes back.
    Senator Thune. And I don't disagree with that.
    Senator Begich. That's my concern.
    Senator Thune. Well, reclaiming my time, Mr. Chairman. 
Again, if we put a bill on the floor, then I would vote for an 
amendment that you would offer that would fix that particular 
situation for Captain Colburn that you just mentioned. We are 
limited to what we can do in the Senate until the House does 
what it needs to do.
    All I'm simply saying is that--and the bills that we've 
sent back to the House have been the identical bills that 
they've already been sent over. We haven't amended them. We 
just sent them. We tried to send them again the same thing that 
we've sent them before. That's been the dueling unanimous 
consent requests that we had on the floor.
    So until they take that up and do something with it, the 
things that they sent us over here, if we pick them up and pass 
them by unanimous consent like we did the active duty military 
bill, we restore the functions of the government. And there are 
certain things that I think are really important, that are 
priorities in my State. The priorities in your State ought to 
be acknowledged as well. So certainly it's your right and 
opportunity, and I think you'd find a lot of support for 
amending those bills.
    Senator Begich. Mr. Chairman, just to close, I would say 
one thing. We did the DOD bill, but because of the rush and the 
haphazard crisis management guess what we forgot? To pay 
survivors. So we had to do another rush.
    So my point is, crisis management from any administration's 
standpoint--and I've run businesses, I have been a mayor--is 
the worst type of policy because you will miss things, just as 
we did. When that bill came over from the House we all rushed 
because we wanted to make sure the safety of this country was 
taken care of for our military. We did it, we passed it. We 
were all excited. Then, oops, we forgot something.
    I don't want to do that, because whose next do we forget. 
So I'm with you that we should figure it out. My priority is 
mine. Maria may have a new priority, Jay Rockefeller. Then we 
go right back.
    Senator Thune. Well, we can all amend them. We've got 
appropriation bills. We've got vehicles on the floor right now, 
appropriations bills.
    Senator Cantwell. My amendment would be to open up 
government.
    Senator Thune. The Senator from Washington could offer that 
amendment and it would probably pass, and it would go back to 
the House. And until the House picks it up----
    Senator Cantwell. Well, let's go.
    Senator Thune.--nothing gets funded. So all I'm saying is 
what we can do here in the Senate is all we can do.
    The Chairman. I'd like to make a statement.
    Senator Thune. I was waiting for this.
    [Laughter.]
    The Chairman. I think the problem is gimmickry, that is 
you've got a problem and we'll fix it, the real effect of it 
and understandably felt the real effect of it is to lessen the 
pressure on the House to do what the House has to do, and which 
the House doesn't want to do. No, we can't take care of that in 
the Senate. But by rejecting some of these--government isn't 
like it's a whole, it's just agencies that don't talk to each 
other. Government is a vast enterprise which works together. 
Just like business, government has to feel that the future is 
going to be stable.
    So if you kind of--you buy off one group and another group, 
and that all sounds good. What it really is doing to me is 
undermining the whole concept of government, decent government, 
which we have a hard enough time doing anyway, a decent 
government acting as a whole for the American people, for, by 
the people who put us here.
    We have to make the whole government be back in order. We 
have to fund it all. And that doesn't even get at my vast 
frustration of sesquestration. I think that's an overwhelming 
sickness that has to be eliminated.
    Dr. Leshner is going to have a much thinner magazine to put 
out when people just start saying--I mean, it's like people who 
study to go and be geriatricians in medical school. What always 
happens is, it's a terrific thing to do because the country is 
aging very rapidly, but they last about 2 years and then they 
switch to a much more well-paying specialization, 
anesthesiology or something of that sort, because they just--
the pay isn't like it should be and older people are harder to 
work with and all that kind of thing.
    You have to have a holistic effort where everybody is 
interstitched, if not in every function, at least in their 
psychology, that we are back as a whole country, a whole 
government, and that we put down this what I really think is a 
hijacking effort by the Tea Party folks.
    I was just pointing out to Senator Thune, who I enormously 
admire and he knows it, that there's a poll out now that came 
out this morning. Polls are polls are polls, but this one now 
indicated that something like 30 to 35 percent of all 
Republicans see themselves as Tea Party. They identify 
themselves as Tea Party. I don't think either Senator Thune or 
I believe that, but it's part of what I'm talking about.
    We are into a generation, or at least a decade, of dividing 
each other, cutting each other, separating ourselves from each 
other, not understanding what our common purpose is here, not 
understanding what it means to get out of bed really excited to 
get to work instead of having to say, well, boy, the big deal 
today is going to be a live quorum or some judge that gets 
voted on.
    We aren't doing big things. We aren't even approaching 
that. I fear also for the institution of governance as a whole. 
People have lost so much confidence. Of course they've lost 
confidence in Congress. We're at 5 percent, we're lucky. But if 
they lose the confidence in the future--Dr. Leshner, your 
people have to have confidence in the future because they're 
putting down big debts for long-term efforts and they'll get 
Nobel Prizes or they won't, but they're going to make a heck of 
a difference.
    Every one of our folks testifying this morning are part of 
not just something called the National Transportation Safety 
Board; they're part of something called the U.S. Government and 
its responsibilities to the people as a whole. And every one of 
us are joined in that.
    We've decided somehow that we have to, because of this 
phenomenon that's come up and because of the--I don't know, I 
think it started out with the health care bill, but we've 
decided we're just going to tear each other apart. And you 
can't cure that by funding two and a half of five people. You 
cure that by saying we are in this as a whole people, as a 
whole government, and that we mean to stay that way, so that 
your scientists and your experts on pipeline explosions and 
bus, this and that, everything else, have a sense of continuity 
themselves and don't start looking for other jobs.
    People don't hang around--and agree with--you said that, 
didn't you, Mark--that people don't hang around waiting for us 
to sort out our problems. They've got to move on. They've got 
to live, and they're going to find jobs where they can get 
them, even if they're lesser paying and they're totally out of 
what the field of interest is.
    I don't think any of us can say that we get out of bed 
every morning just anxious to run to work. I've spent 50 years 
in public life, starting with the Peace Corps--no, actually 
starting with VISTA; Peace Corps was before that--loving every 
single day because of something called public policy. And why 
do I love this committee? Because it has really, really smart 
people on both sides on this committee and we have an enormous 
range of responsibilities, some of which are less known to the 
American people, but all of which are enormously important in 
affecting families and their livelihoods and their self-esteem.
    Self-esteem. Our country is losing its self-esteem because 
of gimmicks and trickery and not facing up to problems. When a 
country begins to lose its self-esteem, when it begins to 
separate itself from government as not their favorite outlet, 
something which can be there for them when it's needed without 
having to think, now, is this one funded, is that one funded--
it's a whole effort. It's the opposite of whatever that soup is 
from Russia that you were talking about, my dear friend Senator 
Markey.
    No, I think we're at a crux and I think this thing is going 
to be settled one way or another, and it's going to be 
political, it's going to be unpleasant. It's past the point 
where it can be done logically. Now we're sort of each trying 
to put each other in a position where we can't not do the right 
thing, depending on your point of view. That's a horrible way 
to run a country. It's a horrible way to be in Congress. It's a 
horrible thing to do to the American people. It's a horrible 
thing.
    All I have to do is think of MSHA not inspecting the coal 
mines in West Virginia and I can stay angry for three weeks 
just saying that. I could say that all day and stay angry, just 
like Maria gets angry. I like it when Maria gets angry.
    I'll get off my soapbox here, but I don't--I think this is 
a holistic solution or it's a catastrophic result for the 
United States of America. I don't want that.
    This hearing is adjourned.
    [Whereupon, at 3:42 p.m., the hearing was adjourned.]
                            A P P E N D I X

    Response to Written Question Submitted by Hon. Amy Klobuchar to 
                          Dr. Alan I. Leshner
    Question. More than 40,000 of the Department of Commerce's 46,000 
employees are furloughed. This has many unwelcome consequences, but the 
Census Bureau and the Bureau of Economic Analysis (BEA) are not 
providing the economic statistics that the Federal Reserve, businesses, 
investors and others count on to make informed decisions. Ultimately, 
these decisions affect all of us. This is an often overlooked impact of 
a shutdown. Could you discuss how consumers will be affected by the 
lack of information being collected by the Federal statistical 
agencies?
    Answer. The Federal Government collects, analyzes and disseminates 
an enormous amount of data; including scientific, technical, 
statistical and economic data. Economists and social scientists have 
come to rely on up-to-date Federal data, so the government shutdown 
essentially slowed and in many cases shut down the flow of facts that 
can be utilized to make critical decisions. For example, the shutdown 
of the Bureau of Labor Statistics' delayed the release of spending on 
construction, employment trends, and the Consumer Price Index; 
information that could impact decisions by investors on where to invest 
in financial markets. Alan Greenspan was quoted as saying that 
investors essentially were ``flying blind'' during the government 
shutdown. This ultimately has economic consequences at a national and 
even global level.
    But there are other agencies that also gather statistical data that 
may not be the first ones to come to mind as a typical Federal 
statistical agency. The Department of Energy's Energy Information 
Administration and units within the Department of Agriculture gather 
data that directly impact commodity markets dealing with energy, grains 
and livestock. The lack of real-time data hamstrings the ability of 
sellers to negotiate effectively with buyers.
    Within the Centers for Disease Control, for example, resides the 
National Center for Health Statistics and according to their report 
they were forced to furlough more than two-thirds of their staff. This 
limited the ability of the Center to monitor outbreaks of infectious 
diseases and food borne illnesses in real-time; critical public health 
data that many states and localities rely on.
    Ironically, the government shutdown and the inability to gather 
statistical data set the stage for a social experiment on the impact of 
the shutdown to our national economy. It is an experiment that many 
economists and social scientists will be analyzing and reporting on for 
months to come. But it is an experiment I would not recommend 
repeating.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Brian Schatz to 
                          Dr. Alan I. Leshner
    Question. The Federal Government shutdown has prevented 
collaboration and communication among researchers as Federal 
researchers were prohibited from participating in scientific meetings 
and conferences. In addition, there were instances when scientific 
meetings and conferences were postponed because of the shutdown, such 
as the White House sponsored meeting scheduled for October 3, 2013 on 
Big Data technologies. This conference would have provided the 
opportunity for public and private sector stakeholders to build 
partnerships on developing Big Data technologies. Furthermore, the 
American Association for the Advancement of Science also postponed its 
October 7, 2013 conference, ``Microbiomes in the Built Environment.'' 
Could you please further elaborate on why these scientific meetings and 
conferences are important, why Federal participation is necessary, and 
how the Federal Government shutdown has impacted scientific 
advancement?
    Answer. The AAAS represents over hundreds of thousands of 
scientists, engineers, and mathematicians--many of whom work for the 
Federal Government--across a broad spectrum of disciplines. The free 
exchange of scientific ideas and information is crucial to advancing 
science and innovation, and conferences are a standard mechanism for 
the transfer of information among scientists and engineers.
    Federal participation in scientific and technical conferences runs 
the gamut from small, specialty meetings targeted to specific areas of 
Federal interest to broad disciplinary or multi-disciplinary 
conferences that offer access to tens of thousands of research papers 
and hundreds of sessions, many of which are concurrent. Meetings are 
often organized as venues for interaction between scientists and 
engineers across government agencies and laboratories working in areas 
of common interest.
    These professional conferences provide a variety of opportunities 
for Federal agencies to advance their research missions in real and 
tangible ways:

  <bullet> Scientific, engineering and technological innovation is 
        increasingly a joint effort between researchers from 
        government, universities, industry, and other institutions. The 
        ability to network allows for the exchange of science and 
        technological information at a much faster pace.

  <bullet> It is critically important for Federal scientists and 
        engineers to know the top researchers in their fields 
        personally and to be as current as possible on promising 
        research directions. This is especially true when they are 
        responsible for funding research outside their agencies or for 
        gathering information on worldwide breakthroughs.

  <bullet> Many Federal program managers use technical conferences as 
        opportunities to engage with a wide collection of researchers 
        for peer review, program reviews and future program planning, 
        and to efficiently examine a large collection of independent 
        research projects. Because the alternative is multiple visits 
        to individual research laboratories, this approach represents a 
        significant savings of both cost and time.

  <bullet> Many science and technology conferences provide 
        undergraduate and graduate students with an opportunity to 
        present their research through poster sessions, allowing 
        Federal researchers and program managers an opportunity to 
        recruit prospective researchers.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
